<html>
<title> - RELIGIOUS FREEDOM IN CHINA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                       RELIGIOUS FREEDOM IN CHINA

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2004

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                                 ______

                U.S. GOVERNMENT PRINTING OFFICE
97-362 PDF            WASHINGTON : 2005

_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                               Senate      
                                     
JIM LEACH, Iowa, Chairman           CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska             CRAIG THOMAS, Wyoming
DAVID DREIER, California            SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania             GORDON SMITH, Oregon
SANDER LEVIN, Michigan              MAX BAUCUS, Montana
MARCY KAPTUR, Ohio                  CARL LEVIN, Michigan
SHERROD BROWN, Ohio                 DIANNE FEINSTEIN, California
DAVID WU, Oregon                    BYRON DORGAN, North Dakota         


                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State
                  STEPHEN J. LAW, Department of Labor

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Hon. James A. Leach, a U.S. Representative 
  from Iowa, Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Bansal, Preeta D., Chair, U.S. Commission on International 
  Religious Freedom, Washington, DC..............................     2
Potter, Pitman B., director, The Institute of Asian Research, 
  University of British Columbia, Vancouver, BC, Canada..........    10
Fu, Bob, president, China Aid Association, Midland, TX...........    13
Kung, Joseph, M.C., president, Cardinal Kung Foundation, 
  Stamford, CT...................................................    17
Sangdrol, Ngawang, human rights analyst, the International 
  Campaign for Tibet, Washington, DC, through an interpreter, 
  Bhuchung Tsering...............................................    21

                                APPENDIX
                          Prepared Statements

Bansal, Preeta D.................................................    34
Potter, Pitman B.................................................    39
Fu, Bob..........................................................    53
Kung, Joseph M.C.................................................    65
Sangdrol, Ngawang................................................    68

Leach, Hon. James A..............................................    71


                       RELIGIOUS FREEDOM IN CHINA

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2004

                            Congressional-Executive
                                        Commission on China
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:08 
a.m., in room 2255, Rayburn House Office Building, 
Representative Jim Leach [Chairman of the Commission] 
presiding.
    Also present: Representative Joseph R. Pitts.

OPENING STATEMENT OF HON. JAMES A. LEACH, A U.S. REPRESENTATIVE 
  FROM IOWA, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Chairman Leach. The Commission will come to order.
    Let me just begin by observing that the Commission convenes 
this morning to hear several experts who have agreed to share 
with us their analysis of the intensifying government campaign 
in many parts of China against religious groups, individual 
believers, and practitioners. Religious freedom around the 
world remains among the most important issues of concern for 
most Americans, and for that reason, freedom of religion has 
been a central topic in our bilateral human rights discussions 
with China for many years.
    Unlike Karl Marx who believed that religion was the 
``opiate of the masses,'' our country's founders held that 
ethical values derived from religion anteceded and anchored 
political institutions. It is the class struggle implications 
of Marxism, the exhortation to hate thy fellow citizen instead 
of ``love thy enemy'' that stands in stark contrast with the 
demand of tolerance built into our Bill of Rights.
    From the American perspective, the real opiate of the 20th 
and the 21st centuries would appear to be intolerance, the 
instinct of hatred which becomes manifest in the individual and 
unleashed in society when government fails to provide 
safeguards for individual rights and fails to erect civilizing 
institutions adaptable to change and accountable to the people. 
Churches, religious schools, hospitals, and faith-based 
charitable organizations are the examples of this type of 
civilizing institution. Coupled with religious faith itself, 
such institutions can be a powerful force for tolerance.
    Both the Congress and the Executive Branch have long 
stressed the importance of religious freedom in China. The 
Senate and House have frequently passed resolutions calling on 
Chinese authorities to respect the freedom of worship, belief, 
and religious affiliation guaranteed by international human 
rights norms.
    In his first term, President Bush raised U.S. concerns 
about religious freedom with the most senior Chinese leaders, 
emphasizing the importance of treating peoples of faith with 
fairness and dignity, freeing prisoners of conscience, and 
respecting the religious and cultural traditions of the people 
of Tibet.
    The Chinese Constitution says that the government protects 
normal religious activity, but in practice, the government and 
the Communist Party require that religion be consistent with 
state-defined patriotism. Official repression of religion is 
particularly harsh in the Tibetan and Uighur areas, where 
religious conviction and traditions may frequently be 
interwoven with separatist sentiment. Chinese authorities often 
see separatist sentiment as a precursor to terrorism, even when 
religious practitioners express such sentiment peacefully and 
advocate non-violence.
    In June 2003, the Commission convened a hearing to assess 
whether the rise of a new group of senior Chinese political 
leaders might augur a change in government policy toward 
religion. Our witnesses were not very optimistic about any such 
changes, at least over the short term. We also became 
interested in whether the new leadership group would encourage 
the social service activities of religious groups so that 
faith-based groups would take responsibility for some of the 
social services that governments at all levels in China can no 
longer sustain.
    Roughly 18 months later, we have seen evidence of some 
increased official tolerance of faith-based social service 
initiatives in some places in China, but in general we have not 
seen significant liberalization of Chinese Government policy 
toward religion itself. Indeed, there is significant evidence 
of a tightening of repressive measures in many places in China.
    With these comments in mind, let me introduce our first 
panel, which is a single individual panel. Our first witness is 
Preeta D. Bansal. Ms. Bansal is the current chair of the U.S. 
Commission on International Religious Freedom.
    She is currently of-counsel to a Washington, DC law firm. 
She has held positions as a fellow at the Institute of Politics 
at Harvard, and she has served as solicitor general of the 
State of New York.
    I might say, by education background, Ms. Bansal is a 
graduate of a defunct college. We will not hold that against 
you. Radcliffe apparently did a leveraged buyout with Harvard. 
[Laughter.] And she is also a graduate of Harvard Law School.
    We welcome you, Ms. Bansal.

   STATEMENT OF PREETA D. BANSAL, CHAIR, U.S. COMMISSION ON 
        INTERNATIONAL RELIGIOUS FREEDOM, WASHINGTON, DC

    Ms. Bansal. Thank you, Mr. Chairman. Thank you very much 
for holding this important hearing today, especially focusing 
on this particular topic of religious freedom.
    With your permission, I would like to submit full testimony 
for the record.
    Chairman Leach. Without objection, so ordered.
    [The prepared statement of Ms. Bansal appears in the 
appendix.]
    Ms. Bansal. The Commission on International Religious 
Freedom has followed events closely in China for the past 
several years. Not surprising to you and to most of the people 
in this audience, the Government of China views religion, 
religious adherence, religious communities, and spiritual 
groups such as the Falun Gong, primarily as issues of security.
    The United States should not ignore this fact, and we 
should fashion policies and actions that integrate the right of 
thought, conscience, religion and belief, with our security and 
economic interests and our security and economic policies in 
China.
    Several witnesses who will follow me today are going to 
talk about the situation on the ground and recent events about 
the crackdown on religious adherents in China. I would like to 
spend my time today talking with you a little bit about the 
importance of integrating freedom of thought, conscience and 
religion into a broader agenda with the Government of China, 
and also about some specific policy recommendations to achieve 
that end.
    The Commission on International Religious Freedom views 
respect for freedom of thought, conscience, religion, and 
belief as a critical indicator of stable countries, stable 
trading partners, stable allies, and stable regions. We think 
it is no longer possible to treat human rights and freedom of 
thought, conscience, religion, and belief, in particular, as 
marginal, soft issues of foreign policy. The events of the past 
five years in this country have tragically reminded us that we 
ignore religion at our peril when we deal with countries 
abroad.
    Although China is somewhat sui generis when it comes to the 
intersection of freedom of religion and belief with security 
and economic issues, I think it is fair to say that freedom of 
religion is not a side, marginal issue with respect to China, 
if for no other reason than the fact that the Government of 
China does not treat it as a marginal concern. Repression of 
individual rights and conscience occupies a central policy of 
this, and past, Chinese regimes.
    China has made some impressive strides in promoting 
economic freedom. In the past decade, the Chinese Government 
has embraced some of the benefits of the free market, with 
dramatic 
results. The Chinese people undoubtedly have greater mobility, 
increased property rights, and greater access to information 
than they have in the past.
    However, it can no longer be argued that human rights 
violations are temporary tradeoffs necessary to achieve 
economic development. In fact, we think the opposite is true. 
Achieving the full measure of economic development depends on 
improving human rights protections. Restrictions on freedom of 
speech and freedom of association, for example, stifle the type 
of communication needed to manage risk, root out corruption, 
and address environmental health and labor safety issues. Nor 
can China fully compete in a global economy when it restricts 
Internet access or censors the domestic or foreign press. The 
Government of China too often sees the free flow of ideas and 
the ability to act on these ideas as a threat to stability and 
prosperity, and not as a way to promote economic development.
    Without going into great detail, which is contained in my 
written testimony, I just want to say that respect for human 
rights is also important for regional stability, both in China 
and throughout the region. Peaceful resolution of the Taiwan 
issue, for example, and the successful management of Hong Kong 
under the PRC's sovereignty, in many ways, will require respect 
for human rights. The human rights gap in these regions and in 
these areas is a potential source of instability, particularly 
in the way that China treats its citizens in Tibet and 
Xinjiang, and undermines Hong Kong's political freedoms. Any 
social or political meltdowns in these areas will certainly 
involve Western, and other, interests.
    Active attempts to control and restrict religious practice 
and activities of Tibetan Buddhists, Uighur Muslims, 
unregistered Protestants and Catholics, and various spiritual 
movements such as the Falun Gong, for example, have only caused 
more friction and social instability.
    For example--and this is just one example of more that are 
contained in my written testimony--religion is a key source of 
identify for Tibetan and Uighur Muslims. Ongoing campaigns to 
promote atheism and to control religious expression and 
practice in Xinjiang and Tibet are fostering a widening 
division and resentment between the Tibetan and Uighur 
minorities and the Han Chinese majority.
    As I mentioned at the outset, I am not going to spend a lot 
of my short, precious time in this oral testimony detailing 
past and current crackdowns and religious practice in China. I 
would like to talk about some specific policy recommendations 
that we have for better integrating religious freedom concerns 
into the U.S.-China relationship.
    First of all, we think that effective external pressure 
requires a consistent and strong critique of China's human 
rights practices based on international standards. We need 
better interagency coordination of human rights issues into the 
full scope of our bilateral relationship.
    President Bush, other cabinet heads, and senior officials 
have raised human rights and religious freedom concerns with 
China's political leadership and with the Chinese people 
themselves in public addresses. These are important steps that 
should be continued. However, we think that Congress, and this 
Commission in particular, can play a greater role in fostering 
interagency dialogue and interagency communication so that the 
different cabinet agencies and the different aspects of the 
U.S. Government that interact with China on a range of concerns 
consistently speak about human rights issues and that these are 
not shunted off to the side. We think that this Commission 
should play a role in making sure that all parts of the Federal 
Government speak with one voice when it comes to raising human 
rights issues at every turn.
    Second, we think that bilateral human rights dialogues in 
China should be revisited, and perhaps strengthened. This is an 
opportune time to talk about those dialogues because, as we are 
here today, there are presently United States representatives 
in Beijing negotiating the resumption of these bilateral 
dialogues. In resuming these, there are several critical 
concerns that we have about the way these dialogues have been 
conducted in the past that we think should be addressed.
    We recently had a forum on this issue where we brought in 
witnesses who are doing bilateral dialogues for a number of 
countries, and we heard their concerns and suggestions for 
improvement. We are now digesting those suggestions, but some 
of the issues that have come up in terms of the effectiveness 
of the bilateral dialogues include the lack of benchmarks. The 
dialogues have had no publicly stated goals, so it has been 
difficult to evaluate their effectiveness and content.
    The lack of transparency is one problem. Most of the 
discussions and topic items on discussion in the dialogues are 
not disclosed, so it is very difficult for outside experts and 
groups to evaluate what was said, what went wrong, and what was 
accomplished.
    A related point is the lack of consultation with outside 
experts and China hands in setting the agenda.
    The lack of continuity is another concern. One of the 
things we heard frequently from most of the countries engaged 
in bilateral dialogues was that the Chinese Government 
officials participating in these dialogues constantly change 
from year to year, making long-term, and even medium-term, 
working relationships difficult. These concerns about the way 
in which the bilateral dialogues are conducted have been 
circulated for a number of years, but they have not 
dramatically affected the way the U.S. Government conducts our 
bilateral dialogues.
    We think that Congress should require that the State 
Department submit a report annually to the appropriate 
congressional committee, detailing the issues discussed at the 
previous year's meetings, describing the extent to which the 
Government of China has made progress during the previous year. 
This kind of a system was recently mandated with respect to the 
bilateral dialogue with Vietnam.
    The Religious Freedom Commission heard testimony recently 
from participants in the U.S.-Vietnam human rights dialogue, 
and we heard that the Congressional mandate was beneficial in 
establishing benchmarks and measuring progress in the way that 
the U.S.-Vietnam human rights dialogues proceed. So in this 
way, we think that Congressional involvement in the dialogues 
can provide the political capital needed to focus the dialogues 
on getting important roles met and setting attainable 
benchmarks.
    Third, we think that the United States should continue to 
work toward a resolution at the U.N. Commission on Human 
Rights, and work for its passage at an appropriate and high 
official level. It is essential that bilateral and multilateral 
diplomacy work together to focus attention on China to improve 
its human rights practices, rather than working at cross-
purposes. We fear that bilateral dialogues may have become a 
substitute for multilateral actions, so the United States 
should continue to seek such a resolution condemning China.
    More importantly, we think that the United States should 
begin this process early enough so that a sufficient momentum 
can be attained so there is actually a reasonable possibility 
of passage. We think the United States needs to work at the 
multilateral forum as much as the bilateral dialogues in order 
to build an effective coalition, and we think that needs to be 
done at an appropriately high level.
    Fourth, the State Department and other relevant agencies, 
we think, should take the lead in coordinating with other 
nations on technical cooperation and capacity building programs 
in China.
    In just the last decade, the United States and several 
other Western nations have established successful programs for 
technical assistance and cooperation, basically in the areas of 
legal reform and economic capacity building. These programs are 
intended to assist China in complying with its international 
and human rights commitments. Fifteen different countries are 
pursuing some form of rule of law, human rights, or NGO 
capacity building projects, and millions and millions of 
dollars and hours of labor are spent on these projects. But 
there is really no coordination as to methods, goals, outcomes, 
or viable partners. Just as we think that bilateral dialogues 
sometimes are not effectively coordinated among the various 
countries, we think that these capacity building programs can 
be better coordinated and the United States really should take 
the lead. We think the State Department, including USAID and 
other relevant agencies, should organize regular meetings of 
nations with technical cooperation programs, seeking to 
coordinate various programs across disciplines and nations. It 
is important to note that these kinds of technical assistance 
programs are actively sought by China. Even when the bilateral 
dialogue was canceled last year with China, technical support 
programs were not canceled. So, the United States should take 
the lead in improving and better coordinating the 15 countries' 
approaches.
    Fifth, we think that the United States legal reform and 
rule of law programs should be calibrated to integrate 
religious freedom and related human rights into their 
programming goals. At the present time, the State Department 
does not have a legal reform program in China that relates 
directly to advancing the freedom of thought, conscience, 
religion, and belief. There are obviously numerous commercial 
rule of law programs, but the legal reform programs that have 
trained lawyers, who now represent those 
attempting to fight for their rights, in disputes that involve 
property, and various other sources, provide a source for 
internal pressure upon the Chinese Government to conform to 
international standards. So it seems appropriate and opportune 
at this time to fund legal reform programs that also integrate 
the information and expertise on the freedom of thought, 
conscience, religion, or belief into the other rule of law 
initiatives.
    Sixth, we think that the United States should engage in a 
review of all foreign funding and public diplomacy programs for 
China to look at ways in which freedom of thought, conscience 
and religion can be integrated into our programming. The State 
Department, pursuant to the International Religious Freedom 
Act, should consult with the Religious Freedom Commission in 
advancing these goals.
    Related to some of the other lack of coordination issues 
that I have talked about previously, there is a lot of 
different programming out there, obviously, with China. We 
think that it is time, based on what is happening on the 
ground, to really focus on religious freedom and related human 
rights and integrate knowledge, expertise, and information 
about that within the other programming that is already going 
on. It can happen through the USAID foreign aid funding, as 
well as State Department public diplomacy funding.
    Seventh, we think that the United States should establish 
an official presence in Xinjiang and Tibet. Given that 
religious freedom and human rights concerns are central to the 
issues in these regions, and given the growing economic 
development interests in the region, the United States should 
seek to establish an official governmental presence, such as a 
consulate in Lhasa, Tibet, and Urumqi, Xinjiang.
    Finally, we think that the United States, and your 
Commission in particular, Mr. Chairman, might consider programs 
for providing incentives for businesses to promote human 
rights. The last five years, obviously, have brought a 
proliferation of corporate responsibility codes of conduct and 
monitoring programs. These activities are certainly laudable, 
and the example of John Kamm is a remarkable one, of United 
States business people being effective Ambassadors for human 
rights in China. But there is a problem in that the corporate 
conduct codes often vary widely and they do not contain non-
discrimination provisions pertaining to religion and belief. 
So, we think that some order has to be brought back to the 
process, both to unite the United States business community 
around similar principles, and get back to the objective of 
Congress in the International Religious Freedom Act to engage 
the business community, to provide positive examples of human 
rights in China.
    Given that conduct codes are voluntary, we think the one 
area that could be thought through and developed is offering 
incentives to businesses to establish innovative approaches to 
promote religious freedom and related human rights in China, 
and outside of the United States in general. Maybe the first 
place to start is to consider extending breaks on loans, 
insurance, and loan guarantees from the Export-Import Bank or 
from the Asian Development Bank. The Eximbank, in particular, 
is required to consider human rights in extending services to 
U.S. companies.
    Given that China has recently ratified the International 
Covenant on Economic, Social, and Cultural Rights, there is an 
opportunity to mesh China's international obligations with 
voluntary corporate action. What is needed, again, is better 
coordination across industries and business sectors to 
determine best practices and viable incentives.
    Mr. Chairman, given the bipartisan nature and reputation of 
your Commission, including several past hearings you have held 
on China's labor practices, we suggest that perhaps the CECC, 
or possibly the U.S.-China Economic and Security Review 
Commission, organize an international business roundtable with 
leaders in order to promote fundamental freedoms, including 
thought, conscience, and religion, and to incorporate those 
freedoms into ideas for action. There has been much discussion 
with the business communities on ways to protect labor 
practices, worker safety, and environmental standards as part 
of their corporate responsibility codes, but there has been, as 
of yet, little effort to integrate or to understand the role of 
freedom of religion and belief into those codes. We hope that 
any international business roundtable would emphasize the 
promotion of the right to religious freedom. Our Religious 
Freedom Commission and staff could certainly assist in planning 
and provide contacts for such an effort.
    Mr. Chairman, no one can comfortably admit to knowing 
exactly how best to strengthen human rights diplomacy in China. 
This is an intractable and difficult issue, as you well know.
    That is why, despite having two official visits by our 
Commission canceled, literally at the last hour, due to 
unacceptable conditions placed on our itinerary in China, we 
remain committed to visiting China with an appropriate 
invitation from the Chinese Government. We are seeking to 
examine conditions firsthand, if indeed that is possible, and 
to discuss policies and actions with those in China who are 
responsible for issues of religion and human rights. We hope 
that through honest and coordinated exchanges with the United 
States and other nations, that China's leaders will soon begin 
to recognize that, while prosperity and security may be playing 
a part in leading to national well-being, good standing in the 
community of nations will only be secured by protecting 
universal human rights for every Chinese citizen. Thank you 
very much.
    Chairman Leach. Well, thank you. Thank you for those 
constructive suggestions.
    I would like to ask a couple of questions that are kind of 
awkward on the issue of motivation. We know the Chinese 
Government is apprehensive about religious freedom. One of the 
great questions is why.
    Is it a philosophical apprehension, or it is an 
apprehension that is rooted in the concern that religion can be 
somehow used as a force against the governing bodies, 
particularly the Communist Party? There is an old Chinese 
model--there are a lot of Chinese models--and there is also a 
modern-day eastern European model in which the Catholic Church 
certainly was instrumental--particularly in Poland, but also in 
all of the eastern European states--in organizing against the 
Communist Party. There is also the strange model of the Taiping 
Rebellion in China, which was in the 1850s. But do you have a 
sense of why it is that the Chinese are so apprehensive about 
opening up on freedom?
    Ms. Bansal. I think it is related, in large part, to their 
concern about having any alternative center of allegiance and 
power within Chinese society that cannot be completely 
controlled by the Chinese Government. I think we see that, in 
part, through the Chinese Government's willingness to allow 
some religious activity, but only under very tight state 
control. So, it seems as though the issue has evolved, so it is 
not simply trying to root out religion, but it is trying to 
root out any form of civil society that is not tightly 
controlled by the state. It seems to be just a control issue 
and a fear of independent associations of people gathering that 
are outside state control.
    Chairman Leach. Well, there is an internal state control 
question, and then there are issues relating to China's 
nationalities. For example, do you see any great distinction 
between how the Tibetans are treated and how the Uighurs are 
treated? What do you see as differentiation between them?
    Ms. Bansal. I am not sure.
    Chairman Leach. What I am getting at, is this principally a 
nationalist concern or is it principally an internal control 
kind of set of issues?
    Ms. Bansal. I think it is probably a little bit of both. I 
guess my own personal view is that it is an internal control 
issue principally. There is some concern with so-called 
``foreign influences'' on the people. I think there might be a 
little bit of a nationalistic concern, but I personally view it 
more as just a control issue.
    Chairman Leach. How do you look at the treatment of Muslims 
in China?
    Ms. Bansal. The treatment of Muslims, especially out in the 
west, is very problematic. Like the central Asian model, China 
has used concerns about terrorism to justify widespread actions 
that root out, really, any expressions of faith.
    Chairman Leach. While not precisely religion, the Falun 
Gong describe themselves as a spiritual movement. What is the 
rationale for the crackdown on the Falun Gong? Is it different 
than the rationale you have described for the Muslims or the 
Uighurs? Is there something special about the Falun Gong that 
has caused such a comprehensive reaction to those who identify 
with this movement?
    Ms. Bansal. Again, it is hard, obviously, to define the 
motives. I am not sure the stated rationale as to the 
crackdowns is that different from any other stated rationale 
for crackdowns on other groups. I just do not know the answer 
to that.
    Chairman Leach. Well, thank you very much. I apologize. We 
have several other members that have committed to coming, and I 
had hoped they would be here to follow on with questions. But 
we may want to submit some questions in writing. Is that all 
right with you?
    Ms. Bansal. Please do. Yes.
    Chairman Leach. Fine.
    Ms. Bansal. Thank you.
    Chairman Leach. Thank you very much for that thoughtful 
testimony.
    Our second panel is composed of Professor Pitman B. Potter. 
Professor Potter is director of the Institute of Asian Research 
at the University of British Columbia [UBC]. He is also 
professor of law and director of Chinese Legal Studies at UBC's 
Faculty of Law. Professor Potter was educated partly in this 
town at George Washington University, and holds a law degree 
from the University of Washington.
    In addition, we have Reverend Bob Fu. Is Reverend Fu here? 
You might come and sit up here as well, Reverend Fu. Pastor Bob 
Fu is the president of the China Aid Association, which is an 
evangelical NGO focusing on persecuted Christians in China. 
Pastor Fu was involved in the pro-democracy movement in China 
as a student demonstrator, then turned to embrace Christ and 
His teachings in the early 1990s.
    The third panelist--and I apologize for the pronunciations 
here--is Ngawang Sangdrol of Garu Nunnery, who was born in 1977 
and entered the nunnery at a young age. She was detained in 
1992 and imprisoned for peacefully demonstrating against the 
Chinese occupation of Tibet. Both she and her late father 
served overlapping terms in the Drapchi prison from 1992 to 
1999 for their individual demonstrations.
    The final witness is Joseph M.C. Kung. Joseph Kung is 
president of the Cardinal Kung Foundation located in Stamford, 
CT. The Foundation seeks to carry on the work of the late 
Ignatius Cardinal Kung Pin-mei by promoting Catholicism in 
China through prayer, financial support, and other appropriate 
projects. Mr. Kung came to the United States from China in 
1955.
    I welcome each and all of you.
    Unless you have made a prearranged agreement, I will go in 
the order of introduction. Is that all right with you? [No 
response].
    So, we will begin with Professor Potter. Welcome, from 
Canada.

STATEMENT OF PITMAN B. POTTER, DIRECTOR, THE INSTITUTE OF ASIAN 
                RESEARCH, UNIVERSITY OF BRITISH 
                COLUMBIA, VANCOUVER, BC, CANADA

    Mr. Potter. Thank you, Mr. Chairman. I am honored to be 
here, and I thank the Commission for the invitation.
    My topic is to address the issue of the regulation of 
religion in China, and this draws on my paper that was 
published in the China Quarterly last July on the regulation of 
religion in China, and also based on updates on my work both in 
Canada, and also in China, over the past year. What I would 
like to do is provide a bit of analytical context for 
understanding the conditions of religious regulation in China. 
We are all aware of the intensity of the religious revival that 
has been going on in China for some years, but I think it is 
also important to recognize the importance of broader social 
changes in China that present numerous challenges for the 
government.
    I think it is fair to say that the current president and 
the new policies of the current government are very attentive 
to issues of social wellbeing and social welfare, but they are 
equally committed to issues of social and public security. That 
balance has been very difficult for them, and that is one of 
the reasons why religion is seen as, in part, a bit of a 
tradeoff in that area. I think it is also important to 
recognize the extent to which some features of civil society 
are emerging from China. I think the contrasts between the 
China of today and the China of even five years ago are quite 
remarkable and should be taken into account when we are 
thinking about religious behavior.
    Finally, regime legitimacy is a critical challenge for the 
current government. They are very aware of it and are taking 
steps in terms of social policy to try to deal with that issue. 
So I think it is useful to bear those contexts in mind. I think 
it is also important to understand the regime's perspectives on 
social regulation, and also to understand issues of 
institutional capacity related to the control of religion.
    In sum, what I would like to say in these remarks--and I 
will try to keep them brief--is that China is a state in 
transition. That transition is not complete and we do not have 
firm evidence or understanding of where it is going. But it is 
a state in transition, and that needs to be borne in mind when 
we look at institutional responses to social change, religion, 
and otherwise.
    Second, I think we should be looking for opportunities to 
invite China to take its own legal system seriously. China has 
enacted a range of laws and regulations that recognize the 
principle of freedom of belief. They distinguish between 
freedom of belief and freedom of behavior, and the freedom of 
behavior question is largely dealt with in areas of public 
security, criminal law, and so on. But even in those areas, 
there are procedural rules that should be taken seriously and 
we should be inviting the Chinese to take their own system 
seriously.
    I think it is a useful exercise to look at incidents of 
repression of religious behavior in China over the past number 
of years, and look at those in terms of what China's own legal 
system requires. I think if we do that, most of the time we 
will find that the rules that are being violated are the rules 
that China has set for itself. I think that this approach is 
more useful than taking standards derived from Washington, 
Ottawa, or London and saying, ``these are the international 
norms with which China must comply.''
    I think if we look through the local regulations on 
regulation of religious behavior in China, I think if we look 
through the white papers that have been issued by the Chinese 
Government, I think if we look through the law recently revised 
on autonomy of local minority areas, in terms of text, those 
laws are broadly comparable to international standards. The 
difficulty is in the enforcement process. This is where, it 
seems to me, a useful way to go about it is to say, ``here are 
rules that China has set for itself, and it is in the 
enforcement of those rules that China should be invited to 
improve its compliance,'' rather than saying, ``we have a set 
of standards here in Washington, or in Ottawa, or elsewhere.''
    I did want to say a word or two about the ideological 
underpinnings for Party policy on religion in China. As many 
know, laws in China proceed basically from Party policy. The 
Party, through the United Front Work Department, the so-called 
Tongzhong Bu, has significant responsibility for the Party on 
religion, and therefore for regulations and laws that proceed 
from them. So, the ideological underpinnings are important.
    And the first aspect of that--and I hope this responds, in 
part, to your earlier question about why the Chinese Government 
is apprehensive about religion--is an ideology of Socialist 
transformation. Now, these terms mean something in China. They 
are not just ideological verbiage that is tossed out without 
meaning. They have specific meaning. When we think about 
Socialist transformation in China, it is about building 
ideological orthodoxy around Party and state priorities of 
developing the economy and developing the society. There is 
significant attention placed on the need for social stability. 
Now, we could get into a discussion about whether the objective 
of social stability trumps, if you will, other human rights 
issues, and there is open debate about that in the 
international scholarly community and in the international 
policy community. But China has articulated some positions on 
that, and I think it is useful to understand those and to hold 
them to them, if you will.
    Through this process of Socialist transformation, 
significant attention is paid to political control, as the 
previous witness noted. I think it is very important to 
recognize that this applies not simply to religion. If we think 
about approaches to independent labor unions, if we look at 
approaches to other independent groups, there is a concern with 
ideological heterodoxy, on one hand, and organizations that are 
not subject to state and Party control. Religion is just one 
example. On the other hand, this is tied to a developmental 
ethic of Socialist transformation, and I think it is useful to 
bear that in mind.
    A second ideological underpinning, I think, is that there 
is resistance to foreign domination. This is articulated in 
many laws and regulations about religion in China.
    A third dimension is the modernity question. Religion, 
especially the folk religions which are actually among the most 
prominent in China and get very little attention in the 
international human rights literature, is seen as backward and 
sort of an embarrassing feudal remnant, if you will, that is 
seen as antithetical to the state's pursuit of modernity. But 
because these do not tend to be organized in a political way, 
and because they tend to be organized around family and kinship 
lines, they are not seen as much of a challenge and they are 
not as much of a target of government action.
    A fourth ideological underpinning of behavioral policy 
approach has to do with Han-minority relations. This is an 
issue of policy, but it also informs politics and policies on 
religion in the minority nationality areas of Xinjiang and 
Tibet. I think those kinds of factors can be understood to be 
at play in virtually all of China's policies, laws and 
regulations, and actions on religion.
    I would like to then turn to two last points in my 
presentation, and I think the opportunity for questions and 
answers will be most valuable. China's regulation of religion 
is really aimed at two objectives. The first is control or 
suppression of competing ideologies. The second is control or 
suppression of organized alternatives to the Party-State. I 
think that it is helpful to see this not as the singling out of 
religion, but rather as the inclusion of religion among targets 
of campaigns to ensure ideological orthodoxy and sociopolitical 
conformity.
    If we look at the government's response to the riots 
recently in Zhongmou County in Henan between the Hui minority 
and local Han Chinese, this suggests that a police and public 
order approach is used very often where issues are of general 
ethnic or sectarian conflict rather than issues of organized 
competition.
    I think it is very useful to contrast, for example, the 
response to that social unrest to questions about the 
regulation of religion as an organized alternative to state 
orthodoxy in areas such as the coastal areas of Shanghai and so 
on, or even in interior areas of Xinjiang and Tibet.
    The last point I would like to make is that the regulation 
of religion in China, as I have said in my paper, poses a very 
significant challenge for regime legitimacy. The regime, over 
the past 10 years, has established what some have called a zone 
of indifference, essentially a tradeoff of autonomy for 
political loyalty. The regulation of religion raises the 
prospect that that tradeoff will be violated, because many of 
those who are participating in religion in China are 
politically loyal, and yet their religious behavior is 
regulated to an extent that many consider objectionable.
    Now, this is not so much the case in Xinjiang and Tibet, 
but it is more the case in the coastal areas which are really 
the challenge for legitimacy. That issue can be resolved by the 
regime by reference to its own legal system.
    This brings me back to the point I started with, which is 
that I think that the discussion of regulation of religion in 
China, and human rights more generally, can usefully be shifted 
from a standpoint which can tend to be parochial in the sense 
of reflecting the personal views of those in Europe, Canada, or 
the United States, or what have you, to a sense that China has 
enacted rules that reflect its understanding of international 
obligations, those rules are entrenched in the legal system, 
and we should be inviting China to take that legal system 
seriously and to adhere to the rules that it set itself for the 
regulation of religion.
    I would be happy to answer questions that you have, Mr. 
Chairman, but I do not want to take time that should be 
allocated to the other panelists. Thank you very much.
    [The prepared statement of Mr. Potter appears in the 
appendix.]
    Chairman Leach. Well, thank you very much for that 
thoughtful testimony. Reverend Fu.

STATEMENT OF BOB FU, PRESIDENT, CHINA AID ASSOCIATION, MIDLAND, 
                               TX

    Reverend Fu. Thank you, Mr. Chairman, Co-Chairman, and 
honorable Commission members, for giving me the privilege and 
honor of being here today.
    My expertise has been the Protestant house churches of 
China. I would like to really thank President Bush for 
highlighting this important issue of religious freedom 
manifested both in his public remarks and private 
conversations. I applaud the effort of Members of Congress, 
especially from this Commission, and particularly Congressman 
Wolf, whose request made today's hearing possible. All of these 
efforts have produced fruit in one way or another. At least 
after President Bush took office in 2001, all of the diplomats 
from China's Foreign Ministry were required to study about 
religion, especially Christianity, so you will not be surprised 
to hear a few quotes from the Holy Bible from the mouths of the 
Chinese Communist Party officials when we meet with them.
    Mr. Chairman, the condition of religious persecution in 
China, overall, has been deteriorating, particularly since 
2002. Though it is difficult to give an exact number, without 
including Falun Gong practitioners, over 20,000 members of 
underground religious groups have been arrested, detained, 
kidnapped, or are under house arrest since 2002. Hundreds of 
churches and homes have been destroyed. Many of the family 
members of those arrested and detained--for example, the 
prominent Chinese house church leader Zhang Rongliang--have 
been put on wanted lists, and their family members have had to 
flee their homes.
    Among those persecuted are Protestant house church groups. 
One known case is the South China Church, which has about 
100,000 members. They had over 6,000 members arrested, 
detained, and fined, since 2001. I actually just received a 
list of their names, their arrests, and which Public Security 
Bureau Office executed the raid, and also how much they were 
fined, and where they are imprisoned. It was this thick, the 
names from this group alone. Sixty-three were formally 
sentenced from one year to life in prison, and many of the 
arrested believers, especially women, were tortured, raped, or 
sexually abused during their interrogations. We have 
depositions in written form, and hundreds of other written 
interviews with those who were tortured.
    One would expect a better start once the new leadership 
took 
office in 2003, but what has happened does not match this 
expectation. Thus, within the first nine months of this year we 
have recorded over 400 arrests of house church pastors. Just 
within the month of September, 13 pastors were formally sent to 
re-education through labor camps in Henan Province alone. We 
have all the documents on their arrest papers. One of these 
pastors, Pastor Ping Xingsheng, has lost consciousness three 
times since his arrest on August 6th because of repeated 
beatings by his interrogators.
    On June 18, a Christian woman, Mrs. Jiang Zongxiu, a 32-
year-old from Chongqing City, was beaten to death just simply 
because she was found distributing Bibles and Christian tracts 
in the marketplace. We have her photos. Yesterday, we published 
some of the profiles of these Christian prisoners in the 
Washington Times. We also had an interview of her family 
members, including her four-year-old son.
    I wish we had the equipment so I could show this video 
today. On September 11 of this year, Pastor Cai Zhuohua, a 
Beijing house church leader ministering to six churches, was 
kidnapped in Beijing for his involvement in printing Bibles and 
a house church magazine called Ai Yan, in which there are 
articles about President Bush's faith, and other internal house 
church testimonies. Now both Pastor Cai and his wife, Mrs. Xiao 
Yunfei, could face an extremely harsh sentence. I was told that 
they could be sentenced up to life in prison, and their case 
was labeled as the most serious case of foreign religious 
infiltration since the founding of the People's Republic. It 
was already reported in the local newspaper about the pastor 
and his wife.
    Mr. Chairman, I know some would argue that what I have 
mentioned are maybe just some local events in particular areas, 
disproportionately. I wish I could believe that. In reality, 
despite a 
so-called ``paradigm shift'' rhetoric by the Chinese Government 
and the ``wishful thinking'' by some foreign companies with 
interests in China, the evidence proves the contrary.
    Let me present to you just two cases of evidence out of the 
numerous documents China Aid has obtained through disheartened 
Chinese officials. Though we have not uncovered the full text, 
through at least two local government documents, we now know 
that sometime in the beginning of 2002, the Chinese Communist 
Party's Central Committee issued a secret document coded 
``Zhongfa No. 3, 2002,'' and titled, ``Decision on Reinforcing 
the Work of Religion by the Central Committee of CCP.'' Again, 
through the wording of the local government documents deemed to 
implement this secret document, it calls for government 
officials at every level to launch an all-out war against any 
unregistered religious group. I want to note that it seems that 
there has been a concerted campaign to target particularly 
underground house churches and Catholic churches. In Chinese, 
it is called ``Zhuangxiang Douzheng,'' which means ``special 
struggle'' against. Harsh tactics, like against the Falun Gong 
practitioners, were adopted, such as coerced political study at 
concentration camps, and mental transformation through re-
education through hard labor.
    The other document we just released yesterday in the Senate 
building is a secret document we obtained from a currently high 
ranking Communist Party official who is very unhappy with the 
repressive Party policy toward religious groups in China. In 
our press package today, we attached the original copy. This is 
the document deemed ``secret.'' It is a document from the 
highest levels of Chinese Government that we have ever been 
able to obtain. This document, entitled, ``Notice on Further 
Strengthening Marxist Atheism Research, Propaganda and 
Education,'' dated May 27, 2004, is a notice named ``Zhong Xuan 
Fa [2004] No. 13,'' issued jointly by the Department of 
Propaganda of the Central Committee of the Chinese Communist 
Party, the Office of the Central Steering Committee on 
Spiritual Civilization Construction, the Communist Party School 
of the Central Committee of the CPC, and Ministry of Education, 
as well as the China Academy of Social Science, and is 
classified as a ``secret document.''
    It is addressed to the Department of Personnel, Department 
of Propaganda, and the Office of Spiritual Civilization 
Construction, the Communist Party School, and the Department of 
Education of all provinces, autonomous regions, and 
metropolitan areas, the Communist Party Committee of all 
departments, ministries, and commissions of the Communist Party 
and the state organs, and the general Department of Political 
Affairs of the People's Liberation Army. Copies of the document 
were submitted to members and alternate members of the 
Politburo of the Central Committee, Secretary of the 
Secretariat of the Central Committee, Premier and Vice Premier, 
and the State Counselors of the State Council.
    This secret notice was issued in order to ``further boost 
Marxist atheism research, propaganda, and education.'' It calls 
for the government to keep tight control and hold on all 
national education, media communications, research on social 
sciences, spiritual civilization construction activities of the 
people, the training conducted by the Communist Party School, 
and administrative institutions at different levels, and 
others. Particularly, it specifically demands that Communist 
Party School and administrative institutions in the western 
border areas with multiethnic groups and religions to 
``increase the proportion of Marxist atheism propaganda and 
educational targeting local leaders.'' It urges Marxist atheism 
propaganda and education to be integrated into all sectors of 
society, through all the country at all levels. It says all 
sufficient measures shall be taken to ``ban all uncivilized 
conduct in spreading superstitions in order to cause people's 
minds to be educated, spirits 
enriched, their state of thought improved.'' As a result of 
this document, this lady who was actually beaten to death, on 
her sentence paper, she was sentenced to 15 days of 
administrative detention. It says her crime was ``suspicion of 
spreading superstition and disturbing social order.''
    Mr. Chairman, in this document it also strongly asks all 
the media and government officials to ``firmly ban all illegal 
publications which disseminate superstitions and evil 
teachings.'' This policy seems to be a direct reference 
regarding the recent campaign on closing Web sites, arresting 
individuals, and banning publications with dissident voices, as 
Pastor Cai has experienced on September 11.
    Third, in this document regarding the academic exchange of 
conducting research on religion with foreigners, this notice 
calls for ``the relevant regulations of the state to be 
strictly followed.'' It calls ``the procedure on approving and 
recording shall be made sound,'' which means more scrutiny will 
be imposed on foreign exchange programs on religious studies. 
As a result of this policy, I was told that in many parts of 
China, all the school students, particularly elementary and 
high school students, are mandated to sign a pledge to engage 
in the so-called ``anti-cult belief atheism campaign.'' How can 
you claim that you have freedom of religious belief while you 
are mandating all citizens to believe atheism and label others 
as an evil cult?
    Fourth, though the document repeated its old policy to so-
called ``fully implement the Party's policy on freedom of 
religious belief, respect people's freedom to believe religion 
or not to believe religion,'' yet it calls the atheistic 
officials to ``make distinction between religion and 
superstition,'' which inevitably, of course, is going to cause 
arbitrary classification on religious groups.
    In addition to continuing to raise the issue of religious 
persecution in high-level bilateral talks, I have four specific 
proposals on how the United States can help achieve the goals 
of religious freedom in China.
    Number one, the U.S. Government can compile a list of 
religious persecutors in China and make it public record, and 
include such information in the annual report by the IRF and 
the DHRL Office. Also, the possibility should be explored of 
holding such perpetrators accountable in legal venues upon 
entering the United States. This will encourage more humane 
treatment by officials toward those who are arrested.
    Number two, with the 2008 Beijing Olympics approaching, 
this government should encourage the U.S. business community to 
actively link their financial sponsorship and investments to 
China with the issue of religious freedom. U.S. firms should be 
discouraged from investing in those provinces and cities with 
severe religious persecution. The Members of Congress whose 
districts have business interests in China can raise the same 
concern through their Chinese counterpart officials.
    Third, the Administration and Congress should urge the 
European Union not to lift its arms embargo on China unless 
substantial progress is made on religious freedom in China.
    Fourth, the Administration and Congress should actively 
urge the Chinese Government to abide by its international 
obligation to protect the refugees from North Korea who are 
helped actively by the underground Chinese house churches. Many 
of them, as you noted, just last week, 62 of these refugees 
were forced to return and sent back to North Korea, and we 
still do not know their fate.
    Above all, I think millions of caring, loving, ordinary 
Americans can make a huge difference through their constant 
prayers, letter campaigns, and numerous visits, as well as 
embracing Chinese religious refugees when they enter into the 
United States for freedom of worship.
    In conclusion, the overall situation of religious freedom 
in China has been worsening since 2002. Nationwide campaigns 
against unregistered religious groups, especially underground 
Protestant and Catholic groups, are continuing as we speak.
    Thank you all.
    Chairman Leach. Thank you, Reverend Fu.
    [The prepared statement of Reverend Fu appears in the 
appendix.]
    Chairman Leach. Mr. Kung.

    STATEMENT OF JOSEPH M.C. KUNG, PRESIDENT, CARDINAL KUNG 
                    FOUNDATION, STAMFORD, CT

    Mr. Kung. Mr. Chairman, ladies and gentlemen, I want to 
thank the Commission for inviting me to come over here to share 
with you some of the issues on the persecution of the Roman 
Catholic Church in China.
    Mr. Chairman, I regret to inform you that I do not have any 
good news for you today. The arrests and atrocities that I 
reported to you two years ago continued unabated during the 
past two years. For instance, churches are still being 
destroyed. Random arrests of religious and other faithful are 
still being made. A Roman Catholic Church was demolished by the 
Chinese Government on June 21, 2003, in Liu Gou Village in 
Hebei. Since 1999, for instance, 27 churches have been 
destroyed in the archdiocese of Fuzhou in Fujian Province. And 
Bishop Peter Fan, who was the Bishop of Baoding in Hebei for 
approximately 41 years, was pronounced dead in jail on April 
13, 1992. He was tortured to death at the age of 85.
    Unfortunately, very unfortunately, history was repeated 
again. Once again, Bishop John Gao, 76 years old, the Bishop of 
Yantai in Shandong Province, died in an unknown prison in 
northern China in August 2004 after five years in prison. We 
need to find out what caused his death. Bishop Su Zhimin and 
Bishop An Shuxin are still missing. We still do not know if 
they are now dead or alive. Bishop Su has been arrested at 
least five times and has spent approximately 28 years in prison 
thus far. He was last arrested on October 8, 1997, and was seen 
only once when he was accidentally discovered on November 15, 
2003, while hospitalized in a Baoding hospital. Once the 
Chinese Government realized that Bishop Su was discovered, he 
was taken away immediately without any trace. Bishop An was 
arrested in May 1996 and was only seen once when he was allowed 
to visit his mother a few years ago. He, too, has not been seen 
since.
    Underground Roman Catholic bishops are routinely rounded up 
during the major feast days such as Christmas or Easter, or 
even during a visit by certain foreign personnel. They are 
routinely taken away forcibly to a hotel for a few days in 
order to be separated from their congregations so that they 
cannot celebrate the Holy Mass during the important feast days, 
or they could not meet with these foreign visitors. Often 
adding insult to injury, the bishops are forced to pay for the 
hotel and the meal expenses, including for those government 
officials who watched over them. This could amount to a very 
large sum of money that the bishops simply cannot afford.
    Besides Bishop Su and Bishop An, many other bishops have 
been arrested. We have a prisoner list attached here in my 
testimony that will give you some idea that almost every one of 
the underground Roman Catholic bishops is either arrested and 
in jail, or under house arrest, or under strict surveillance, 
or in hiding.
    The violent and widespread arrests of underground Roman 
Catholic religious and faithful continue unabated. On August 
the 6th of this year, eight priests and two seminarians were 
arrested in Hebei Province while they were attending a 
religious retreat. Approximately 20 police vehicles and a large 
number of security personnel conducted a house-to-house search 
in order to arrest these priests and seminarians. The Vatican 
issued a very strong denunciation of religious repression in 
China because of these 
arrests.
    On May 16 of this year, two priests, Father Lu Genjun and 
Father Cheng Xiaoli, were arrested in Hebei just before they 
were to start classes for natural family planning and moral 
theology courses. A dozen priests and seminarians were 
attending a religious retreat on October 20, 2003, in a very 
small village in Hebei. They were all arrested.
    On July 1, 2003, five priests were arrested on their way to 
visit another priest, Father Lu Genjun, who was released from 
labor camp after serving there for three years. Another priest, 
Father Lu Xiaozhou, was arrested on June 16, 2003, when he was 
preparing to administer the Sacrament of Anointing of the Sick 
to a dying Catholic. These are just a few examples of the 
arrests since my testimony two years ago.
    Sometimes a religious is arrested for very flimsy reasons. 
The government official would then ask for a ``fine,'' the 
amount of which could be negotiated, in order to release the 
prisoner. Often, the ``fine'' is paid quietly, without any 
receipt, and the religious is released. Those incidents already 
have been reported to me a number of times. They are, of 
course, without any written evidence.
    A priest was arrested in Wenzhou in Zhejiang Province 
because he printed religious hymns. He was arrested in 1999 and 
sentenced in 2000 to six years in prison, with a fine of RMB 
270,000, equivalent to approximately $33,750 U.S. dollars, 
because he printed some religious hymns.
    Bishops and other religious continue to be forced to attend 
a government-sponsored religious conference to propagate the 
``three autonomies'' principles of the Patriotic Association, 
thereby forcing, or attempting to force, the underground church 
personnel to join the Patriotic Association by threats or by 
treats. The three autonomies which I mentioned are ``self-
apostolate, self-finance, and self-administer.'' The catechism 
is not allowed to be taught to children under 16 years old. 
Underground seminaries are considered illegal and are not 
allowed to be established.
    Upon learning that I was coming here to testify to this 
Commission, an underground bishop called me and requested me to 
give you two messages. He wished his name to be confidential, 
and I promised him.
    The first request from the bishop: He said, ``since 1949 
when the Communists took over China, literally tens of 
thousands of Roman Catholic bishops, priests, and other 
faithful have been arrested. They were put in jail for 10, 20, 
30, or even 40 years. Many of them died in jail. One of them 
was Bishop Joseph Fan Xueyan--whom I mentioned before. Many of 
them were released after a very, very long period. Some of 
those released, such as my uncle, Ignatius Cardinal Kung, have 
since died. Some of them are still living. It does not matter 
to the government if they are dead or still living. They are 
still considered criminals because their criminal charges were 
never erased by the government.''
    This bishop in China respectfully requested this Commission 
to convey the plea to the Administration that, while 
negotiating with the Chinese Government for religious freedom, 
the U.S. Government propose that these prisoners, both living 
and dead, be officially and posthumously exonerated of the so-
called crimes of which the Chinese Government falsely accused 
them five decades ago. In doing so, the reputations of those 
living and dead religious prisoners of conscience can be 
restored in China. Those who are still living can at least once 
again enjoy equal treatment in society.
    The second request: The people of China love and yearn for 
true freedom of religion. Again, the bishop wonders if the U.S. 
Government could continue to negotiate with the Chinese 
Government so that (1) the faithful in China do not have to 
fear that they could get arrested during their religious 
activities; (2) do not have to fear that their churches will be 
destroyed after they labored so hard to build them; and (3) all 
those imprisoned religious and other faithful would be 
released. The bishop believes that the freedom that President 
Bush has committed to promote all over the world during his 
election campaign has to include religious freedom. This 
Chinese underground bishop, therefore, hopes that, through 
direct requests from President Bush to the highest authority of 
the Chinese Government, true religious freedom might be granted 
to the Chinese people. The bishop wants the highest authority 
in China to know about these atrocious instances of persecution 
of people of religious faith in the hopes that, having realized 
that there are these atrocities, the government might be able 
to wake up and to correct and eliminate this persecution.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kung appears in the 
appendix.]
    Chairman Leach. Thank you, Mr. Kung.
    Let me, before turning to our next witness, state as 
carefully as I can, the U.S. Congress is committed to the 
values of American freedom. To have excellent relations with 
another country, one expects not exactly the same systems, but 
the same respect for basic human values.
    Professor Potter is correct that the Chinese Government has 
made certain changes in law that are progressive, but if they 
are not implemented, the progressivity lacks meaning. It is 
unconscionable to hold anyone in prison anywhere in the world 
for religious faith. It is only conscionable to release such 
prisoners and to clear their records, and there is no other 
position that a civilized human being on this planet can take. 
Your request from your underground bishop is one that will be 
transferred to the Executive Branch.
    Mr. Kung. Thank you.
    Chairman Leach. It is not only a conscience-oriented 
request, it is a common sense request. When people are 
persecuted for nothing else than their faith, that is not a 
civil offense in any kind of setting and should not be 
considered such, and names should be cleared, and very 
uniquely, your bishop has requested, dead or alive. I think 
that is a valid request, too.
    We, today in this country, are struggling with some 
terrible crimes that have occurred in the last century, for 
example, relating to the death of Abraham Lincoln, and we are 
clearing the names of some people that were thought associated. 
This is over a century later. Their families have come and said 
the evidence was not there, but the crime was so large that we 
felt compelled, at a given time in our society, to have a broad 
sweep of the law. There is a reason for the notion of looking 
back at people who may have died as martyrs, and that is worthy 
of note.
    I will make one other comment, because of the sadness of 
the anonymity of some of the prison settings. A Harvard 
philosopher named Hannah Arendt wrote one of the great 
philosophical tracts of the 20th century, a book called ``The 
Origins of Totalitarianism.'' One of the points she made in 
noting certain commonalities, basically, between the Soviet 
Communist system and the Fascist system of Germany, was that 
people were rounded up without charges, and in the German case, 
actually given numbers, and then no notice is given of their 
death. So the movement toward anonymity is a movement toward 
taking the human out of the human consciousness. It is a reason 
why individuals should be looked at as individuals and why 
people have to be respectful.
    Now, in this regard Pastor Fu has mentioned he has a list. 
Lists are important in life because they respect other lives. I 
want to make it clear, and let me just read very precisely, 
this Commission is putting forth a prisoner database and it is 
now available for any of the public to query. It is accessible 
through our Web site, www.cecc.gov. As of earlier this week, 
the prisoner data base contained about 3,500 individual case 
records pertaining to political and religious prisoners. We 
expect the number of case records to grow substantially over 
the coming months as we import additional data into the data 
base. We have worked with your organization, and we will 
continue to, Reverend Fu, in terms of certain religious 
circumstances. More than 1,600 of our current case records have 
one or more aspects that connect the prisoner in some way to 
religious belief or practice, and about 200 of these prisoners 
are thought to still be in detention or sentenced to prison.
    With respect to the Falun Gong spiritual movement, we have 
more than 300 case records and expect to add more as we develop 
more information. I would just say that we are trying to work 
with all of the various organizations in this regard, but the 
key is that anonymity be ended and that there be individual 
accountability.
    I am very appreciative of your testimony, sir, and 
appreciative of the message you bring from the anonymous bishop 
in China.
    Mr. Kung. Thank you very much, Mr. Chairman.
    Chairman Leach. Thank you.
    Now I would like to turn, as our final witness, to Ngawang 
Sangdrol. I understand your interpreter is Bhuchung Tsering. Is 
that correct, sir?
    Mr. Tsering. Yes.
    Chairman Leach. We appreciate your assistance as well. 
Sister.

   STATEMENT OF NGAWANG SANGDROL, HUMAN RIGHTS ANALYST, THE 
 INTERNATIONAL CAMPAIGN FOR TIBET, WASHINGTON, DC, THROUGH AN 
                 INTERPRETER, BHUCHUNG TSERING

    Ms. Sangdrol. Mr. Chairman, I would like to begin by 
seeking permission to speak in Tibetan, because I am right now 
in the process of learning English.
    Chairman Leach. Of course.
    Ms. Sangdrol. On behalf of the International Campaign for 
Tibet, and on my own behalf, I would like to thank the 
Commission for inviting me to testify about religious freedom 
in Tibet.
    I have submitted the full text of my statement for the 
record of the Commission, and I would like to summarize it now. 
The Tibetan struggle is the struggle for our Nation and for the 
right of the Tibetan people to preserve and promote our 
identity, religion and culture.
    In Tibet, religion became the target of destruction mainly 
because our religion and culture are what makes Tibetans 
different from the Chinese. The International Campaign for 
Tibet recently has come up with a report on the religious 
persecution in Tibet. So long as the Tibetan people have a 
unique religion and culture, there is no way to turn it back 
into Chinese.
    In regard to China's general policies on religious freedom 
in Tibet, hundreds of my compatriots displayed their 
disagreement, mainly in a peaceful way, and have been 
imprisoned. The reason why I have been imprisoned was for 
participating in demonstrations from the age of 13 because of 
the denial of our basic rights, including the rights of 
religious freedom by the Chinese authorities. Not only that, no 
Tibetan can tolerate the denigration that the Chinese 
authorities have been committing against our spiritual and 
political leader, His Holiness the Dalai Lama.
    Although I have been in prison for over 11 years in the 
dreaded Drapchi prison because of my participation in the 
demonstrations, I have been fortunate in that international 
community, including the United States, both the Congress and 
the Administration, have consistently raised my case to the 
Chinese leadership.
    By the grace of His Holiness the Dalai Lama and the Tibetan 
people, and by the support of the American leadership, today I 
am enjoying my freedom. While I value my freedom, I am 
continuously reminded of the plight of my fellow Tibetans, 
particularly those in prison. After arriving in the United 
States, I was told about the many rules and regulations of the 
Chinese system which guarantees rights for people, including 
those in prison, and I was surprised to learn about these 
things. Not only did my fellow prisoners and myself not enjoy 
such rights, none of us knew about the existence of those 
rights.
    In your Commission's report for 2004, you have clearly 
mentioned about the existence of different rules within the 
Chinese constitution, including laws like the Law of Regional 
National 
Autonomy, which guarantee rights, including religious and other 
freedoms, but these are not implemented in practice. This is an 
accurate reflection of the situation.
    For example, I recently heard that Chinese officials have 
said that there is no formal ban on the Tibetan people 
possessing and displaying photos of His Holiness the Dalai 
Lama, and that these Tibetans voluntarily do not want to 
display His Holiness' photos. Although I have been out of Tibet 
for a year and a half, what I know for certain is that if there 
were no direct or indirect political pressure from the Chinese 
authorities, almost all Tibetans in Tibet would be displaying 
portraits of the Dalai Lama.
    Since this Commission has been specifically established to 
monitor the situation in China and provide appropriate policy 
recommendations for the U.S. Government, I would like to urge 
you to consider the following points.
    The first, is the case of a Tibetan lama, Tenzin Deleg 
Rimpoche, whose case is extremely urgent. There is every 
possibility that the Chinese Government will implement the 
death sentence that has been passed on him after completion of 
the suspended sentence, and therefore I urge the U.S. 
Government to intervene in the case of this innocent Tibetan 
lama so he is saved from execution.
    Second, the issue of the Panchen Lama is of utmost 
importance to the Tibetan people. We do not have any solid 
information about the whereabouts or well-being of the eleventh 
Panchen Lama, Gedhun Choekyi Nyima. The United States should 
urge the Chinese Government to allow an independent monitor to 
verify that the Panchen Lama is fine and that he is getting his 
religious education.
    The issue of Tibetan political prisoners is very much close 
to my heart. I would urge the U.S. Government to do everything 
possible so that the Chinese Government will release all 
political prisoners.
    Not only that, the Chinese Government should be urged to 
restore all the rights of all the Tibetan political prisoners 
who have been released from prison. I have heard that many of 
these individuals continue to face persecution, even outside of 
prison.
    To provide a lasting solution to the issue of religious 
freedom, we need to find a way to have a political solution to 
the Tibetan issue. I would urge the U.S. Government to be 
proactive in urging the Chinese Government to begin substantive 
talks with the representatives of His Holiness the Dalai Lama 
so that a negotiated solution can be found.
    In conclusion, I would like to thank the U.S. Government 
and the people for the important role you have been playing to 
highlight the Tibetan issue and for supporting His Holiness the 
Dalai Lama in finding a just solution to the Tibetan problem.
    Thank you so much.
    [The prepared statement of Ms. Sangdrol appears in the 
appendix.]
    Chairman Leach. Well, thank you very much for that very 
thoughtful testimony. We are impressed with your personal 
traumas that you have gone through in your life that have 
brought you here, so we are very appreciative of what you said.
    In terms of questions, I would like to basically frame a 
question for you, Professor Potter. You pointed out that 
Chinese law has moved to some degree in a progressive direction 
and we ought to be asking that the Chinese adhere to their own 
law.
    Reverend Fu has pointed out that he has evidence of what he 
described as ``secret'' directives of the Communist Party. So 
the question is: is the Party above the law, and should our 
direction be to say, ``Can a political party be above the law, 
and can you have two sets of government rules and directives, 
one that is formally legal and another that is operational 
directives? '' Do you see this contrast and is this a 
bedeviling circumstance?
    Mr. Potter. You touch on what is probably the most 
fundamental question about legal reform in China. If I may, I 
would like to just address that in general terms, and then we 
can address the specific question of religion.
    Both the Chinese Communist Party and the government have 
accepted that the legal system should govern the behavior of 
individual Party members. Indeed, a recent document--and I 
cannot cite it for you, but I got it when I was in China--had 
to do with discipline within the Party. It essentially 
protected, or purported to protect, Party members from abuses 
of law by Party superiors. The theme behind the document was 
that Party members are not above the law. But there is a more 
fundamental question, which is, ``Is the Party, as an 
organization, above the law? '' I think it is fair to say at 
the moment that the answer to that question is yes.
    The Party has not accepted the notion that it, as a 
politically leading organization, is subject to the same legal 
rules that govern the rest of society. It is still the vanguard 
party. It is still the four basic principles that inform the 
constitution and include reverence for Party leadership. So, 
the Party, as a leading political organization, remains, in a 
sense, above the law, although it has, a matter of policy 
choice, committed itself to operating through legal mechanisms, 
which then in turn bind Party members to adherence with the 
legal rules that are enacted.
    I think the reason that this is worth paying some attention 
to is that the view of the Party has undergone significant 
change over the last number of years to impose more and more 
legal restrictions on Party members. Much of the human rights 
abuse that goes on in China is actually abuse by individual 
officials who do hold themselves above the law. That has now 
been officially repudiated.
    The key question, though, is the institutional capacity of 
both the state legal enforcement organs and the Party's own 
discipline system to really implement this in practice. But my 
thinking on this is also that, as foreign countries, as foreign 
scholars, as foreign communities engaged with China, we are 
hoping to create conditions that will be improved for the 
Chinese people, we need to again invite China to enforce and 
adhere to the laws that they have set for themselves. So if 
they set laws that say Party members, Party officials must 
comply with the laws in carrying out policies, that is a 
message which is very hard for authorities in China to deny. 
They will say, ``we are doing it,'' and we might say, ``well, 
let us get a dialogue about how that is actually taking 
place.'' How are these laws being interpreted? How are they 
being enforced? What is really the record of performance with 
China's own rules? I think that is a constructive dialogue that 
can take place, and really ought to take place.
    I think it is one that, in the long run--and I am not 
talking really long run, but even in the more medium term, can 
result in actual changes where corruption, the abuse of power 
by Party officials, can be curtailed through foreign 
observation, monitoring, and 
encouragement of China to enforce the rules that it has already 

enacted.
    Now, with regard to the religious question, in particular, 
it is a glass is half full/half empty sort of question. The 
fact that the Party Organization Department is compelled to 
begin a campaign of training on atheism tells us that religious 
belief has become a very important issue in China's society.
    The Party still holds to the rule that Party members are 
not supposed to participate in religion, even though the 
empirical record is abundantly clear that many Chinese 
officials are, in fact, people of faith. So this, on the on the 
optimistic side, reflects the changes in the society that I 
mentioned in my earlier remarks. The reaction to that is an 
acknowledgement of those changes and an attempt to do something 
about it, but to a very large extent it is kept within the 
Party's organization.
    Now, where it spills out is in the area of education. This 
is another very tricky area. The constitutional provisions on 
freedom of religious belief, the various local regulations, and 
this is echoed also in the recently revised law on autonomy in 
minority areas, hold that freedom of religious belief may not 
interfere with the state education system, so we saw in this 
Party document an effort to ensure that the state education 
system still adheres to Marxist atheism as an official policy. 
But I think it is important to see this as a process of 
transition. There is an ideological conflict going on here. The 
fact that is going on at all attests to the depth of religious 
belief in China, and that shows the changes in the society that 
are happening. Those are important changes that are not going 
to go away, despite what Beijing does.
    That gets to the point I mentioned before of institutional 
capacity. There are limits to what Beijing can control at the 
local level, despite issuing edicts. That is a positive thing 
sometimes, but also a negative thing many times.
    Chairman Leach. Is there any sense that Marxism is alien as 
any outside creed could be to traditional Chinese history and 
culture? The reason I raise this is that there is an 
understandable angst in China, as you have indicated, about 
someone from Ottawa or Washington saying you should have 
precisely our values. But one would think the angst would be 
even greater about Marx, who, after all, was a German, living 
in England, operating philosophically through Moscow. I cannot 
think of a more alien tradition than Marxism.
    Mr. Potter. Absolutely. This is one reason why China has 
struggled, the Chinese Communist Party has struggled, really 
since the 1930s to articulate a Chinese application of Marxism. 
And whether we look at Mao Zedong's application of Marxism to 
China, if we look at Deng Xiaoping's reference to ``socialism 
with Chinese characteristics,'' whether we look at Jiang 
Zemin's Sange Daibiao, the ``Three Represents,'' all of these 
are efforts to put Chinese cultural characteristics onto what, 
as you say, is an imported theory.
    Now, the reason Marxism was imported, is of course that 
there was a lot of looking abroad in the 10s, 20s, and the May 
4th movement, and so on to look for foreign solutions to 
China's problems, and Marxism was seen as one of those. But, as 
you point out, there is an inherent tension between a foreign 
ideology and Chinese culture, and this has been one of the most 
central challenges for the Chinese Communist Party in 
formulating and governing ideology. However, therein also lies 
opportunity for China to develop as a society that recognizes 
individual rights, that recognizes rights of faith, rights of 
belief, because many of those rights are inherent in the 
Chinese tradition. The view that we often hear, that individual 
rights and individualism are alien to Chinese culture, is 
simply not true. There are Chinese philosophical traditions 
that are imbedded in individualism, and even Confucianism has 
many components that laud individual initiative and individual 
integrity.
    So, there is much within Chinese culture that can embrace 
freedom of faith, freedom of religion, and so on. So in a 
sense, the movement away from Marxism into a Chinese version of 
that creates many, many opportunities for freedom of religion. 
But, as I suggested before, they are in a transition and they 
are worried about social unrest. They are worried about 
maintaining their ideological orthodoxy. They are worried about 
keeping their organizational control. So, religion touches on 
all of those, and moreover 
addresses that very fundamental legitimacy question that I 
mentioned before, which is why it is so sensitive.
    But if I may, just on one last point, I think it is very 
useful to distinguish, for example, that the Chinese 
Government's behavior toward Falun Gong, on the one hand, and 
their behavior toward many other qigong practitioner groups and 
organizations, and the difference really has to do with the 
politicization of Falun Gong, or the perceived, shall we say, 
politicization of Falun Gong behavior. The challenge that Falun 
Gong poses is that it is imbedded in a Chinese traditional 
cultural way of life. It is a qigong practice, which is very 
deeply traditional. But once it takes on a layer of 
ideological opposition, of ideological heterodoxy, of 
organizational heterodoxy, then it becomes a threat to the 
government and the government reacted as it did.
    So, I think it is useful to remember these distinctions 
when we are looking at the treatment of religion, whether it is 
Islam in Xinjiang, or Tibetan Buddhism in Tibet, or Islam in 
the rest of the China. I mean, the Hui Muslims, the Islamic 
Chinese, are ethnically Chinese--indistinguishable from other 
Chinese. So, we have to separate out the way these are treated 
and try to differentiate between management of what is a local 
problem of social transition and social change from an 
ideological issue, which, as we suggest, is largely imported.
    I would not want to be taken to suggest that China's 
treatment of the people that have been arrested and have been 
described by this panel by anything other than intolerable. But 
the question is: intolerable according to what standards? My 
sense is that it is more constructive to think of it as 
intolerable against China's own standards, legal, cultural, 
traditional rather than according to standards that we might 
set here that we might earnestly believe in, but I think I am 
more comfortable with the internal critique of the word.
    Chairman Leach. Before turning to Congressman Pitts, and I 
will have more questions, but I do want to ask this one.
    Reverend Fu has raised the secret directives issue. Does 
Chinese scholarship outside of China have access to many secret 
directives, and should these not be published, particularly in 
contrast with law? Reverend Fu cited several statements from 
the directive, but I do not know if you have the full 
directive. I do not know what exists and what does not exist.
    Reverend Fu. We have the full directive.
    Chairman Leach. You do have the full directive?
    Reverend Fu. The latest one.
    Chairman Leach. The latest one.
    Reverend Fu. It was distributed in May 2004. May 28.
    Chairman Leach. I see. Good. Is this submitted as part of 
the record? May we have a copy of it?
    Reverend Fu. Yes.
    Chairman Leach. Are there other directives that you are 
aware of, Professor Potter, Reverend Fu, or Mr. Kung? Yes, sir?
    Mr. Kung. Way back, seven years ago in January 1997, the 
Cardinal Kung Foundation released a secret document similar to 
what Mr. Fu has released. To put it simply, the document said 
that they wanted to eradicate the underground Roman Catholic 
Church in China. In that particular town, Donglai in Hebei, 
where the document originated, they had all kinds of slogans on 
big wall posts for propaganda.
    The news went through the New York Times, and the bureau 
chief at that time was Mr. Tyler in Beijing. He read my press 
release and he was half believing and half not believing. He 
called me and said he was going to investigate. So, he went. He 
went to that particular town, Donglai, a little town in Hebei, 
to find out if it was true that there was a secret document 
with all the wall postings and so forth. He found everything 
that I described in the press release. He investigated so much 
that he got himself arrested. His photo films were all 
confiscated. There was one roll of film that probably survived. 
He went back to Beijing, called me, and said, ``Joe, watch the 
New York Times article this coming Sunday.'' What an article! 
On January 26, 1997, the New York Times referenced this secret 
document in an article entitled ``Catholics in China: Back to 
the Underground'' with a large picture showing the slogan on 
the wall posting. It was right there on the lower part of the 
front page on that Sunday's New York Times, and it carried over 
to other pages, detailing descriptions of the secret document 
and Mr. Tyler's investigation as well as the suffering of the 
persecuted Roman Catholic Church in China.
    Then, just about a couple of years ago on February 11, 
2002, the Freedom House also released seven secret documents. 
These documents provided irrefutable evidence that China is 
determined to use extreme force to eradicate all underground 
Churches that refused to register with the government.
    While I am on this topic, with your permission, sir, if I 
may make some observations on what the professor was talking 
about. I think we have to realize that the laws in China are 
not only made for their own local consumption, but also are 
designed in some way to gain legitimacy in the international 
world so that people will be led, or misled, to believe that 
China has laws to guarantee religious freedom, and so forth, in 
order to give China legitimacy.
    As for the ongoing persecution, not all persecutions were 
caused by an individual abusing his power. Many persecution 
cases actually are clearly defined in court under the new cult 
Law.
    The underground Roman Catholic Church is now considered a 
cult; therefore, priests who were ordained secretly by the 
bishops of the underground Roman Catholic Church are liable to 
have a three-year labor camp sentence once they are found.
    Also, there are many reasons for religious persecutions in 
China. One reason, I believe very strongly, for the ongoing 
persecution, be it of the Roman Catholic Church, the Protestant 
church, or of Muslims, is that there is a very serious 
misconception on the part of the Chinese Government that the 
majority of religious believers are not patriotic, and that 
they do not love China. That is very wrong. I dare to say that 
many religious believers, including those underground, love 
China. They are very patriotic. They only wish that China would 
give them a chance to practice their religion freely. Thank 
you.
    Chairman Leach. Thank you.
    I want to turn at this point to Congressman Pitts, who is 
the Congress' leading spokesperson on so many issues of 
religious freedom. Representative Pitts.
    Representative Pitts. Thank you, Mr. Chairman.
    Professor Potter, a question for you. Do the government 
policies toward religion vary from region to region, from 
province to province, from government level to government 
level? Can you elaborate? Are there good provinces, bad 
provinces? How do we identify good to try to reward the good, 
isolate the bad? Do you have any recommendations? Is this all 
top down, is it local government, is it state, or what?
    Mr. Potter. In theory, because China portrays itself as a 
unitary state, local regulations must be consistent and adhere 
to regulations that come down from above. So, for example, 
there are central regulations on the management of religious 
sites. Those regulations are then replicated at the local 
level, for example, in Shanghai or other areas. So there is, I 
would say, an informal amount of leeway for adding new 
provisions at local levels that take local conditions into 
account, so you will see those, for example, in Xinjiang or in 
Tibet. I am more familiar with the Xinjiang situation.
    I think the differences really lie in the area of 
implementation, because these regulations are purposefully 
designed to allow a certain amount of interpretation and 
discretion by local officials. One of the interesting issues 
that is worth studying, and I have only really begun to do 
that, is local enforcement more draconian or less draconian 
than central edicts?
    In some instances, local officials, because they are more 
imbedded in the local circumstances--and in many cases I think 
it is important to bear in mind, in Xinjiang and Tibet, for 
example, many local officials are members of the local minority 
nationality and have links to that nationality. That also 
should make us remember that the minority nationalities are not 
uniform blocs. They have all the sorts of social and personal 
divisions that other social groups have. But in any event, in 
many cases the regulations at the local level are interpreted 
more loosely because of that affinity.
    In some cases, however, they could be interpreted more 
severely because of the phenomenon that Han officials in local 
minority areas often face problems of frustration and 
alienation, and all of the kind of personal issues that tend to 
separate them from local people, and therefore they are, in 
some cases, more draconian in their interpretation.
    So, I am sorry to say there is not a hard-and-fast rule. I 
do think it is very useful in the dialogue with China and in 
studying conditions in China to acknowledge the potential for 
differentiation at the local level in terms of interpretation. 
But it has to be done carefully because the theory of the 
unitary state does not really admit to the possibility of local 
variation, even though local variation is very much a reality.
    Representative Pitts. Pastor Fu, would you like to comment 
on that?
    Reverend Fu. I agree with the assessment of Professor 
Potter. I wanted to just pick up a little bit on the law and 
the secret document. Now, according to the record I received, 
all 30 provinces and major cities have passed their religious 
regulations or management of religion types of laws. But it 
seems there is systematic thinking that the Chinese Government 
actually has been engaging in a sort of double talk. On the one 
hand, you have these laws passed, and they are supposed to make 
the local government adhere to these regulations. On the other 
hand, they kept issuing these secret documents in order to 
further crack down. The significance of this document, as a 
former Professor of the Chinese Communist Party School, it 
would not surprise me if they only proposed the Party members 
to believe atheism. That is their policy. One thing that needs 
to be noticed is now they require atheism education to be 
taught across the board in all the sectors, according to the 
document. All sectors of society, at all levels. It is not only 
within the Party, or it is not only restricted to the 
educational system. Of course, it has already started to be 
implemented in different areas; in education, first, and in 
other sectors as well.
    It is not only through the teachers teaching in the 
classroom, but also all kinds of mediums are required to do 
this campaign. So you would see this kind of double-talk. On 
the international level, they might say, ``oh, we are a country 
transitioning into rule by law.'' By that definition, they want 
to differentiate between rule of law and rule by law. They are 
engaging in the rule by law, through which law is simply a 
useful tool to regulate, limit, and control any dissident 
groups including religious groups. But, on the other hand, they 
are proposing to make all religions compatible with Socialism. 
This is a tool to make religion compatible with Socialism. 
Thank you.
    Representative Pitts. Could you elaborate on how the 
unregistered house churches in China are organized? What kind 
of a structure do they have? There are registered house 
churches, and then there are unregistered house churches, 
correct?
    Reverend Fu. Yes. Yes. Yes.
    Representative Pitts. How dangerous is it for a Chinese 
citizen to worship in an unregistered house church? In some 
areas they are treated better than other areas, in some 
provinces. Can you talk about the house church movement a 
little bit?
    Reverend Fu. Yes. The number of house church members is 
estimated at about 80 million overall nationwide. In terms of 
formal organization, there is not formal organization. If they 
even started one, they might be immediately smashed down. But 
there is a loose fellowship type of different groups of the 
house church movement and their leaderships meet together 
constantly. Of course, sometimes they use other means of 
communication, like cell phones, to communicate with each 
other. Sometimes they can hold some sort of joint meetings. As 
a result of these joint meetings, as you might know, in 1998, 
they issued a joint statement of their confession of faith. 
They issued a joint attitude toward the registered churches and 
the Chinese Government. What they asked, on appeal, is just to 
have a chance to dialogue with the Chinese Government, and even 
with the registered churches.
    Regarding the internal sort of talk, as the Professor 
referred, I think that the majority of the Chinese house 
churches prefer the internal talk and they were just forced to 
be in the underground. They want to be registered, but if they 
are registered, after they are registered, or as a condition 
for registration, if their doctrine is subject to scrutiny by 
the atheistic officials, then that, to any religious believers, 
is unacceptable.
    If you accept registration, there the restriction states 
clearly that you are not allowed to teach religion to those who 
are under 18 years old. As a matter of fact, in yesterday's 
Washington Times, we placed this ad. This shows a 72-year-old 
pastor from Chongqing City, and he was sentenced to four years, 
in 2002, just because he simply sent his granddaughter to a 
Sunday school teaching/training session. Just recently, his 
daughter visited him and found he was beaten and was crippled. 
Both of his legs were broken, and just because he was accused 
of shaming the Communist Party when he led 50 of his fellow 
inmates in his labor camp to believe in God. We have other 
documented records on that. So, how could you encourage or even 
let the underground churches dare to attempt to register?
    Representative Pitts. All right. I have one more question.
    Chairman Leach. Please. Yes.
    Representative Pitts. Mr. Kung, can you give us a sense of 
how the underground priests and the bishops live in China, and 
their relationship with the registered churches, and the 
Catholic Patriotic Association? Is there any contact or 
relationship between underground Catholics and those affiliated 
with the Patriotic Association and government-selected Catholic 
religious leaders? How do they view them?
    Mr. Kung. The underground Roman Catholic Church has a 
population of approximately 12 million people. The national 
church, also called the Patriotic Association, or official 
church, or open church, only has four million people. So, we 
are about anywhere between twice or three times larger than the 
national Church.
    Approximately 15 years ago, the underground bishops, in 
order to evangelize more effectively, decided not to hide 
underground. They decided to come above ground. So, they openly 
called all the underground bishops together in one place and 
organized a bishops' conference, just like the United States 
bishops' conference. The Chinese Communist government knew 
every bit about the decision of organizing the Bishops' 
conference by the underground bishops in that particular place.
    Unfortunately--very unfortunately--after they finished 
creating the underground conference, on their way back to their 
own dioceses, five underground bishops were arrested and three 
of them died in jail. So, that is the price that they have paid 
to organize the underground church.
    Presently, the underground Roman Catholic Church has its 
own dioceses: approximately 50 of them. Many of these dioceses 
are vacant, because of the death of their bishops due to their 
old age or prolonged confinement. The remaining bishops are 
very united.
    The underground bishops are all appointed by the Pope 
himself. This is the major difference from the bishops of the 
Patriotic Association who were all appointed--with the 
exception of one, I believe--by the Chinese Government. They 
have their own dioceses.
    With the exceptions of social calls or friendships, the 
Patriotic Association has separate liturgical and sacramental 
services. They have their own church services.
    As a matter of fact, the representative of the Vatican 
residing in Hong Kong, Monsignor Nugent, just issued China 
guidelines in July 2004 to all Chinese bishops: (1) confirming 
that the China guidelines issued by Cardinal Tomko in 1988 are 
still valid. In the 1988 guidelines, the Roman Catholic Church 
in China and throughout the world must not have ``communication 
in sacris'' with those religious under the Patriotic 
Association in public, (2) confirming that the Patriotic 
Association has the characteristic of being in schism, and (3) 
detailing nine conditions governing the relations between the 
Roman Catholic Church in China and the Patriotic 
Association.
    To answer your question, the Sacramental services of the 
Roman Catholic Church in China and the Patriotic Association 
are totally separate from each other.
    Representative Pitts. Thank you.
    Finally, Ms. Sangdrol, how do young people learn about the 
teachings of Buddha and about Buddhist scriptures?
    Ms. Sangdrol. In terms of a formal system, young Tibetans 
do not have any opportunities to learn the doctrine of Buddha. 
But since we Tibetans have grown up in a sort of religious 
society, we do take this opportunity informally. But in a 
formal sense, they do not have an opportunity to study 
Buddhism.
    Representative Pitts. So do they learn it at home from 
their parents?
    Ms. Sangdrol. Yes, it is mostly at home. Given my own 
experience, at a young age my parents taught me the tenets of 
Buddhism, and then later on sent me to the nunnery. But once in 
the nunnery, I did not really have an opportunity to study. 
Today, things have even become worse because of procedures like 
the ``patriotic reeducation'' courses that all Tibetans have to 
take. Because of this, any action by Tibetans, even though they 
are not political, are deemed as political and they are termed 
as separatists.
    Representative Pitts. So, in your opinion, how precarious 
is the survival of Tibetan Buddhism in China?
    Ms. Sangdrol. Yes, the risk is very great. The very basis 
of the Tibetan Buddhist educational system is controlled by the 
Party and the Chinese Government. So in the monasteries, the 
administration, everything is decided by the government.
    The monks or the nuns have to have the prerequisite of 
being 
patriotic. All the religious tenets have to be subservient to 
the government, and therefore there is this danger when people 
are denied their religious process.
    Many of the learned lamas in Tibet are mainly persecuted 
and are in prison. You can take the case of Tenzin Deleg 
Rimpoche, who is now under a death sentence.
    Representative Pitts. Thank you.
    Thank you, Mr. Chairman.
    Reverend Fu. Mr. Chairman?
    Chairman Leach. Yes, of course.
    Reverend Fu. I want to ask permission from the chairman to 
submit my written testimony. May I submit this partial list of 
prisoners to the CECC?
    Chairman Leach. First, let me say that all statements will 
be taken into the record. We will assume what you said is 
summarized.
    Reverend Fu. Thank you.
    Chairman Leach. We would be delighted to get your partial 
list.
    [The list appears in the appendix.]
    Chairman Leach. We also would like a copy of your secret 
document, and we will put that in the record as well.
    Reverend Fu. Yes. Thank you.
    [The document appears in the appendix.]
    Chairman Leach. Let me just conclude by saying that part of 
the Commission's work has been to move as deliberately as 
possible in the direction of the Commission's records becoming 
part of what I have described as a ``virtual academy.'' By 
that, I mean we have a prisoner data base, which is now 
established and which will be expanded upon. People in this 
room that have particular ties outside of the Commission are 
welcome to submit circumstances of individual cases to the 
Commission for consideration.
    In addition, hearing records are designed to be put up on a 
Web site for scholars, as well as for people from around the 
country, around the world, including China, to look at. So, 
while we have a few people in this room, we are hopeful that 
the message gets sent out to a substantially larger 
constituency of interested people.
    I want to thank all of you for bringing such professional 
and committed expertise to this Commission. We honor your work, 
and we honor your life commitments. Thank you all.
    The Commission is adjourned.
    [Whereupon, at 12:15 p.m. the hearing was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Preeta D. Bansal

                           NOVEMBER 18, 2004

    Mr. Chairman, thank you for holding this important and timely 
hearing and for inviting the Commission to present testimony. With your 
permission, I would like to submit my full testimony for the record.
    The Commission on International Religious Freedom has followed 
events in China closely for the past several years. As is widely 
documented by the Commission and numerous other sources, the Chinese 
government continues to be responsible for pervasive and serious human 
rights violations. These abuses transgress China's international 
obligations and often clearly contradict China's own constitution.
    The government of China views religion, religious adherents, 
religious communities, and spiritual groups like the Falun Gong 
primarily as issues of security. The United States should not ignore 
this fact, and it should fashion policies and actions that integrate 
the right of thought, conscience, religion and belief with security and 
economic interests.
    I will not be able to discuss in detail the current crackdown on 
the freedom of religion or belief in China. There are several other 
witnesses here today who will address this aspect of the current 
situation.
    However, I would like to make some general comments about the 
importance of advancing human rights and in particular the right to 
freedom of thought, conscience and religion both as an important 
principle on its own and as critical to protecting U.S. security and 
economic interests in China. I will then suggest several areas where 
U.S. policy could have an impact on the long-term human rights 
situation in China.
 the importance of fully integrating promotion of freedom of thought, 
  conscience, and religion or belief into the u.s.-china policy agenda
    The United States Commission on International Religious Freedom, of 
which I am the Chair, views respect for the freedom of thought, 
conscience, religion, and belief as a critical indicator of stable 
countries, stable trading partners, stable allies, and stable regions.
    The freedom of thought, conscience, and religion or belief is 
universal in its importance and applicability. It is the freedom to 
assert an individual conscience or identity without fear, and is a 
foundational right of the post-World War II system of international 
human rights.
    It is no longer possible to treat human rights, and freedom of 
thought, conscience, religion, and belief in particular, as marginal 
``soft'' issues of foreign policy. The events of the past 5 years have 
tragically reminded us that we ignore religion at our peril. Indeed, we 
cannot understand the global conflicts of the world without taking the 
role of religion seriously. The past 50 years of history alone show 
that most of the conflicts of the world--the Middle East, the Southern 
Sahara, the Balkans, the Caucasus, and South Asia--have occurred in 
places where the world's great religions intersect. These conflicts 
were not, and are not, explicitly religious wars. But religious matters 
in these conflicts because it shapes world views and perceptions of 
people--makes them live compassionately, at best, or focuses anger, at 
worst.
    Promoting religious freedom and related human rights abroad is 
therefore vital to U.S. foreign policy and to our strategic, as well as 
our humanitarian interests. Where governments protect religious 
freedom, and citizens value it, religious persecution and religiously 
related violence often find little appeal, and other fundamental human 
rights, the rule of law and democracy are accorded greater value. When 
observed, freedom of religion or belief is one of the linchpins of 
stable and productive societies. When denied, generations of hatred and 
societal instability may be sown.
    Although China is somewhat sui generis when it comes to the 
intersection of freedom of thought, conscience and religion with 
security and economic issues, I think it is fair to say that freedom of 
religion and belief are not side, marginal issues with respect to 
China--if for no other reason than that the government of China does 
not treat these freedoms as side or marginal concerns. Repression of 
individual rights of conscience occupies a central policy of this and 
past Chinese regimes.
    In the past several years, there has been a deep imbalance in the 
U.S.-China relationship. Security and trade relationships are moving 
forward at an often-dramatic pace. In these areas, we are building 
partnerships based on mutual interests.
    Yet, the U.S. does not have an effective Chinese government partner 
in the area of human rights. It is clear that from the Chinese 
perspective, U.S. concerns regarding human rights abuses should remain 
peripheral to improving ties on security and trade.
    To acquiesce to this dichotomy would be shortsighted. It is crucial 
to U.S. and international interests that China respects individual 
liberties and international standards of human rights and understands 
that by doing so, it will become a more stable, secure, and prosperous 
country.
    China has made some impressive strides in promoting economic 
freedom. In the past decade, the Chinese government has embraced some 
of the benefits of the free market with dramatic results. The Chinese 
people now have greater mobility, increased property rights, and access 
to information than they had in the past.
    These are not small advances. We all hope they augur a future were 
China and its people can experience an open society and even greater 
prosperity.
    However, China's rapid modernization makes it all the more apparent 
that continued prosperity can only occur when the government honors the 
political and social freedoms enshrined in its Constitution. And the 
endorsement China's leadership receives from business executives for 
its economic policies does not justify the withholding of world 
criticism for its repressive human rights policies.
    It can no longer be argued that human rights violations are a 
temporary tradeoff to achieve economic development. In fact, the 
opposite is true. Achieving the full measure of economic development 
depends on improving human rights protections. Restrictions on freedom 
of speech and freedom of association stifle the type of communication 
needed to manage risk, root out corruption, and address environmental, 
health, and labor safety issues. Nor can China compete fully in a 
globalized economy when it restricts Internet access or censors the 
domestic or foreign press.
    China too often sees the free flow of ideas--and the ability to act 
on new ideas--as a threat to stability and prosperity and not as a way 
to promote stable economic and social development.
    Respect for human rights is also important for regional stability 
and prosperity, both in China and throughout the region. Such respect 
is a critical element in any peaceful resolution of the Taiwan issue 
and the successful management of Hong Kong under the PRC's sovereignty. 
The human rights gap is a potential source of instability--particularly 
in the way China treats its citizens in Tibet and Xinjiang and 
undermines Hong Kong's political freedoms. Any social or political 
meltdowns in any of these areas will certainly involve Western and 
other interests.
    China's repressive policies on religion, in particular, contribute 
to tensions and conflict between the state and significant portions of 
China's population. They unnecessarily turn people of faith into 
enemies of the state. Given how quickly religion and individual 
conscience are growing in China in every sector, the Chinese government 
cannot continue to control or discriminate against its citizens based 
on their expressions of thought, conscience, religion, or belief.
    Active attempts to control and restrict the religious practice and 
activities of Tibetan Buddhists, Uighur Muslims, unregistered 
Protestants and Catholics, various spiritual movements such as the 
Falun Gong, as well as some folk religions in rural China, have only 
caused more friction and social instability.
    For example, religion is a key source of identity for Tibetans and 
Uighur Muslims. Ongoing campaigns to promote atheism and to control 
religious expression and practice in Xinjiang and Tibet are fostering a 
widening division and resentment between the Tibetan and Uighur 
minorities and the Han Chinese majority. This division is a source of 
instability and does not contribute to China's goal of fostering unity 
between China's nationalities. Such division makes marginalized 
minority peoples more likely to reject the policies of the Chinese 
government and to rebel against policies that they feel are repressive 
of their economic livelihood and social integrity.
    The link between social instability and religious freedom can also 
be seen in the recent riots and crackdowns on Hui Muslims in Henan 
Province. The Hui Muslims were always thought to be peaceful and fully 
integrated into Chinese society, so the recent riots raise some 
interesting questions. Though it is unclear exactly what sparked the 
violence--it is clear that even long-standing social and economic 
tensions can lead to religiously related divisions in the current 
environment.
    Nonetheless, the Chinese leadership still cannot accept greater 
individual freedom as a path to long-range stability.
    In ways that are well documented, the Chinese government continues 
to regulate and restrict religious growth to prevent the rise of groups 
or individuals who could gain the loyalty of large numbers of the 
Chinese people. Religious belief and practice is tolerated in China, 
but only if it exists within the boundaries of government-sanctioned 
organizations, government-approved theology, and registered places of 
worship. Though even in approved venues--such as among China's Muslims 
there are still active efforts of control.
    But these efforts at control have not worked and are often 
counterproductive. Religious belief and practice of individual 
conscience have grown dramatically--in fact exploded in many sectors of 
society. The Chinese government admits now that the spiritual 
aspirations of its citizens cannot be completely stamped out.
    Much has changed in China the past 15 years. But much has also 
remained the same. What has changed is often exciting and promising. 
What has remained the same is troubling and acts as a barrier to 
improved bilateral relations and as a drag on China's international 
prestige.
    China aspires to a position of leadership in the community of 
nations. But the severe violations of freedom of religion or belief we 
currently are witnessing are incompatible with the international 
position to which China aspires. If China is to become an open society 
and one trusted as a leader of the international community, it must 
respect the rights of thought, conscience and belief for all of its 
people. The U.S. should support China's transition and aspirations in a 
way that are both credible and consistent with international human 
rights standards.
    As I mentioned at the outset, I will not spend my time detailing 
past and current crackdowns on spiritual practice in China. Several 
witnesses following me will describe in detail how the situation seems 
to have worsened on the ground in the past year.
    For the short time remaining, I would like to highlight several 
policy recommendations.

                         POLICY RECOMMENDATIONS
    The best way to promote respect for religious freedom and related 
human rights in China--and therefore construct a durable Sino-American 
relationship--is to speak with one voice with respect to all U.S. 
interests in China.
    Promotion of security, economic, and human rights interests cannot 
be compartmentalized, but rather should be integrated to more 
accurately reflect their interdependence--because progress in one area 
supports the others, whereas lack of success on human rights impedes 
the progress on others.
(1) Better interagency coordination of human rights concerns into the 
        broad scope of bilateral relations
    Acccordingly, effective, external pressure requires a strong, 
consistent critique of China's human rights practices based on 
international standards. U.S. officials at all levels from the 
President on down, should continually reiterate China's obligation to 
respect human rights and the importance of this issue to the entire 
fabric of the bilateral relationship.
    President Bush, other cabinet heads, and senior officials have 
raised human rights and religious freedom issues with China's political 
leadership and with the Chinese people themselves in public addresses. 
These are important steps and should be continued.
    However, given the often conflicting interests presented by 
competing cabinet agencies and delegations discussing economic, 
security, humanitarian, and human rights concerns in China, there is 
need to better coordinate efforts to ensure that all U.S. Government 
agencies that deal with China are fully aware of, and speak 
consistently about, the direct relevance of human rights to their work 
so that they can advance human rights in ways that are appropriate to 
their particular responsibilities and those of the Chinese with whom 
they interact. We must, quite simply, as a government speak with one 
voice if our concerns in this area are to be properly conveyed and 
sufficiently understood. We need effective interagency coordination of 
our relationship with China in order to achieve that.
(2) Strengthening Bilateral Human Rights Dialogues with China
    Better coordination of U.S. human rights diplomacy could also be 
furthered by strengthening the U.S.-China bilateral human rights 
dialogues. This is an opportune time to talk about this subject, as 
there are presently U.S. representatives in Beijing negotiating the 
resumption of the bilateral dialogues.
    However, in now resuming the bilateral human rights dialogues, 
there are several critical concerns that need to be addressed about the 
dialogues--both about their effectiveness and their quality. These 
concerns include:

        <bullet> The lack of benchmarks: The dialogues have had no 
        publicly stated goals so it has been difficult to evaluate a 
        dialogue's effectiveness and content.
        <bullet> The lack of transparency: Most of the discussions on 
        agenda and topics for the dialogue are not disclosed. 
        Accordingly, there is no way for outside experts and groups to 
        evaluate what was said, what went wrong, or what was 
        accomplished.
        <bullet> The lack of consultation with outside experts: 
        Relatedly, despite their deep 
        expertise, NGOs and other experts are often not consulted when 
        the U.S. Government sets its dialogue agendas and plans its 
        strategies.
        <bullet> The lack of continuity: The identity of Chinese 
        government officials who participate in the dialogues 
        constantly change, thus making follow-through and meaningful 
        longer-term discussion difficult.

    These concerns have been circulating for several years, but have 
not dramatically affected the way that the U.S. Government conducts its 
bilateral human rights dialogue. One way to ensure that the need for 
benchmarks, transparency, coordination and consultation are taken 
seriously is for Congress to mandate an annual report to assess the 
previous year's U.S.-China bilateral human rights dialogues.
    The Congress should require that the State Department submit a 
report to the appropriate congressional committee detailing the issues 
discussed at the previous year's meetings and describing to what extent 
the Government of China has made progress during the previous year on a 
series of issues specified by the Congress.
    Congress has already mandated such a report for the bilateral 
dialogue with Vietnam (Sec. 702 of PL 107-228). The Commission heard 
testimony recently from participants in the U.S.-Vietnam human rights 
dialogue that the Congressional mandate was beneficial in establishing 
benchmarks and measuring progress in the U.S.-Vietnam human rights 
dialogues.
    In this way, Congressional involvement with the human rights 
dialogues would provide the political capital needed to focus the U.S.-
China dialogue on the important goals of setting benchmarks, seeking 
transparency, and getting concrete results from the dialogue process.
(3) Advance a resolution at the U.N. Commission on Human Rights and 
        work for its passage at an appropriate and high official level
    We also believe that bilateral human rights dialogues should be 
linked to multilateral resolutions at the U.N. Commission on Human 
Rights (UNCHR).
    It is essential that bilateral and multilateral diplomacy work 
together to focus attention on China to improve its human rights 
practices, rather than working at cross purposes or allowing the 
Chinese government to play one country off of the other. Yet, we fear 
that a proliferation of separate bilateral dialogues may have become a 
substitute for multilateral monitoring of China's human rights record.
    The U.S. should continue to seek a resolution condemning China as 
one of its highest priorities for its participation at the U.N. 
Commission on Human Rights next spring. It is important to offer a 
resolution even if it looks like it will not pass. However, in the last 
several years, efforts to pass a resolution were often started too late 
in the process to gain sufficient support.
    The U.S. must work year-round on a resolution in order to build an 
effective coalition and high-level government officials should be 
invested in seeking support for the resolution. In the past several 
years, the decision to offer a UNCHR resolution was made in the months 
immediately preceding the Commission's annual meeting. This is not 
enough time to build an effective coalition with those who might 
support it.
    With China's ratification of the International Covenant on Social, 
Economic, and Cultural Rights (ICESCR) and its acceding to the 
International Covenant on Civil and Political Rights (ICCPR), the 
nation has become increasingly involved in the international human 
rights system. By working year-round with international human rights 
bodies, the United States can help produce the type of multinational 
critiques that may command attention in China.
(4) The State Department and other relevant agencies should coordinate 
        with other nations on technical cooperation and capacity 
        building programs in China
    Within the last decade, the United States and several other Western 
nations have established successful programs for technical assistance 
and cooperation in the areas of legal reform and economic and social 
capacity building. These programs are intended to assist China in 
complying with its international human rights commitments and provide 
human rights training for Chinese officials working at the national and 
local levels.
    Fifteen different countries are pursuing some form of rule-of-law, 
human rights, or NGO capacity building projects. Millions of dollars 
and millions of hours of labour are spent on these projects, but there 
has been little or no coordination on methods, goals, outcomes, or 
viable partners.
    The State Department, including USAID and other relevant agencies, 
should organize regular meetings of nations with technical cooperation 
programs with China--seeking to coordinate the various programs across 
disciplines and nations and to evaluate the success and failures and 
share best practices and new approaches from across the globe.
    These programs are often actively sought by China. Technical 
support programs were not canceled by China even though they disbanded 
discussion with the U.S. on human rights in April. The U.S. should take 
the lead to improve and better coordinate approaches that will advance 
religious freedom and related human rights in China and reach out to 
those within China seeking internal reform.
(5) U.S. legal reform and rule of law programs need to be calibrated to 

        ADVANCE RELIGIOUS FREEDOM AND RELATED HUMAN RIGHTS
    At the present time, the State Department does not have a legal 
reform program in China that relates directly to the advancing the 
freedom of thought, conscience, and religion or belief.
    There are numerous commercial rule-of-law programs. It is important 
to note that some legal reform programs have trained lawyers who now 
represent those attempting to fight for their rights in disputes 
involving property, pensions, environmental protections, and medical 
malpractice. Such cases provide a significant source of internal 
pressure upon the Chinese government to conform to international 
standards.
    Thus, it seems this is an opportune time to fund legal reform 
programs that integrate the right to freedom of religion or belief--and 
related rights of expression, 
association, and a fair trial--with other rule-of-law initiatives.
    The Commission recommends that rule-of-law programs with direct 
relevance to the protection of human rights and religious freedom 
should be funded. Such programs should be carried out through 
cooperation between governmental and private institutions, such as bar 
associations, law schools, judicial training centers, and other civil 
society groups.
    The U.S. Government should fund these programs if the efforts are 
to be taken seriously by the Chinese government. And, the programs must 
have U.S. Government support in order to maintain the type of long-term 
sustainability necessary to make an impact on the Chinese legal system.
(6) Review all U.S. foreign aid funding and public diplomacy programs 
        for China to include the promotion and protection of religious 
        freedom. The State Department should consult the Commission in 
        advancing these goals as is required in IRFA
    There is a need to review all State Department and USAID foreign 
aid funding for China to determine whether religious freedom components 
are included in democracy, human rights, economic development, and 
rule-of-law programming under the new Joint Strategic Plan. 
Specifically, more information is needed on specific opportunities to 
promote and protect the freedom of religion and belief through U.S. 
foreign aid funding.
    There is also a need to review all State Department public 
diplomacy programs for China. There is a growing recognition of the 
need to counter anti-Americanism worldwide, and that need exists in 
China as well. Public diplomacy and exchange programs need to be 
reviewed in an effort to promote more positive understanding of 
religious freedom and related human rights among a broad cross-section 
of Chinese society. The International Visitor's Program, and other 
publicly supported 
exchange programs, should actively seek exchanges between a diverse 
segment of Chinese government officials and academic experts and U.S. 
scholars, experts and representatives of religious communities 
regarding the relationship between religion and the state, the role of 
private charity in addressing social needs, the role of religion in 
society, and international standards relating to the right to freedom 
of thought, conscience and religion and belief.
    The International Religious Freedom Act requires that the State 
Department consult with the Ambassador-at-Large for International 
Religious Freedom and the Commission on ways to integrate religious 
freedom into U.S. foreign aid programs and public diplomacy. The 
Commission stands ready to consult with the State Department at any 
time on these timely projects.
(7) Establish an official presence in Xinjiang and Tibet
    Given that religious freedom and human rights concerns are central 
to the issues of contention in Tibet and Xinjiang, and given the 
growing economic development interests in these regions, the U.S. 
should seek to establish an official U.S. Government presence, such as 
a consulate, in Lhasa, Tibet and Urumqi, Xinjiang.
(8) Provide Incentives for Businesses to Promote Human Rights
    The last five years have brought a proliferation of corporate 
responsibility codes of conduct and monitoring programs. These 
activities are certainly laudable. In the example of John Kamm we have 
found that U.S. business people can be effective Ambassadors in 
promoting fundamental human rights in China. But corporate conduct 
codes often vary widely and many do not contain non-discrimination 
clauses pertaining to religion and belief. In addition, there are few 
incentives for corporations to act on the codes' provisions in any 
meaningful way.
    Some order has to be brought back to the process both to unite the 
U.S. business community around similar principles and get back to the 
objective of Congress--in several pieces of legislation including the 
International Religious Freedom Act of 1998 (IRFA)--to engage the 
business community to provide positive examples of human rights in 
China.
    Given that conduct codes are voluntary, one area that needs more 
thought and development is how to offer incentives to businesses to 
establish innovative approaches to promote religious freedom and 
related human rights outside the United States. Maybe the first place 
to start is to consider extending breaks on loans, insurance, and loan 
guarantees from the Export/Import Bank or the Asian Development Bank. 
The Export/Import Bank in particular is required to consider human 
rights in extending services to U.S. companies.
    Given that China has recently ratified the International Covenant 
on Social, Economic, and Cultural Rights there is an opportunity to 
mesh China's international obligations with voluntary corporate action. 
What is needed is better coordination across industries and business 
sectors to determine best practices and viable incentives.
    Mr. Chairman, given the bipartisan nature and reputation of this 
committee--including several past hearings on China's labor practices--
I suggest that the CECC (or possibly the U.S.-China Economic and 
Security Review Commission) organize an international business 
roundtable whereby leaders could compare ideas and offer 
recommendations for action for promoting fundamental freedoms including 
thought, conscience, and religion.
    While there has been much discussion on ways to protect labor 
practices, worker safety and environmental standards as part of 
corporate responsibility codes for China, there has been of yet little 
effort to integrate the protection of freedom of religion or belief 
into them. We hope that any international business roundtable gathered 
to discuss human rights and corporate codes would emphasize the 
promotion of this fundamental right. The Commission and its staff could 
assist in planning the roundtable and would make of our contacts 
available for such an effort.

                               CONCLUSION
    Mr. Chairman, no one can comfortably admit to knowing exactly how 
best to strengthen human rights diplomacy with China. That is why, 
despite having two planned Commission visits canceled because of 
unacceptable conditions on the Commission's itinerary being imposed 
literally at the last hour, we remain committed to traveling to China 
with an appropriate invitation from the Chinese government. We are 
seeking to examine conditions first-hand, if indeed that is possible, 
and to discuss policies and actions with those in the Chinese 
government who are responsible for issues of religion and human rights.
    We hope that through honest and coordinated exchanges with the U.S. 
and other nations, China's leaders will recognize that while prosperity 
and security may lead to national well-being, good standing in the 
community of nations will only be secured by protecting universal human 
rights for every Chinese citizen.
                                 ______
                                 

                 Prepared Statement of Pitman B. Potter

                           NOVEMBER 18, 2004

         Belief in Control: Regulation of Religion in China\1\

Abstract--This article examines the regulation of religion in China, in 
the context of changing social expectations and resulting dilemmas of 
regime legitimacy. The post-Mao government has permitted limited 
freedom of religious belief, subject to legal and regulatory 
restrictions on religious behaviour. However, this distinction between 
belief and behaviour poses challenges for the regime's efforts to 
maintain political control while preserving an image of tolerance aimed 
at building legitimacy. By examining the regulation of religion in the 
context of patterns of compliance and resistance in religious conduct, 
the article attempts to explain how efforts to control religion raise 
challenges for regime legitimacy.
---------------------------------------------------------------------------
    \1\ The research for this article was made possible by a strategic 
grant on Globalization and Social Cohesion in Asia from the Social 
Sciences and Humanities Research Council of Canada (SSHRC), for which I 
am grateful. I would like also to thank Meera Bawa, a graduate student 
and law student at UBC for her research assistance.

    The relationship between religion and state power in China has long 
been 
contested. Dynastic relations with religious organizations and doctrine 
included 
attempts to capture legitimacy through sponsorship of ritual, while 
folk religions continued to thrive in local society despite ongoing 
attempts at official control.\2\ In addition, religion was a 
significant source of resistance to imperial rule, often in the form of 
secret societies attempting to remain aloof from official control,\3\ 
as well as through peasant uprisings inspired by religious devotion.\4\ 
During the Maoist period, programmes of socialist transformation 
challenged the social bases for traditional Chinese folk religions, 
while policies of political monopoly attacked those limited examples of 
organized religion that could be identified and targeted.\5\
---------------------------------------------------------------------------
    \2\ See generally Stephen Feuchtwang, ``School-temple and city 
god,'' in Arthur P. Wolf (ed.), Studies in Chinese Society (Stanford: 
Stanford University Press, 1978), pp. 103-130; C.K. Yang, Religion in 
Chinese Society (Berkeley: University of California Press, 1961).
    \3\ See e.g. David Ownby, Brotherhoods and Secret Societies in mid-
Qing China: The Formation of a Tradition (Stanford: Stanford University 
Press, 1996).
    \4\ See generally, Elizabeth J. Perry, Challenging the Mandate of 
Heaven: Social Protest and State Power in China (Armonk NY: M.E. 
Sharpe, 2001) and Rebels and Revolutionaries in North China, 1845-1945 
(Stanford: Stanford University Press, 1980); Susan Naquin, Millenarian 
Rebellion in China: The Eight Trigrams Uprising of 1813 (New Haven: 
Yale University Press, 1976).
    \5\ See generally, Rennselaer W. Lee III, ``General aspects of 
Chinese communist religious policy, with Soviet comparisons,'' The 
China Quarterly, No. 19 (1964), pp. 161-173.
---------------------------------------------------------------------------
    In post-Mao China, the regime adopted a somewhat more tolerant 
perspective on religion.\6\ As a component of a new approach to 
building regime legitimacy,\7\ the government accepted a tradeoff of 
broader social and economic autonomy in exchange for continued 
political loyalty. Thus, beginning in the 1980s, a ``zone of 
indifference'' \8\ into which the government chose not to intervene was 
cautiously expanded in areas of social and economic relations. While 
the government's concession of socio-economic autonomy was not 
enforceable through formal institutions or processes, it remained an 
important source of popular support that could not easily be repudiated 
except in response to perceived political disloyalty by the citizenry.
---------------------------------------------------------------------------
    \6\ See generally Liu Peng, ``Church and state relations in China: 
characteristics and trends,'' Journal of Contemporary China, Vol. 5, 
No. 11 (1996), pp. 69-79; Donald E. MacInnis, Religion in China Today: 
Policy and Practice (Maryknoll NY: Orbis, 1989); Chang Chi-p'eng, ``The 
CCP's policy toward religion,'' Issues & Studies, Vol. 19, No. 5 
(September 1983), pp. 55-70.
    \7\ See generally Pitman B. Potter, ``Riding the tiger--legitimacy 
and legal culture in post-Mao China,'' The China Quarterly, No. 138 
(1994), pp. 325-358.
    \8\ Tang Tsou, The Cultural Revolution and Post-Mao Reforms: A 
Historical Perspective (Chicago: University of Chicago Press, 1986), p. 
18.
---------------------------------------------------------------------------
    This tension between autonomy and loyalty is particularly evident 
in the area of religion. While China's expanding participation in the 
world economy has seen increased international criticism on human 
rights grounds of policies aimed at controlling religious practices,\9\ 
the importance of the regulation of religion rests primarily on 
domestic factors of authority and legitimacy. Religion represents a 
fault line of sorts in the regime's effort to build legitimacy through 
social policy. As a rich array of religious belief systems re-
emerges,\10\ the regime faces continued challenges of maintaining 
sufficient authority to ensure political control while still presenting 
a broad image of tolerance. This article examines the regulation of 
religion in China in the context of these dimensions of legitimacy and 
political authority.
---------------------------------------------------------------------------
    \9\ See e.g. Human Rights Watch/Asia, China: State Control of 
Religion (1997), Human Rights Watch/Asia, Continuing Religious 
Repression in China (1993), US State Department Bureau of Democracy, 
Human Rights and Labor, ``China country report on human rights 
practices, 2000'' (23 February 2001).
    \10\ See generally, Chan Kim-Kwong and Alan Hunter, ``Religion and 
society in mainland China in the 1990s,'' Issues & Studies, Vol. 30, 
No. 8 (August 1994), pp. 52-68; Julia Ching, ``Is there religious 
freedom in China?'' America, Vol. 162, No. 22 (9 June 1990), pp. 566-
570.
---------------------------------------------------------------------------

 REGULATION OF RELIGION: MAINTAINING THE BALANCE BETWEEN AUTONOMY AND 
                                LOYALTY
    As with many features of social regulation in China, the regulation 
of religion proceeds essentially from the policy dictates of the 
Chinese Communist Party (CCP), which are then expressed and enforced in 
part through law and administrative regulation. Dissemination and 
enforcement of Party policies on religion is the responsibility of an 
intersecting network of Party and governmental organizations.\11\ Prior 
to his retirement following the 16th National CCP Congress, Politburo 
Standing Committee member Li Ruihuan had particular responsibility for 
religious affairs, while Politburo member in charge of propaganda Ding 
Guangen also played an important role.\12\ The Party's United Front 
Work Department is charged with detailed policy formulation and 
enforcement, subject to general Party policy directives.\13\ The State 
Council's Religious Affairs Bureau has responsibility for regulatory 
initiatives and supervision aimed at implementing Party policy.\14\ 
Public Security departments have taken broad responsibility to enforce 
regulations controlling religious activities, and have participated 
actively in suppression campaigns.
---------------------------------------------------------------------------
    \11\ See generally, Human Rights Watch/Asia, China: State Control 
of Religion (1997), ch. 3; Maclnnis, Religion in China Today, pp. 1-5.
    \12\ See ``Li Ruihuan meets religious leaders,'' Beijing Xinhua 
Domestic Service 31 January 2000, in FBIS Daily Report- China (FBIS-
CHI-2000-0201) 1 February 2000. In the official Xinhua report on the 
National Work Conference on Religion, 10-12 December 2001, Li Ruihuan 
was listed just after Li Peng and Zhu Rongji and ahead of Hu Jintao 
among the leaders attending. See ``Quanguo zongjiao gongzuo huiyi zai 
jing juxing'' (``National work conference on religion convenes in 
Beijing'') Renmin Wang (People's Net) (electronic service) (12 December 
2001). Ding Guangen was listed first among the chairs of the Work 
Conference.
    \13\ UFWD Director Wang Zhaoguo's public statements on united front 
work regarding religion have echoed the central tenets of Party policy 
on issues of Party and state guidance of religion and the need for 
religions to adapt to the needs of socialism. See e.g. ``Wang Zhaoguo 
on PRC united front work,'' Beijing Xinhua Domestic Service, 8 January 
2000, in FBIS-CHI-2000-0110, 11 January 2000.
    \14\ See e.g. Ye Xiaowen, ``China's current religious question: 
once again an inquiry into the five characteristics of religion'' (22 
March 1996), Appendix X in Human Rights Watch/Asia, China: State 
Control of Religion (1997), pp. 116-144.
---------------------------------------------------------------------------
    Party policy. Party policy on religion over the past 20 years has 
reflected a marked departure from the repressive policies of the Maoist 
period. The Third Plenum of the 11th CCP Central Committee in 1978 
supported conclusions about the decline of class struggle.\15\ This led 
in turn to gradual acceptance of broader diversity of social and 
economic practices, including a relaxation of Party policy on religion. 
The official summary of CCP policy on religion issued in 1982 as 
``Document 19'' stated the basic policy as one of respect for and 
protection of the freedom of religious belief, pending such future time 
when religion itself will disappear.\16\ While recognizing that 
religious belief was a private matter, and acknowledging that coercion 
to prevent religious belief would be counterproductive,\17\ Party 
policy nevertheless privileged the freedom not to believe in religion. 
It also recognized only five religions, Buddhism, Daoism, Islam, 
Catholicism and Protestantism, in an effort to exclude folk religions, 
superstition and cults from the bounds of protection.\18\ The Party was 
also committed to unremitting propaganda to support atheism, and to 
using its control over the educational system to marginalize religious 
belief.\19\ Document 19 prohibited grants of ``feudal privileges'' to 
religious organizations and otherwise limited their capacity to 
recruit, proselytize and raise funds. Education of clergy and 
administration of religious organizations and buildings aimed to ensure 
that 
religious leaders remained loyal to principles of Party leadership, 
socialism, and national and ethnic unity. Document 19 also prohibited 
Party members from believing in or participating in religion.\20\
---------------------------------------------------------------------------
    \15\ See ``Zhongguo gongchandang di shiyi jie zhongyang weiyuanhui 
di san ci quanti huiyi gongbao'' (``Communique of the Third Plenum of 
the Eleventh CCP Central Committee''), Hongqi (Red Flag), No. 1 (1979), 
pp. 14-21.
    \16\ See ``Guanyu woguo shehuizhuyi shiqi zongjiao wenti de jiben 
guandian he jiben zhengce'' (``Basic viewpoints and policies on 
religious issues during our country's socialist period'') (31 March 
1982), in Xu Yucheng, Zongjiao zhengce faluishi dawen (Responses to 
Questions about Knowledge of Law and Policy on Religion) (Beijing: 
Chinese Academy of Social Sciences Press, 1997), pp. 287-305, at p. 
292. An English translation appears as ``Document 19,'' Appendix 2 in 
Mickey Spiegel, ``Freedom of religion in China'' (Washington, London 
and Brussels: Human Rights Watch/Asia, 1992), pp. 33-45. For discussion 
of circumstances surrounding the issue of Document 19, see Luo Guangwu, 
Xin Zhongguo zongjiao gongzuo da shi yaojian (Outline of Major Events 
in Religious Work in the New China) (Beijing: Chinese culture (huawen) 
press, 2001), pp. 298-304.
    \17\ Herein perhaps lay a recognition of the limits of CCP policies 
that under Mao attempted to repress local religious practices and 
traditions. See generally, Edward Friedman, Paul G. Pickowicz and Mark 
Selden, Chinese Village, Socialist State (New Haven: Yale University 
Press, 1991), esp. pp. 234-35, 268-270. Also see Stephan Feuchtwang, 
``Religion as resistance,'' in Elizabeth J. Perry and Mark Selden 
(eds.), Chinese Society: Change Conflict and Resistance (London: 
Routledge, 2000), pp. 161-177.
    \18\ Ibid. Also Maclnnis, Religion in China Today, pp. 385-410. For 
parallels to religious policies under the Qing, see Ownby, Brotherhoods 
and Secret Societies; Naquin, Millenarian Rebellion in China.
    \19\ See generally, Mac1nnis, Religion in China Today, pp. 411-19.
    \20\ ``Basic view points and policies,'' pp. 299-301.
---------------------------------------------------------------------------
    While the early 1980s signalled an important phase of 
liberalization in comparison to previous periods, the Party remained 
concerned primarily with enforcing social control, under the rubric of 
the dictatorship of the proletariat and the central role of Party 
leadership in the process of socialist modernization.\21\ Significant 
social unrest in Tibet and Xinjiang in 1988-89,\22\ coupled with the 
nation-wide crisis created by the 1989 democracy movement, posed 
particular challenges. In 1991, the CCP Central Committee/State 
Council's ``Document No. 6'' expressed the regime's policy response 
that attempted to co-opt religious adherents while also repressing 
challenges to Party power.\23\ Document No. 6 emphasized increased 
regulatory control over all religious activities: ``Implementing 
administration of religious affairs is aimed at bringing religious 
activities within the bounds of law, regulation, and policy, but not to 
interfere with normal religious activities or the internal affairs of 
religious organizations.'' \24\ While the reference to non-interference 
seemed benign, the qualification that this extended only to ``normal'' 
activities suggested an overarching purpose to confine religion to the 
limits of law and policy.
---------------------------------------------------------------------------
    \21\ See Preamble to the 1982 Constitution of the PRC (Beijing: Law 
Publishers, 1986).
    \22\ On Tibet, see Melvyn Goldstein, ``Tibet, China and the United 
States: reflections on the Tibet question,'' Atlantic Council 
Occasional Paper (April 1995), pp. 38-48. On Xinjiang, see Felix K. 
Chang, ``China's Central Asian power and problems,'' Orbis, Vol. 41, 
No. 3 (Summer 1997), pp. 401-426.
    \23\ ``Guanyu jinyibu zuohao zongjiao gongzuo ruogan wenti de 
tongzhi'' extracted in Luo Guangwu, pp. 434--37. English text appears 
as ``Document 6: CCP Central Committee/State Council, circular on some 
problems concerning further improving work on religion'' (5 February 
1991), Appendix 1 in Spiegel, ``Freedom of Religion in China,'' pp. 27-
32.
    \24\ See Ibid. pp. 435-36. Also see Chan Kim-Kwong and Alan Hunter, 
``New light on religious policy in the PRC,'' Issues & Studies, Vol. 
31, No. 2 (February 1995), pp. 21-36.
---------------------------------------------------------------------------
    Document No. 6 grew out of the State Council's National Work 
Conference on Religion on 5-9 December 1990, at which there was 
relatively frank discussion on the number of religious adherents in 
China and a recognition of the need for limited tolerance.\25\ 
Following Li Peng's exhortation to ensure strict enforcement of Party 
policy and state law on control of religion, Jiang Zemin took a more 
relaxed tack, calling for a united front approach that included 
tolerant management of religious organizations, policies on religion 
that were suited to broader programmes of reform and opening up, and a 
recognition that religion ``affects the masses of a billion people'' 
(shejidao qian baiwan qunzhong) and that resolution of issues of 
religion would have significance for national stability, ethnic unity 
and the promotion of socialist culture. In anticipation of the issuance 
of Document No. 6, Jiang called the five leaders of national religious 
organizations to Zhongnanhai for a briefing, emphasizing the balance 
between limited tolerance of religious activities that conformed to 
Party policy, and repression of heterodoxy.\26\
---------------------------------------------------------------------------
    \25\ For discussion of the work conference, see Luo Guangwu, pp. 
428-1132.
    \26\ Ibid. pp. 432-34.
---------------------------------------------------------------------------
    Document No. 6 claimed to protect freedom of religious belief, 
while requiring 
believers to comply with imperatives of Party leadership, social 
stability and social interests. The document reiterated provisions of 
the 1982 Document No. 19, on the right not to believe in religion. 
Document No. 6 directed public security organs to take forceful 
measures to curb those who use religious activities to ``engage in 
disruptive activities,'' ``stir up trouble, endanger public safety, and 
weaken the unification of the country and national unity,'' or 
``collude with hostile forces outside the country to endanger China's 
security.'' Apart from their utility in justifying restrictions on 
religious activities in Tibet and Xinjiang and prohibitions against 
Christian practitioners from Taiwan,\27\ these provisions also limited 
proselytization, recruitment, fund-raising and other activities in 
support of organized religion.\28\
---------------------------------------------------------------------------
    \27\ With increased (albeit indirect) travel between Taiwan and the 
mainland in the 1980s, the links between Taiwan relations and religious 
affairs became a matter of particular concern. See Religious Affairs 
Bureau and Taiwan Affairs Office, ``Institutional secret, national 
edict on religion'' (guo zhongfa), No. 128 (13 November 1989), in Chan 
and Hunter, ``New light on religious policy in the PRC,'' pp. 21-36 at 
pp. 30-31.
    \28\ Spiegel, ``Freedom of religion in China,'' pp. 8-13.
---------------------------------------------------------------------------
    Despite efforts at official control, a religious revival in China 
gathered significant momentum through the 1990s.\29\ The Party's policy 
response recognized five basic characteristics of religion that had 
been identified and formalized by the CCP's United Front Work 
Department in the late 1950s and then reiterated in 1989.\30\ These 
stressed the long-term character of religion and its mass base, 
national and international aspects, and complexity. The long-term 
character of religion militated in favour of patient persistence in 
Party policies of co-optation and control. The mass character served as 
a cautionary note that the Party could not easily ignore or control the 
some 100 million people believed to participate in religion. The links 
between religion and national and international questions called for 
attention to the interplay between ethnicity in such areas as Tibet and 
Xinjiang and the imported religions of Buddhism and Islam. The 
complexity of religion was seen to require careful analysis of the 
processes of popular belief as a prerequisite for effective policy.
---------------------------------------------------------------------------
    \29\ See generally, Jaime Florcruz et al., ``Inside China's search 
for its soul,'' Time, Vol. 15, No. 14 (4 October 1999), pp. 68-72; Adam 
Brookes and Susan V. Lawrence, ``Gods and demons,'' Far Eastern 
Economic Review, 13 May 1999, pp. 38-40; Arthur Waldron, ``Religious 
revivals in Communist China,'' Orbis, Vol. 42, No. 2 (Spring 1998), pp. 
323-332; Donald MacInnis, ``From suppression to repression: religion in 
China today,'' Current History, Vol. 95 (September 1996), pp. 284-89; 
Matt Forney, ``God's country,'' Far Eastern Economic Review, 6 June 
1996, pp. 46-48.
    \30\ Ye Xiaowen ``China's current religious question: once again an 
inquiry into the five characteristics of religion'' (22 March 1996), in 
Human Rights Watch/Asia, China: State Control of Religion (1997), pp. 
116-144 at pp. 117-18.
---------------------------------------------------------------------------
    In the face of these conditions, Party authorities on religion 
focused on strengthening administration of religious affairs according 
to law, and on actively guiding religions to enable them to adapt to 
socialist society.\31\ While the educational function of Party policy 
represented a method of indirect control over clergy and believers,\32\ 
administration according to law imposed criminal and administrative 
sanctions for religious activities used to ``oppose the Party and the 
socialist system, undermine the unification of the country, social 
stability and national unity, or infringe on the legitimate interests 
of the state. . . .'' \33\ Party policy was less tolerant of local 
sects seeking broader autonomy from the Party and the government,\34\ 
while also urging vigilance against infiltration of China by hostile 
foreign elements under the guise of religion. The United States was 
portrayed as particularly interested in using religion to subvert 
China.\35\
---------------------------------------------------------------------------
    \31\ See Luo Shuze, ``Some hot issues in our work on religion'' 
(June 1996) in Human Rights Watch/Asia, China: State Control of 
Religion (1997), pp. 65-70
    \32\ Ibid. pp. 68-70.
    \33\ Ibid. p. 68. Also see Mickey Spiegel, ``Control `according to 
law': restrictions in religion,'' China Rights Forum, Spring 1998, pp. 
22-27.
    \34\ Luo Shuze, ``Some hot issues in our work on religion,'' at pp. 
66--67
    \35\ Ibid. p. 65. This continues to be a focus of official policy 
statements on religion. See ``US report on religious freedom seen as 
`power politics','' Beijing Xinhua English Service, 11 December 1999, 
in FBIS-CHI-1999-1210, 13 December 1999; ``PRC refutes charges on 
religious affairs,'' Beijing Xinhua English Service, 8 December 1999, 
in FBIS-CHI-19991208, 9 December 1999.
---------------------------------------------------------------------------
    The State Council's 1997 ``White Paper on Freedom of Religious 
Belief in China'' reiterated the point that ``religion should be 
adapted to the society where it is prevalent'' and the religions must 
``conduct their activities within the sphere prescribed by law and 
adapt to social and cultural progress.'' \36\ Pursuant to these 
principles, the government remained committed to punishing those 
religions and religious 
believers who ``are a serious danger to the normal life and productive 
activities of the people'' or who ``severely endanger the society and 
the public interest.'' \37\ The coercive themes were reiterated at the 
United Front Work Department's national work conference in late 
December 1999 by Director Wang Zhaoguo: ``We must comprehensively and 
correctly implement the Party's religious policy, strengthen 
administration of religious affairs according to law, and actively 
guide religions to adapt to socialist society.'' \38\
---------------------------------------------------------------------------
    \36\ ``Freedom of religious belief in China'' (hereafter ``1997 
White Paper'') in White Papers of the Chinese Government, 1996-1999 
(Beijing: Foreign Languages Press, 2000), pp. 227-257 at pp. 246-47.
    \37\ Ibid. p. 247.
    \38\ ``Wang Zhaoguo on PRC united front work,'' Beijing Xinhua 
Domestic Service, 8 January 2000, in FBIS-CHI-2000-0110, 11 January 
2000.
---------------------------------------------------------------------------
     This theme was reinforced in RAB Director Ye Xiaowen's October 
2000 essay on theory and policy.\39\ Ye called for cadres to adhere to 
the ``three sentences'' (san ju hua) of Jiang Zemin extolling the need 
to enforce Party policies on religion, strengthen management of 
religion according to law, and actively lead the adaptation of religion 
and socialism.\40\ Ye also reiterated four principles articulated 
during Jiang Zemin's July 1998 inspection tour of Xinjiang, namely the 
freedom to believe or not believe in religion, non-interference in 
religious activities, separation of politics from religion, and the 
interdependence between rights and obligations associated with 
religious activities. Ye cautioned cadres on the need for tolerance of 
approved religious activities in accordance with law, although he also 
urged punishment of violations. For Ye, the key to managing popular 
religious activity seemed to lie in educating the younger generations 
in historical materialism and atheism, rather than in coercion and 
repression of practitioners.
---------------------------------------------------------------------------
    \39\ Ye Xiaowen, ``Dui zongjiao lilun he zhengce yaodian de fensi 
he guilei'' (``Analysing and classifying the main points of religious 
theory and policy''), in Luo Guangwu, pp. 1-8.
    \40\ These had been articulated in Ye's 14 March 1996 Renmin ribao 
editorial, which in turn harkened back to Jiang Zemin's 7 November 1993 
speech to a national united front work conference. See Luo Guangwu, pp. 
528-29, 465-68.
---------------------------------------------------------------------------
    Despite the violent repression campaign against the falun gong in 
2000-2001, Party policy continued to sound a theme of cautious 
accommodation with religion in general, under the theme of adaptation 
between religion and socialism. In his speech to the December 2001 
National Work Conference on Religious Affairs, Jiang Zemin called once 
again for adaptation between religion and socialism.\41\ The conference 
was intended originally to summarize the results of the campaign 
against the falun gong and to provide instructions for further action. 
However, by the time the meeting was held, policy consensus on 
repression of the falun gong had apparently progressed to the point 
where there was little left to discuss. As a result, the conference was 
used as an opportunity to summarize official policies. Jiang's speech 
instructed officials to adhere to policies on religious freedom, 
refrain from using administrative force to eliminate religion and 
accept that religion would be an integral part of Chinese society for a 
long time. These conciliatory elements were echoed in an influential 
article by Deputy Director of the State Council Office for Economic 
Restructuring Pan Yue, who is also an important official in the CCP's 
youth wing.\42\ Pan suggested that the Party drop its long-standing 
prohibition of religious figures joining the Party and recognize that 
religion ``has psychological, cultural and moral functions, as well as 
numerous uses, such as services and public welfare.'' Pan called for 
the Party to ``abandon the policy of consistently suppressing and 
controlling religion and adopt [a policy] of unity and guidance and 
take advantage of the unifying power and appeal of religion to serve 
the CCP regime.''
---------------------------------------------------------------------------
    \41\ ``Jiang Zemin,  Zhu Rongji address religious work conference, 
other leaders take part,'' Beijing Xinhua Domestic Service, 12 December 
2001 in FBIS-CHI-2001-1212, 19 December 2001.
    \42\ ``Report says CCP plans to allow religious figures to join 
Party,'' Hong Kong Sing Tao Jih Pao (internet version), in FBIS-CHI-
2001-1224, 26 December 2001.
---------------------------------------------------------------------------
    However, the December 2001 work conference also expressed the more 
conventional aspects of policies on control of religion. Jiang Zemin 
called for the Party and state to guide religion to conform to the 
needs of socialism, and to prevent religious adherents from interfering 
with the socialist system, the interests of the state and the 
requirements of social progress. Religious adherents were admonished to 
love the motherland, support the socialist system and the leadership of 
the Party, and obey the laws and policies of the state. The basic 
principles articulated in Document 19 of 1991 remain key to ensuring 
that religious activities would not thwart the goals of Party 
leadership and socialism. Zhu Rongji's remarks to the December 2001 
meeting focused on the need for effective administration of the 
regulatory system for religion, particularly in rural and minority 
areas.\43\ The theme of control was 
reiterated in Tibet Daily's 13 December commentary on a Central 
Committee outline concerning implementing citizens' moral construction, 
which focused on ``strengthening unity with the broad masses of people 
who do not believe in religion,'' supporting ``normal and orderly 
religious activities'' and strengthening Party leadership.\44\ In 
addition, Politburo Politics and Law Chair Luo Gan's speech on tasks 
for 2002, given just prior to the work conference, stressed the need 
for suppression of disruptive religious activity.\45\ Thus, despite 
recent suggestions about liberalization, the discourse of control 
remains strong.
---------------------------------------------------------------------------
    \43\ ``Jiang Zemin, Zhu Rongji address religious work conference.''
    \44\ See ``Xizang ribao commentator views implementation `outline' 
on ethics building, Tibet's religious policy,'' Xizang ribao (Tibet 
Daily), 13 December 2001, in FBIS Doc. ID CPP20011217000175, 17 
December 2001.
    \45\ See ``China's Luo Gan outlines tasks of political legal work 
in 2002,'' Beijing Xinhua Domestic Service, 4 December 2001, in FBIS-
CHI-2001-1204, 7 December 2001.
---------------------------------------------------------------------------
    Provision of Chinese law. The State Council's 1997 White Paper 
reiterated the distinction between religious belief which the state 
purports to protect, and ``illegal and criminal activities being 
carried out under the banner of religion.'' \46\ The distinction is 
made according to CCP policies, as expressed in the provisions of the 
Constitution and specific laws and regulations.
---------------------------------------------------------------------------
    \46\ ``1997 White Paper,'' p. 247.
---------------------------------------------------------------------------
    The Constitution of the PRC represents a formal articulation of 
Party policy. As Peng Zhen, then Vice-Chair of the Committee to Revise 
the Constitution, pointed out in 1980, ``the Party leads the people in 
enacting the law and leads the people in observing the law'' (dang 
lingdao renmin zhiding falu, ye lingdao renmin zunshou falu).\47\ This 
edict remains a bulwark of the Party's approach to law making.\48\ 
During the post-Mao period, policies of limited tolerance for religion 
were reflected in the provisions of Article 36 of the 1982 
Constitution:\49\
---------------------------------------------------------------------------
    \47\ See e.g. Peng Zhen. ``Guanyu difang ren-da changweihui de 
gongzuo'' (``On the work of local people's Congress standing 
committees'') (18 April 1980). In Peng Zhen wenxuan (Collected Works of 
Peng Zhen) (Beijing: People's Press, 1991), pp. 383-391 at p. 389.
    \48\ See e.g. Wu Fumin, ``Zou yifa zhiguo lu'' (``Walking the road 
of ruling the country by law''), in Fazhi ribao (Legal System Daily), 
19 April 2000, pp. 1-2; Zhang Zhiming, Cong minzhu xin lu dao yifa 
zhiguo (From the New Road of Democracy to Ruling the Country According 
to Law) (Nanchang: Jiangxi Higher Education Press, 2000); Tian Jiyun 
(ed.), Zhongguo gaige kaifang yu minzhu fazhi jianshe (China's Reform 
and Opening Up and Construction of Democracy and the Legal System) 
(Beijing: China Democracy and Legal System Press, 2000), p. 412.
    \49\ PRC Constitution (1982) (Beijing: Publishing House of Law, 
1986). The provisions of Article 36 were retained in the constitutional 
amendments of 1988, 1993 and 1999.

          Citizens of the People's Republic of China enjoy freedom of 
        religious belief.
          No state organ, public organization or individual may compel 
        citizens to believe in, or not to believe in, any religion: nor 
        may they discriminate against citizens who believe in, or do 
        not believe in any religion.
          The state protects normal religious activities. No one may 
        make use of religion to engage in activities that disrupt 
        public order, impair the health of citizens or interfere with 
        the educational system of the state.
          Religious bodies and religious affairs are not subject to any 
        foreign domination.

    In explaining the meaning of Constitutional provisions on religious 
freedom, Peng Zhen noted that from a political perspective the common 
elements of patriotism and adherence to socialism bind those who 
believe in religion and those who do not.\50\ This underscored the 
imperative of submission to party-state control as a condition for 
enjoyment of religious freedom. Protection of freedom of religion was 
qualified as well by provisions of the PRC Constitution Article 33 
conditioning the exercise of citizens' rights on their performance of 
duties: ``Every citizen enjoys the rights and at the same time must 
perform the duties prescribed by the Constitution and the law.'' \51\ 
As explained by Peng Zhen, these duties included upholding the Four 
Basic Principles,\52\ which impose a duty to uphold the socialist road, 
the dictatorship of the proletariat, leadership of the Party, and 
Marxism, Leninism, Mao Zedong Thought.\53\ Thus, the freedom granted 
religious belief remained conditional not only on compliance with law 
and regulation, but more fundamentally on submission to the policies 
and edicts of the party-state.
---------------------------------------------------------------------------
    \50\ Peng Zhen, ``Guanyu Zhonghua rennin gongheguo xianfa xiugai 
cao'an de shuoming'' (``Explanation of the draft revisions to the 
Constitution of the PRC''), in Peng Zhen, Lun xin shiqi de shehui 
minzhu yu fazhi jianshe (On Building Socialist Democracy and Legal 
System During the New Period) (Beijing: Central Archives Press, 1989), 
pp. 100-115 at p. 109.
    \51\ PRC Constitution (1982). This provision was retained in the 
1988, 1993 and 1999 amendments.
    \52\ Peng Zhen, ``Guanyu Zhonghua renmin gongheguo xianfa xiugai 
cao'an de shuoming'' (``Explanation of the draft revisions to the 
Constitution of the PRC''), in Renmin ribao (People's Daily), 6 
December 1982.
    \53\ Deng Xiaoping, ``Jianchi si xiang jiben yuanze'' (``Uphold the 
four basic principles''), in Deng Xiaoping wenxuan: yijiugiwu--yijiu 
ba'er (Collected Works of Deng Xiaoping: 1975-1982) (Beijing: People's 
Press, 1983), pp. 144-170 at pp. 150-51.
---------------------------------------------------------------------------
    The Constitution provides authority for specific legislation on the 
matter of religion. As yet, there is no comprehensive law on religion, 
although the principle of freedom of religious belief is articulated 
with qualifications in a number of specific laws.\54\ Thus, the Law on 
Autonomy in Nationality Regions (1984, 2001) allows in Article 11 for 
freedom of religious belief, subject to qualifications against harm to 
social order, personal health and state education. The General 
Principles of Civil Law (1986) provides in Article 75 for protection of 
personal property including cultural items and in Article 77 for 
protection of property of religious organizations. The Law on Elections 
to National and Local People's Congresses (1986) provides in Article 3 
for the right to stand for election regardless of religious belief, as 
does the Organization Law on the Village Committees (1987) in Article 
9. The Education Law (1995) Article 9 prohibits discrimination in 
educational opportunity based on religion, although Article 8 provides 
that religion may not interfere with the state educational system. The 
Labour Law (1995) Article 12 prohibits discrimination in 
employment based on religion. The revised Criminal Law of the PRC 
(1997) provides in Article 251 for punishment of state personnel who 
unlawfully deprive citizens of their freedom of religious belief. As 
with the Constitutional provisions, these laws confine the scope of 
protection to the matter of religious belief, as qualified by 
requirements that religious practices not conflict with the state's 
political authority.
---------------------------------------------------------------------------
    \54\ ``1997 White Paper,'' pp. 230, 232.
---------------------------------------------------------------------------
    Authorized by the Constitution and informed by CCP policies, 
China's regulatory provisions on religion include measures of general 
application as well as edicts that apply to specific conduct or 
beliefs. Regulatory restrictions extend to places of worship, which 
must be formally registered and undergo annual inspections, and may not 
be used for activities that ``harm national unity, the solidarity of 
ethnic groups, social stability or the physical health of citizens, or 
obstruct the educational system.\55\ Religious education academies must 
implement CCP policy and submit to Party leadership, and their 
curricula, programmes and personnel are subject to approval by the 
Religious Affairs Bureau.\56\ The officially approved curricula 
incorporate state policy into religious instruction.\57\ Activities 
such as recruiting believers among primary and secondary school 
students, propagating religious ideology in school, establishing 
illegal (that is, not properly approved and registered) religious 
schools and enrolling young people, and traveling abroad to attend 
seminary are considered in violation of the provision that religion may 
not obstruct state 
education.\58\
---------------------------------------------------------------------------
    \55\ ``Guowuyuan guanyu zongjiao huodong changsuo guanli tiaoli'' 
(``State Council regulations regarding the management of places of 
religious activities'') (31 January 1994), in Xu Yucheng, Respect to 
Questions, pp. 308-310. English text of these measures, along with 
``Registration procedures for venues for religious activities'' (1 May 
1994); ``Method for annual inspection of places of religious activity'' 
(29 July 1996), appear in Human Rights Watch Asia, China: State Control 
of Religion (1997), pp. 106-108, 109-111, 112-14, respectively.
    \56\ See e.g. Religious Affairs Bureau of the State Council, 
``Comments on enhancing the world of religious academies'' (15 January 
1988), in Chan and Hunter, ``New light on religious policy in the 
PRC,'' at pp. 29-30.
    \57\ See for example, ``Excerpts from questions and answers on the 
patriotic education program in monasteries'' (25 May 1997), in Human 
Rights Watch Asia, China: State Control of Religion (1997), pp. 100-
103, where monastery students are required to master government policy 
attacking the Dalai Lama.
    \58\ ``Notice on the prevention of some places using religious 
activities to hinder school education'' (26 November 1991), in Human 
Rights Watch/Asia, Freedom of Religion in China (1992), pp. 68-70. For 
further controls over students sent abroad for religious education, see 
Religious Affairs Bureau of the State Council, ``Comments on the 
Protestant Church sending of students overseas'' (21 May 1990), in Chan 
and Hunter, ``New light on religious policy in the PRC,'' pp. 31-32.
---------------------------------------------------------------------------
    Religious activities by foreigners are also subject to control. 
This derives in part from the conflicted history of China's relations 
with foreign missionaries, who are portrayed as instruments of 
imperialism. In addition, the government strives for control over 
religion by insulating religious practitioners and activities from 
their overseas counterparts.\59\ Evangelical Christians from the United 
States and Korea have been cited as examples of foreign religious 
interests interfering with China's independence and autonomy in 
managing religious affairs, and building up anti-motherland, anti-
government forces.\60\ Religious broadcasts, internet information, and 
literature and materials brought into China from abroad are subject to 
special inspection and confiscation.\61\ Foreigners are generally 
prohibited from proselytizing, recruiting candidates to go abroad for 
instruction, and bringing to China religious materials that endanger 
the public interest.\62\
---------------------------------------------------------------------------
    \59\ See generally, ``Fourteen points from Christians in the 
People's Republic of China to Christians abroad'' in MacInnis, Religion 
in China Today, pp. 61-70.
    \60\ ``Vigilance against infiltration by religious forces from 
abroad'' (15 March 1991), in Human Rights Watch/Asia, Freedom of 
Religion in China (1992), pp. 52-54. Also see Human Rights Watch/Asia, 
China: State Control of Religion (1997), pp. 33-36.
    \61\ See Religious Affairs Department of the State Council and the 
Ministry of Public Security, ``Notification on stopping and dealing 
with those who use Christianity to conduct illegal activities'' (18 
October 1988); Religious Affairs Office, ``Comments on handling 
religious publications that enter our borders'' (16 June 1990), in Chan 
and Hunter, ``New light on religious policy in the PRC,'' pp. 30 and 
32, respectively. On internet controls, see ``Computer information 
network and internet security, protection and management regulations'' 
(30 December 1997) (author's copy).
    \62\ ``Guowuyuan guanyu Zhonghua renmin gongheguo jingnei waiguoren 
zongjiao huodong guanli guiding'' (``State Council regulations on the 
management of religious activities of foreigners in the PRC'') (31 
January 1994), in Xu Yucheng, Responses to Questions, pp. 306-307. 
English text appears in Human Rights Watch/Asia, China: State Control 
of Religion (1997), pp. 104-105.
---------------------------------------------------------------------------
    The Religious Affairs Bureaus of China's provinces and major cities 
are empowered to issue local regulations on the control of 
religion.\63\ These generally echo the tenets of central edicts.\64\ 
The Regulations of the Shanghai Religious Affairs Bureau (1996), for 
example, mirror provisions of national regulations on the authority of 
the government to maintain lawful supervision over religious affairs, 
including registration and supervision of religious organizations, 
religious personnel, places of worship, and religious activities, 
education and property.\65\
---------------------------------------------------------------------------
    \63\ See generally, Richard Madsen and James Tong (eds.), ``Local 
religious policy in China, 1980-1997,'' in Chinese Law and Government, 
Vol. 33, No. 3 May/June 2000, containing regulations from Guangdong, 
Fujian, Zhejiang, Shanghai, Shandong, Hebei, Henan, Qinghai, Xinjiang 
and Yunnan. Also see, ``Regulations from the Shanghai Religious Affairs 
Bureau'' (30 November 1995), in Human Rights Watch/Asia, China: State 
Control of Religion (1997), pp. 90-99; ``Provisional regulations for 
the registration and management of places of religious activity in 
Fujian province,'' in Human Rights Watch/Asia, Continuing Religious 
Repression in China (1993), pp. 50-54
    \64\ Richard Madsen, ``Editor's introduction,'' in Richard Madsen 
and James Tong (eds.), ``Local religious policy in China, 1980-1997,'' 
in Chinese Law and Government, Vol. 33, No. 3 (May/June 2000), pp. 5-
11.
    \653\ ``Regulations from the Shanghai Religious Affairs Bureau'' 
(30 November 1995), in Human Rights Watch/Asia, China: State Control of 
Religion (1997), pp. 90-99.
---------------------------------------------------------------------------
    Particular regulatory provisions are also aimed at specific 
religions. Mindful of the overlap between religious belief and ethnic 
tension, the government regulates religious activities of minority 
nationalities in Tibet and Xinjiang closely to ensure repression of 
nationalist separatism.\66\ Echoing Constitutional provisions and Party 
policy, the Law on Autonomy in Nationality Regions (1984) provides in 
Article 11 that ``normal'' religious activities are protected, but 
prohibits use of religion to ``disrupt social order, the health of 
citizens, or interfere with the educational system of the state.'' In 
Tibet, regulation of religion aims at control of a religious revival in 
Buddhism and at political questions surrounding the authority of the 
Dalai Lama.\67\ Reacting to an outbreak of anti-Chinese unrest in 1988-
89, the government imposed martial law and stepped up efforts at 
securing political control.\68\ Following the Dalai Lama's demurral to 
China's offer of negotiations, government regulation of religion in 
Tibet since 1994 has focused on a political agenda of attacking 
elements associated with the Dalai Lama.\69\ Among the many measures 
taken in this 
campaign are control over education curricula to subordinate religion, 
refusal of 
negotiations with the Dalai Lama and the ban against display or 
possession of his photograph, the re-education and in some cases 
dismissal of monks over their loyalty to the Dalai Lama,\70\ and the 
subversion of the Dalai Lama's selection of a new Panchen Lama.\71\ 
Expulsion of nuns and the demolition of Buddhist institutes and 
monasteries reflect on ongoing commitment to ensuring control over 
religious education and instruction in Tibetan Buddhism.\72\ The 
government's commitment to controlling those who challenge it was 
evident as well in efforts to persuade India to return the Karmapa 
Lama, whose flight from Lhasa shocked Beijing in early 2000.\73\
---------------------------------------------------------------------------
    \66\ See T. Shakya, The Dragon in the Land of Snows: A History of 
Modern Tibet Since 1947 (New York: Columbia University Press, 1999); 
International Rehabilitation Council for Torture Victims (ed.), Torture 
in Tibet 1949-1999 (Copenhagen: IRCT, 1999); P. Wing, L. and J. Sims, 
``Human rights in Tibet: an emerging foreign policy issue,'' Harvard 
Human Rights Journal, Vol. 5 (1992), pp. 193-203. Also see Melvyn 
Goldstein and Matthew T. Kapstein (eds.), Buddhism in Contemporary 
Tibet (Berkeley: University of California Press, 1998). Cf. A. Rosett, 
``Legal structures for special treatment of minorities in the People's 
Republic of China,'' Notre Dame Law Review, Vol. 66, No. 5 (1991), pp. 
1503-28.
    \67\ See generally Goldstein and Kapstein, Buddhism in Contemporary 
Tibet; Maclnnis, Religion in China Today, pp. 184-203.
    \68\ See generally, Solomon M. Karmel, ``Ethnic tension and the 
struggle for order: China's policies in Tibet,'' Pacific Affairs, Vol. 
68, No. 4 (Winter 1995-96), pp. 485-508. Also see Amnesty 
International, People's Republic of China: Repression in Tibet, 1987-
1992 (1992).
    \69\ See generally, Human Rights Watch/Asia, China: State Control 
of Religion (1997), pp. 43-50.
    \70\ For an example, see ``Education for ethnic minorities: 
diversity neglected in stress on manufactured unity,'' China Rights 
Forum, Summer 2001, pp. 12-15; ``Excerpts from questions and answers on 
the patriotic education program in monasteries'' (25 May 1997), in 
Human Rights Watch/Asia, China: State Control of Religion (1997), pp. 
100-103.
    \71\ Also see Hollis Liao, ``The case of the two Panchen Lamas--a 
religious or political issue?'' Issues & Studies, Vol. 31, No. 12 
(December 1995), pp. 115-17; Jonathan Mirsky, ``A Lamas' who's who,'' 
in New York Review of Books, 27 April 2000, p. 15.
    \72\ Tibet Information Network, ``Serthar teacher now in Chengdu: 
new information on expulsions of nuns at Buddhist institute'' (8 
November 2001); ``China-Tibetan monk,'' Associated Press Wire Service 
(27 September 1991).
    \73\ ``PRC spokesman on asylum in India for Karmapa Lama,'' Agence 
France Presse HK, 11 January 2000, in FBIS-CHI-2000-0111, 12 January 
2000.
---------------------------------------------------------------------------
    Regulation of Islam in Xinjiang also appears to reflect conclusions 
about convergence between religion and nationalism.\74\ Heavy emphasis 
is placed on prohibitions against using religion to oppose CCP 
leadership and the socialist system, or to engage in activities that 
split the motherland or destroy unity among nationalities.\75\ 
Religious activities are not permitted to interfere with state 
administration, religious activities and personnel must remain within 
the localities where they are registered, and religious teaching and 
the distribution of religious materials is closely controlled. 
Education and training of religious personnel is permitted only by 
approved patriotic religious groups, while people in charge of 
scripture classes must support the leadership of the Party and the 
socialist system, and safeguard unity of all nationalities and 
unification of the motherland. Human rights reporting on Xinjiang 
provides many examples of harassment and repression of Islamic 
teachers, mosques, schools and practitioners who might contribute to 
secessionist sentiment.\76\ Recently, Beijing has used the US-led war 
against terrorism to justify repression of Islamic activities in 
Xinjiang, through a concerted campaign of arrests and executions of 
alleged separatists.\77\
---------------------------------------------------------------------------
    \74\ See MacInnis, Religion in China Today, pp. 248-254. Also see 
Dru Gladney, Muslim Chinese: Ethnic Nationalism in the People's 
Republic (Cambridge MA: Harvard Council on East Asian Studies, 1991); 
He Yanji, ``Adapting Islam to socialism in Xinjiang,'' in Luo Zhufeng 
(ed.), Religion Under Socialism in China (trans. MacInnis and Zheng) 
(Armonk NY: M.E. Sharpe, 1991), pp. 224-231.
    \75\ ``Provisional regulations on the administration of religious 
activities in the Xinjiang Uighur Autonomous Region'' (1990), in Human 
Rights Watch/Asia, Freedom of Religion in China (1992), pp. 64-65.
    \76\ See generally, Human Rights Watch/Asia, China: State Control 
of Religion (1997), pp. 39-42; Amnesty International, People's Republic 
of China: Secret Violence, Human Rights Violations in Xinjiang (1992).
    \77\ See Information Office of PRC State Council, ``East Turkistan 
terrorist forces cannot get away with impunity,'' Beijing Xinhua 
English Service, 21 January 2002, in FBIS-CHI2002-01-21, 21 January 
2002. Also see Willy Wo-Lap Lam, ``Terrorism fight used to target China 
secessionists,'' CNN e-mail newsletter (23 October 2001); ``China 
claims `big victory' over separatists in Xinjiang,'' Agence France 
Presse (25 October 2001); Craig S. Smith, ``China, in harsh crackdown, 
executes Muslim separatists,'' New York Times, 16 December 2001.
---------------------------------------------------------------------------
    The Chinese regulatory framework gives special attention to 
Christianity. This is in part because of an historiography that links 
Christian missionary work with imperialism, and to fears of 
international subversion through religion.\78\ The growth in popularity 
of Christianity during the post-Mao period has driven new efforts at 
control.\79\ Catholic churches are primarily under the authority of the 
Chinese Catholic Patriotic Association and the Chinese Conference of 
Catholic Bishops, while Protestants are subject to the ``Three Self' 
patriotic movement and the China Christian Council.\80\ With its longer 
history of missionary activity in China and more formalized hierarchy 
of clergy professing exclusive loyalty to the Vatican, the Catholic 
Church has posed particular problems for the CCP regime.\81\ The 
government has devoted particular efforts to control over Catholic 
clergy and their activities. Those associated with the underground 
church who refuse to renounce the authority of the Vatican have 
regularly been singled out for criminal prosecution and repression.\82\ 
Regulations issued in 1989 called for stepping up control over the 
Catholic Church, primarily through increased education and 
indoctrination of state-approved clergy, strengthening the 
organizational authority of the Catholic Patriotic Association, 
repression of ``Catholic Underground Forces,'' and strengthening Party 
leadership.\83\ Tensions with the Catholic Church have been compounded, 
by the Vatican's diplomatic recognition of Taiwan, although 
normalization of relations with the mainland remains a possibility, 
driven by a combination of liberalization and political realism.\84\
---------------------------------------------------------------------------
    \78\ See e.g. Luo Shuze, ``Some hot issues in our work on 
religion,'' pp. 65-66.
    \79\ See e.g. discussion of the ``Notice on preventing and clearing 
up the use of Christianity to carry out crimes and illegal activities'' 
(Guanyu zhizhi liyong jidujiao jinxing weifa weifa huodong de tongzhi) 
issued October 1988 by Religious Affairs Bureau and Public Security 
Bureau, in Luo Guangwu, pp. 391-393. Also see Simon Elegant, ``The 
great divide,'' Far Eastern Economic Review, 6 June 1996, p. 53; Betty 
L. Wong, ``A paper tiger? An examination of the International Religious 
Freedom Act's impact on Christianity in China,'' Hastings International 
and Comparative Law Review, Vol. 24 (2001), p. 539.
    \80\ See generally, MacInnis, Religion in China Today, pp. 263-67, 
313-18; Human Rights Watch/Asia, China: State Control of Religion 
(1997), pp. 13-16. On the ``Three-Self' movement during the Maoist 
period, see Wallace C. Merwin and Francis P. Jones, Documents of the 
Three-Self Movement (New York: National Council of the Churches of 
Christ in the USA, 1963).
    \81\ See generally, Richard Madsen, China's Catholics: Tragedy and 
Hope in an Emerging Civil Society (Berkeley: University of California 
Press, 1998). Also see Freidman et al., Chinese Village, Socialist 
State, p. 234.
    \82\ See e.g. ``What we learned from the trial of the case of the 
Zhu Hongsheng counterrevolutionary clique,'' in Human Rights Watch/
Asia, Continuing Religious Repression in China (1993), pp. 41-47.
    \83\ CCP United Front Work Department and State Council Religious 
Affairs Bureau, ``Circular on stepping up control over the Catholic 
Church to meet the new situation'' (24 February 1988), in Human Rights 
Watch/Asia, Freedom of Religion in China (1992), pp. 46-51.
    \84\ See Melinda Liu and Katharine Hesse, ``A blessing for China,'' 
Newsweek, 11 June 2001, pp. 27-31.
---------------------------------------------------------------------------
    The Protestant Church has reportedly received less attention, 
partly because of its autonomy from the Vatican.\85\ However, the 
relative fluidity of Protestant organizational structures, particularly 
the role of lay clergy, has made it harder for the government to 
control, leading for calls to repress Protestant evangelical activities 
under the guise of controlling illegal ``sects'' (xiejiao).\86\ The 
charter for the ``Three Self'' movement underscores its submission to 
Party leadership, support for the authority of the state and the 
socialist motherland, and obedience to the Constitution, laws, 
regulations and policies of the state.\87\ The charter for the China 
Christian Council is less effusive in its support for Party leadership, 
but still expresses compliance with the party-state through a 
commitment to manage its churches according to China's constitutions, 
laws, regulations and policies.\88\
---------------------------------------------------------------------------
    \85\ Hon S. Chan, ``Christianity in post-Mao mainland China,'' 
Issues & Studies, Vol. 29, No. 3 (September 1993), pp. 106-132, at p. 
124.
    \86\ See John Pomfret, ``China church chief said to protest in 
prison,'' International Herald Tribune, 7-8 December 2002, p. 2; Li 
Shixiong and Xiqiu (Bob) Fu, ``Religion and national security in China: 
secret documents from China's security sector'' (New York: Committee on 
Investigation of Persecution of Religious Freedom in China, 2002); 
Amnesty International, ``Urgent action update: death penalty/fear of 
imminent execution/torture and ill-treatment,'' 5 February 2002, and 
``Urgent action update: death penalty/fear of imminent execution,'' 4 
January 2002. For earlier documentation, see ``A report on the 
development of Christian sects in China,'' Human Rights Watch/Asia, 
Freedom of Religion in China (1992), p. 76.
    \87\ ``Constitution of the National Committee of the Three Self 
Patriotic Movement of the Protestant Churches of China'' (2 January 
1997), in Pik-wan Wong, Wing-ning Pang and James Tong (eds.), ``The 
Three-Self churches and `freedom' of religion in China, 1980-1997,'' 
Chinese Law and Government, Vol. 33, No. 6 (November/December 2000), 
pp. 37-39.
    \88\ ``Constitution of the China Christian Council'' (1 January 
1997), in ibid. pp. 39-42. For discussion of the link between 
compliance with the Chinese constitution and submission to Party 
leadership, see nn. 71,72 and accompanying text.
---------------------------------------------------------------------------
    The attack on illegal sects also extends to the now-famous falun 
gong movement, which is not considered a religion and thus is not 
covered by the policies of limited tolerance articulated in Document 19 
of 1982. Initially the government appeared to focus on the movement's 
challenge to state orthodoxy as the main grounds for suppression.\89\ 
Shocked by the group's organized peaceful protest in front of 
Zhongnanhai in April 1999, the regime was alarmed further by the 
prospect of widespread falun gong membership among officials and Party 
members.\90\ Although the government claimed in July that sufficient 
legal grounds already existed for banning falun gong,\91\ in October 
1999 special additional measures were enacted by the NPC Standing 
Committee outlawing heretical sects and activities.\92\ The measures 
attacked activities that ``under the guise of religion, qigong or other 
name disrupt social order or harm the people's lives, financial 
security and economic development.'' While examples of murder, rape and 
swindling were listed as among the criminal activities at which the 
measure was aimed, particular emphasis was given to harming enforcement 
of laws and regulations, causing public disturbance, and disrupting 
public order. Thus, the target was in essence non-compliance with 
established norms of political loyalty, as official interpretations 
focused particularly on sectarian activity that ``destroyed normal 
social order and stability.'' \93\ Reflecting the government's concern 
with the apparent international reach of falun gong, the law 
provided particularly heavy penalties for cases involving contacts 
among falun gong followers in different provinces or abroad. The 
measures were used as well to attack other groups who allegedly 
threaten Communist Party rule.\94\
---------------------------------------------------------------------------
    \89\ Elizabeth J. Perry, ``Challenging the mandate of heaven: 
popular protest in modern China,'' in Critical Asian Studies, Vol. 33, 
No. 2 (2001), pp. 163-180.
    \90\ See Ming Xia and Shiping Hua (guest eds.), ``The battle 
between the Chinese government and the falun gong,'' Chinese Law and 
Government, Vol. 32, No. 5 (September/October 1999), especially 
documents 1-4 and 13, focusing on forbidding falun gong membership by 
Party members, non-Party members subject to the United Front Work 
Department, and state functionaries, and Communist Youth League 
members.
    \91\ Document 11: ``Laws exist for the banning of falun gong,'' in 
ibid. pp. 43-45.
    \92\ ``Quanguo renmin daibiao dahui changwu weiyuanhui guanyu qudi 
xiejiao zuzhi, fangfan he chengzhi xiejiao huodong de jueding'' 
(``Decision of the NPC Standing Committee on outlawing heretical 
organizations and guarding against and punishing heretical 
activities'') (30 October 1999), in State Council Legal System Office 
(ed.), Zhonghua renmin gongheguo xin fagui huibian -1999 no. 4 
(Compilation of New Laws and Regulations of the PRC -1999 no. 4) 
(Beijing: Law Publishers, 1999), p. 148. Also see ``NPC Standing 
Committee issues anti-cult law'' and ``More on China issues anti-cult 
law,'' Beijing Xinhua English Service, 30 October 1999, in FBIS-CHI-
1999-1030, 20 November 1999.
    \93\ ``China passes law to `smash' falun gong, other cults,'' 
Agence France Presse HK, 30 October 1999, in FBIS-CHI-1999-1030, 20 
November 1999.
    \94\ See Human Rights Watch, HRW World Report 2000: China, February 
2000; Human Rights Watch, ``China uses `rule of law' to justify falun 
gong crackdown,'' 9 November 1999.
---------------------------------------------------------------------------
    While the new measures were enforced vigorously in concert with an 
intense propaganda campaign,\95\ the leadership remained concerned over 
its inability to eradicate the group.\96\ More recently, the government 
has linked falun gong with Tibetan and Xinjiang separatists as threats 
to Communist Party leadership and the stability of China.\97\ In 
addition, the campaign against falun gong has become internationalized 
because of the US residence of its leader Li Hongzhi, and is thus 
intertwined with the US and international concerns over China's human 
rights record.\98\ Arrests of foreign citizen practitioners of falun 
gong has further complicated the international relations aspect of the 
issue,\99\ and stern warnings from Beijing that falun gong activities 
would not be permitted in Hong Kong raised delicate questions about 
Hong Kong's autonomy.\100\ Official fears that socio-economic impacts 
of China's accession to the WTO may bolster falun gong's popularity 
reflect further the government's appreciation of the international 
dimensions of the movement.\101\
---------------------------------------------------------------------------
    \95\ See e.g. installments in ``Shenru the pi `Falun Gong' xiejiao 
benzhi'' (``Basics of deepening the exposure and criticism of `falun 
gong' heresy''), Fazhi ribao (Legal System Daily), 3-7 February 2001.
    \96\ ``Experts say PRC's leadership `increasingly alarmed' by falun 
gong's strength,'' Agence France Presse HK, 22 January 2001, in FBIS-
CHI-2001-0122, 23 January 2001.
    \97\ Human Rights Watch, ``Dangerous meditation: China's campaign 
against falun gong'' (2002). Also see ``Wei Jianxing, Luo Gan Address 
Conference on Public Security, Judicial Work,'' Beijing Xinhua Domestic 
Service, 2 December 2000, in FBIS-CHI-2000-1202, 13 December 2000.
    \98\ See generally, Sarah Lubman, ``A Chinese battle on US soil: 
persecuted group's campaign catches politicians in the middle,'' San 
Jose Mercury News, 23 December 2001, p. 1A.
    \99\ John Pomfret, ``China holds 40 foreign falun gong protesters: 
use of Westerners marks new tactic,'' Washington Post, 15 February 
2002, p. A26.
    \100\ See generally, ``'Roundup': falun gong urged to abide by Hong 
Kong law,'' Hong Kong China News Service (Hong Kong Zhongguo tongxun 
she), 11 December 1999, in FBIS-CHI-1999-1211, 11 December 2001, and 
``Editorial views PRC comments against falun gong activities in Hong 
Kong,'' Hong Kong Mail, 31 January 2001, in FBIS-CHI-20010131, 31 
January 2001.
    \101\ See ``China's Luo Gan outlines tasks of political legal work 
in 2002,'' Beijing Xinhua Domestic Service, 4 December 2001, in FBIS-
CHI-2001-1204, 7 December 2001.
---------------------------------------------------------------------------
 ensuring political loyalty: compliance and the challenge of legitimacy
    The regulation of religion in China depends on compliance, not only 
to support enforcement but also as a basis for building political 
legitimacy. As changing socio-economic conditions limit the state's 
capacity to use force or political favouritism, compliance will depend 
increasingly on voluntary acceptance of regime norms legitimated 
through popular acceptance of the tradeoff of autonomy for loyalty. 
Yet, to the extent that its enforcement of policies on control of 
religion appears to contradict the accepted balance between autonomy 
and loyalty, the regime may undermine its own legitimacy more broadly.
    Changing conditions of compliance. Accelerated efforts to build a 
market economy in China during the late 1990s have challenged the 
regime's ability to maintain a balance between socio-economic autonomy 
and political loyalty. While Party affiliation remains important, the 
day-to-day livelihood of members of society has come to depend less on 
political patronage and more on job skills, entrepreneurialism and 
material accumulation.\102\ Although it has meted out harsh repression 
against public dissent, the Chinese state seems to mirror the classic 
``strong society/weak state'' paradigm,\103\ as it appears unable to 
prevent increased public cynicism and quiet resistance.\104\ This 
dilemma extends to its efforts to control ever-expanding religious 
activity, which not only reveals the resilience of religious belief but 
also suggests limits to the state's capacity to control religious 
behaviour.
---------------------------------------------------------------------------
    \102\ Merle Goldman and Roderick MacFarquhar, ``Dynamic economy, 
declining party-state,'' in Goldman and MacFarquhar (eds.), The Paradox 
of China's Post-Mao Reforms (Cambridge, MA: Harvard University Press, 
1999) pp. 3-29.
    \103\ Joel Migdal, Strong Societies and Weak States (Princeton: 
Princeton University Press, 1988).
    \104\ Elizabeth J. Perry and Mark Selden, ``Introduction: reform 
and resistance in contemporary China,'' in Perry and Selden (eds.), 
Chinese Society: Change, Conflict and Resistance (London: Routledge, 
2000), pp. 1-19.
---------------------------------------------------------------------------
    Made possible by the regime's grant of broader social autonomy, the 
increase in religious activity in China reveals patterns of compliance 
and resistance regarding norms of political loyalty. Patterns of 
compliance are evident in participation in religions that are formally 
registered with the Religious Affairs Bureau, such as strong public 
attendance at patriotic Christian churches,\105\ Buddhist and Daoist 
temples,\106\ and mosques.\107\ Similarly, participation in family 
centred folk religion expresses norms of compliance to the extent that 
open conflict with political authority is avoided. These models of 
compliance-based religious activities appear as a public norm for 
religious behaviour in China that is tolerated by the regime.
---------------------------------------------------------------------------
    \105\ ``Chinese Christians flock to official, underground 
churches,'' Agence France Presse HK, 25 December 2000, in FBIS-CHI-
2000-1225, 27 December 2000.
    \106\ ``PRC refutes charges on religious affairs,'' Beijing Xinhua 
English Service, 8 December 1999, in FBIS-CHI-1999-1208, 8 December 
1999. Also see China Daily, 18 December 2002, p. 1.
    \107\ China Daily, 12 December 2002, p. 1.
---------------------------------------------------------------------------
    Patterns of resistance in religious behaviour are also evident, 
however. The 
audacity of falun gong practitioners in public displays of resistance 
has gained significant attention within China and internationally.\108\ 
In Tibet, government crackdowns have politicized religious activities 
that are viewed locally as matters of 
national identity.\109\ By its efforts to control or even suppress 
religious activities in Tibet, the government has set in motion forces 
of resistance that bring together the interrelated but quite distinct 
dynamics of national identity and nationalism. Resistance has included 
open demonstrations against Chinese, combined with underground efforts 
to promote independent education in Tibetan Buddhism and loyalty to the 
Dalai Lama, all of which present serious challenges to the Chinese 
government. In Xinjiang, Islam presents a fundamental challenge, due to 
the combination of religious resistance to political authority and 
ethnic resistance to Han-dominated imperialism.\110\ While separatists 
have been emboldened by the Soviet defeat in Afghanistan and though 
Islamic revivalism is certainly in evidence,\111\ most unrest in 
Xinjiang appears to be the result of Uyghur ethnic hostility to Chinese 
policies of Han migration and subordination of local language and 
culture, rather than the product of Islam per se.\112\ And though 
tensions reportedly exist in Xinjiang between Sunni and Shi'ite 
(particularly Wahhabist) Muslims, these have not yet diminished 
resistance to Han dominance.
---------------------------------------------------------------------------
    \108\ For discussion, see Richard Madsen, ``Understanding falun 
gong,'' Current History, September 2000, pp. 243117; Elizabeth J. 
Perry, ``Challenging the mandate of heaven: popular protest in modern 
China,'' Critical Asian Studies, Vol. 33, No. 2 (2001), pp. 163-180.
    \109\ See generally, Elliot Sperling, ``Statement before US Senate 
Committee on Foreign Relations Subcommittee on East Asian and Pacific 
Affairs'' (13 June 2000), Human Rights Watch.
    \110\ See generally, Dru Gladney, ``Internal colonialism and 
China's Uyghur Muslim minority,'' Regional Issues (Leiden University 
Newsletter, 25 November 1988).
    \111\ See Raphael Israeli, ``A new wave of Muslim revivalism in 
mainland China,'' Issues & Studies, Vol. 33, No. 3 (March 1997), pp. 
21-41.
    \112\ See generally, Nicolas Becquelin, ``Xinjiang in the 
nineties,'' The China Journal, No. 44 (July 2000), pp. 65-91, Felix 
Chang, ``China's Central Asian power and problems: fresh perspectives 
on East Asia's future,'' Orbis, Vol. 41, No. 3 (Summer 1997), pp. 401-
426; Sean L. Yom, ``Uighur Muslims in Xinjiang,'' Self Determination 
Conflict Profile (2001); Colin Mackerras, ``The minorities: 
achievements and problems in the economy, national integration and 
foreign relations,'' China Review 1998, pp. 281-311
---------------------------------------------------------------------------
    Unofficial Christian churches also reflect a dynamic of resistance. 
While Christianity offers perhaps a more salient example of foreign 
influence, it has become increasingly sinicized through the inclusion 
of features of folk religion and traditional cultural forms, thus 
making its expression of resistance all the more threatening to the 
regime.\113\ The underground Catholic Church has been portrayed as 
particularly threatening to CCP policies of political control, although 
the Protestant house church movement is potentially a greater threat. 
The house churches are described by local and foreign observers as both 
larger and more deeply entrenched in Chinese society than the patriotic 
Christian churches associated with norms of compliance.\114\ Moreover, 
the informal and decentralized processes for naming Church leaders 
defies the government's formalistic approach to control through 
registration and bureaucratic supervision. Periodic efforts to raid 
house church services and to imprison house church leaders have 
received little public attention, but are seen by many as an 
unwarranted intrusion in social affairs. Yet the house church movement 
continues to swell, such that the numbers of adherents is viewed as at 
least double the population in the patriotic registered Christian 
churches.
---------------------------------------------------------------------------
    \113\ Stephan Feuchtwang, ``Religion as resistance,'' in Perry and 
Selden, Chinese Society: Change, Conflict and Resistance, pp. 161-177 
at p. 167.
    \114\ See e.g. ``China shuts down, blows up churches, temples in 
religious crackdown,'' Agence France Presse HK, 12 December 2000, in 
FBIS-CHI-2000-1212, 14 December 2000; ``Chinese Christians flock to 
official, underground churches,'' Agence France Presse HK, 25 December 
2000, in FBIS-CHI-2000-1225, 27 December 2000.
---------------------------------------------------------------------------
    The challenges to legitimacy. Changing conditions of compliance 
with government controls on religion pose problems for the regime's 
effort to build legitimacy for its regulatory efforts and for its 
political position generally. In light of the increasing numbers of 
religious believers in China, building legitimacy for government 
policies on religion will require compliance from. believers 
themselves. Thus, the regime differentiates between religious 
practitioners engaged in compliance and resistance, through legal and 
regulatory provisions distinguishing ``normal'' from heretical 
religious practices. The regime's underlying imperative of stifling 
heterodoxy is evident in the fact that its targets tend to be sects 
within the recognized religions whose activities challenge Party and 
state authority.\115\ At the December 2001 national work conference on 
religion, for example, senior leaders distinguished between ``normal'' 
religious activities and heretical conduct associated with sects.\116\
---------------------------------------------------------------------------
    \115\ See e.g., Luo Shuze, ``Some hot issues in our work on 
religion;'' ``Regulations from the Shanghai Religious Affairs Bureau,'' 
Articles 3-5.
    \116\ ``Jiang Zemin, Zhu Rongji address religious work 
conference.''
---------------------------------------------------------------------------
    These efforts are consistent with the regime's historical practices 
of identifying and enforcing norms of social conformity by denigrating 
and attacking nonconformists. Regulation of religion in China is used 
not only to control religious practices but also to express the 
boundaries of tolerance and repression so as to isolate resistance and 
privilege communities loyal to the party-state. Thus, the government 
promises tolerance for the compliant and repression for the resistant.
    Yet the effectiveness of these policies depends on a normative 
consensus around both the content of policy and law and the processes 
of enforcement.\117\ As suggested by Lyman Miller in the context of the 
scientific community, when members of Chinese society owe their loyalty 
to norms more powerful than those articulated by the Chinese 
government, regime legitimacy becomes a critical problem.\118\ Just as 
scientists, owe a higher loyalty to the norms of science, so too do 
religious believers owe a higher loyalty to their own religious norms 
that may force a choice between loyalty to the regime and faithfulness 
to belief. To the extent that policies on regulation of religion 
require a degree of subservience that is inconsistent with religious 
conviction, compliance will be elusive. And if enforcement of these 
policies can be achieved only through repression, the distinction 
between compliance and resistance may fade as religious believers find 
compliance unworkable and are driven even further underground.
---------------------------------------------------------------------------
    \117\ See generally, Felix Scharpf, ``Interdependence and 
democratic legitimation,'' in Susan J. Pharr and Robert D. Putnam 
(eds.), Disaffected Democracies: What's Troubling the Trilateral 
Countries (Princeton: Princeton University Press, 2000).
    \118\ Lyman Miller, Science and Dissent in Post-Mao China (Seattle: 
University of Washington Press, 1996).
---------------------------------------------------------------------------
    A more fundamental dimension of legitimation concerns members of 
society at large, who view the religious question as emblematic of 
other elements of social policy where the grant of socio-economic 
autonomy is a key condition for continued political subservience. The 
regime's handling of religion serves notice to the general populace 
about the contours of the tradeoff of autonomy and loyalty, and thus 
has implications for regime legitimacy more broadly. In this process 
the regime faces challenges of history, socio-economic change and 
bureaucracy. The challenge of history limits perceptions of and 
responses to current conditions, particularly concerning the 
relationship between religion and social stability.\119\ The historical 
record suggests that dynastic weakness and instability tended to arise 
not from tolerance of pluralism and diversity, but rather from the 
government's inability to respond to socio-economic change. In the late 
Qing, for example, the court failed to respond effectively to the 
emergence of the private sector as a locus of power, and was thereby 
unable to protect its own political authority.\120\ National unity 
during earlier dynasties was supported by transportation and logistics 
networks, currency policies, and market systems, rather than 
suppression of intellectual dissent.\121\ Nevertheless, the historical 
myth that diversity in social relations and religious belief undermines 
the strength of the regime continues to inform Communist Party policy.
---------------------------------------------------------------------------
    \119\ W.J.F. Jenner, The Tyranny of History: The Roots of China's 
Crisis (London: Penguin, 1992), pp. 193-201.
    \120\ See Susan Mann Jones and Philip A. Kuhn, ``Dynastic decline 
and the roots of rebellion,'' in John K. Fairbank (ed.), The Cambridge 
History of China: Volume 10--Late Ch'ing 1800-1911 Part I (Cambridge: 
Cambridge University Press, 1978), pp. 107-162.
    \121\ See generally, Mark Elvin, The Pattern of the Chinese Past: A 
Social and Economic Interpretation (Stanford: Stanford University 
Press, 1973).
---------------------------------------------------------------------------
    The link between religion and legitimacy is also evident in regime 
responses to socio-economic change, particularly economic dislocation 
brought on by the market reforms and the impact of globalization.\122\ 
While the many informal networks and social safety nets already 
available in China will help cushion the shock, religion provides an 
important source of comfort for the dispossessed. This both reflects 
and contributes to the declining power of traditional ideological bases 
for regime legitimacy. As regime goals change from social well-being to 
market facilitation, regime legitimacy will depend increasingly on the 
delivery of public goods and services.\123\ With economic reform, 
however, the Chinese state has become a vehicle for socio-economic 
inequality--facilitating economic opportunity for a few privileged 
individuals and groups, while deploying the mechanisms of repression to 
keep the rest of society in check.\124\ In the face of its inability to 
protect public welfare, official repression of those outlets in 
religion to which increasing numbers of people resort will be likely to 
contribute to the regime's legitimacy deficit.
---------------------------------------------------------------------------
    \122\ See e.g. Dorothy Solinger, ``The cost of China's entry into 
WTO,'' Asian Wall Street Journal, 4 January 2002.
    \123\ See generally, Nikolas Rose, ``Governing liberty,'' in 
Richard V. Ericson and Nico Stehr (eds.), Governing Modern Societies 
(Toronto: University of Toronto Press, 2000), pp. 141-175.
    \124\ See generally, Michael A. Santoro, Profits and Principles: 
Global Capitalism and Human Rights in China (Ithaca: Cornell University 
Press, 2000; Michael Dutton, Streetlife China (Cambridge: Cambridge 
University Press, 1998). The remarkable effort by Peking University's 
China Centre for Economic Research to support research and policymaking 
in this area reflects recognition of the depth of the problem of 
economic inequality and the as-yet insufficient resources for resolving 
it.
---------------------------------------------------------------------------
    Finally, the bureaucratic culture of the Chinese regulatory regime 
also poses problems for legitimacy. In the context of gradual social 
liberalization, which the regime has fostered, bureaucratic control of 
religion is seen by many as intruding on intensely personal 
matters.\125\ The potential for popular alienation is compounded as the 
policy and regulatory frameworks by which the party-state defines and 
implements the parameters for accepted religious conduct remain 
relatively impervious to public scrutiny. The resilience of 
bureaucratic behaviour generally continues to entrench the habitual 
practices of state control mechanisms associated with Party policy on 
religion, undermining further their effectiveness in responding to 
changing social and spiritual needs. These needs include both religion 
as solace for socio-economic dislocation, and generalized expectations 
about social autonomy. So far, we search in vain for a parallel in 
China to what is described as the ``European exception'' where the 
church and state were driven by the challenge of heresy to transcend 
their institutional and ideological limitations and respond effectively 
to changing socio-economic conditions.\126\ In the wake of bureaucratic 
stagnation in China, response to change remains problematic and 
legitimacy continues to decline.
---------------------------------------------------------------------------
    \125\ Richard Madsen, China's Catholics: Tragedy and Hope in an 
Emerging Civil Society (Berkeley: University of California Press, 
1998), p. 108.
    \126\ See Mihaly Vajda, ``East-Central European perspectives,'' in 
John Keane (ed.), Civil Society and the State (London: Verso Press, 
1988), pp. 333-360 at p. 346.
---------------------------------------------------------------------------

                               CONCLUSION
    The Chinese government's policies and practices on religion offer a 
useful example of the dilemmas of regulation of social relations 
generally. Through its policies 
supporting graduate liberalization of socioeconomic relations, the 
party-state has created rising expectations about popular autonomy. 
While the regime faces the imperative of repressing aspects of socio-
economic change that threaten its political authority, it must still 
present a general image of tolerance for increased autonomy among the 
populace at large. Maintaining this balance is particularly critical in 
the area of religion, which is both a highly personal and internalized 
system of norms for belief and behaviour, and a response to regime 
failures to provide well-being for its citizens. Regulation of religion 
reflects Party policies granting limited autonomy for accepted 
practices while attempting to repress activities that challenge 
political orthodoxy. Legitimacy remains a key ingredient, not only as a 
basis for effective government regulation of religion but also as a 
product of such regulation to the extent that it can acquire popular 
support for official preferences on the balance between autonomy and 
loyalty. The regime's ability to sustain legitimacy both for and 
through its regulation of religion remains uncertain however, as the 
utility and 
effectiveness of control remain contested.
                                 ______
                                 

                      Prepared Statement of Bob Fu

                           NOVEMBER 18, 2004
    Thank you, Mr. Chairman, Co-chairman and honorable Commission 
members, for giving me the privilege and the honor of being here today. 
My expertise has been the Protestant house churches of China. I would 
like to thank President Bush for highlighting this important issue of 
religious freedom manifested both in his public remarks and private 
conversations. I applaud the effort from some Members of Congress 
especially Congressman Wolf, whose request made today's hearing 
possible. All these efforts have produced fruit in one way or another. 
At least after President Bush took office in 2001, all the diplomats 
from China's Ministry of Foreign Affairs were required to study 
religion, especially Christianity. So you would not be surprised to 
hear a few quotes from the Holy Bible from the mouths of Chinese 
Communist Party officials when you meet with them.
    Mr. Chairman, Co-Chairman and members of this commission, the 
condition of religious persecution in China overall has been 
deteriorating particularly since the year 2002. Though it's difficult 
to give an exact number, without including Falun Gong practitioners, 
20,000 plus members of underground religious groups have been arrested, 
or detained, kidnapped or under house arrest. Hundreds of churches and 
homes have been destroyed. Many of the family members of those 
arrested, detained, for example Zhang Rongliang, have been put on 
wanted lists and have had to flee their homes. Among those persecuted 
Protestant house church groups, one known as the South China Church, 
had over 6000 members arrested, detained, fined, 63 were formally 
sentenced from one year to life in prison. Many of the arrested 
believers, especially women, were tortured, raped, or sexually abused 
during their interrogations. One would expect a better start once the 
new leadership took office in 2003. What has happened doesn't match 
this expectation. Just within the first 9 months of this year we have 
recorded over 400 arrests of house church pastors. Just within the 
month of September, 13 pastors were formally sent to re-education 
through labor in Henan Province alone. One of these pastors, Pastor 
Ping Xinsheng, has lost consciousness three times since his arrest on 
August 6 because of repeated beatings by his interrogators. On June 18, 
a Christian woman, Mrs. Jiang Zongxiu from Chongqing City was beaten to 
death just simply because she was found distributing Bibles and 
Christian tracts in the market place. On September 11, Pastor Cai 
Zhuohua, a Beijing house church leader ministering to six churches, was 
kidnapped in Beijing for his involvement in printing Bibles and a house 
church magazine called ``Ai Yan.'' Now both pastor Cai and his wife, 
Mrs. Xiao Yunfei could face and extremely harsh sentence.
    Mr. Chairman, I know some would argue that what I have mentioned 
may be just local events in particular areas disproportionately. I wish 
I could believe that. In reality, despite so-called ``paradigm shift'' 
rhetoric by the Chinese government and ``wishful thinking'' by foreign 
companies with business interest in China, the evidence proves the 
contrary. Let me present to you just two pieces of evidence out of 
numerous documents China Aid has obtained through disheartened Chinese 
officials.
    Though we haven't uncovered the full text, through at least two 
local government documents, we now know that sometime in the beginning 
of 2002, the CCP Central Committee issued a secret document coded 
``Zhongfu [2002] No. 3'' and titled ``Decision on Re-enforcing the work 
on Religion by the Central Committee of CCP.'' Again through the 
wording of local government documents deemed to implement this secret 
document, it calls for government officials at every level to launch an 
all out war against any unregistered religious group. I want to note 
that it seems there as been a concerted campaign to target particularly 
underground house churches and Catholic churches. In many areas, such 
as Zhejiang, Henan, Hebei, and Shandong we have obtained official 
documents showing that special campaigns were launched aiming 
specifically at the previously mentioned Christian groups. In Chinese 
it is called ``Zhuanxiang Dong Zheng'' which means ``special 
struggle.'' Harsh tactics against Falun Gong practitioners were adopted 
such as coerced political study at concentration camps, mental 
transformation and re-education through hard labor.
    The other document we released yesterday is a secret document we 
obtained from a currently high ranking Communist Party official who is 
very unhappy with the repressive party policy toward religious groups 
in China. It is a document from the highest level of Chinese government 
that we have ever been able to obtain. This document, entitled ``Notice 
on Further Strengthening Marxist Atheism Research, Propaganda and 
Education'' dated May 27, 2004, is a notice named ``Zhong Xuan Fa 
[2004] No.13'' issued jointly by the Department of Propaganda of the 
Central Committee of the Communist Party of China (CPC), the Department 
of Propaganda of the Central Committee of the CPC, the Office of the 
Central Steering Committee on Spiritual Civilization Construction, the 
Communist Party School of the Central Committee of the CPC and Ministry 
of Education as well as China Academy of 
Social Science and it is classified as a ``secret document.'' It is 
addressed to the 
Department of Personnel, the Department of Propaganda, the Office of 
Spiritual Civilization Construction, and the Communist Party School of 
the Communist Party Committee, and the Department of Education of all 
provinces, autonomous regions and metropolises, the Communist Party 
Committee of all departments, ministries and commissions of the 
Communist Party and the state organs, and the General Department of 
Political Affairs of the People's Liberation Army. Copies of the 
document were to be submitted to members and alternate members of the 
Politburo of the Central Committee, Secretary of the Secretariat of the 
Central Committee, Premier, Vice Premier and State Counselors of the 
State Council. It was copied to the General Office of the Central 
Committee, the General Office of the State Council and distributed by 
the Secretariat of the General Office of the Department of Propaganda 
of the Central Committee on May 28, 2004. This secret document was 
distributed with only 750 copies in total.

          1. This secret notice is issued in order to ``further boost 
        Marxist atheism research, propaganda, and education.'' It 
        reflects a new assessment from the top Party leaders in light 
        of ``the new situation to target the cultic organization of 
        `Falun Gong' and various pseudo-sciences and superstitions, and 
        the new trend toward Western `hostile forces' attempting to 
        `westernize' and `disintegrate' China in the name of 
        religion.'' It calls for the government to keep a tight hold on 
        all national education, media communications, research on 
        social sciences, spiritual civilization construction activities 
        of the people, the trainings conducted by the Communist Party 
        School and administrative institutions at different levels, and 
        others. Particular attention shall be centered on the Party 
        cadres and juveniles so that ``. . . fatuity and superstition 
        are opposed, and evil teachings and heterodox are boycotted.'' 
        It specifically demands the Communist Party School and 
        administrative institutions in western and border regions with 
        multi ethnic groups and religions to ``increase the proportion 
        of Marxist atheism propaganda and education targeting local 
        leaders.'' It urges Marxist atheism propaganda and education to 
        be integrated into all sectors of society throughout the 
        country in all levels. All efficient measures shall be taken to 
        ``ban all uncivilized conduct in spreading superstitions'' in 
        order to cause `peoples' minds to be educated, spirits 
        enriched, their state of thought improved.''
          2. It paid special attention to the role of mass media. It 
        calls to all the broadcasting, TV, newspapers, and magazines 
        and asks them to develop their respective advantages to 
        earnestly publicize Marxist atheism. Particularly, regarding 
        the Internet, it instructs the key websites to strengthen their 
        ``management over online comments and make the Internet a new 
        tool to conduct Marxist atheism propaganda and education.'' It 
        strongly asks all the media and government officials to 
        ``firmly ban all illegal publications which disseminate 
        superstitions and evil teachings.'' This policy seems to be a 
        direct reference regarding the recent campaign on closing 
        websites, arresting individuals and banning publications with 
        dissident voices.
          3. Regarding the academic exchange of conducting research on 
        religion with foreigners, this notice calls for ``the relevant 
        regulations of the state to be strictly followed.'' It calls 
        ``the procedure on approving and recording shall be made 
        sound'' which means more scrutiny will be posed for foreign 
        exchange program on religious studies.
          4. Though the document repeated its old policy to ``fully 
        implement the party's policy on freedom of religious belief, 
        respect people's freedom to believe religion or not to believe 
        religion'' yet it calls the atheistic officials to ``make 
        distinction between religion and superstition'' which are 
        inevitably going to cause arbitrary classification on religious 
        groups.

    In addition to continuing to raise the issue of religious 
persecution in high level bilateral talks I have four specific 
proposals on how the US can help achieve the goals of religious freedom 
in China.

          1. The U.S. Government can compile a list of religious 
        persecutors in China and make it public record includes such 
        information as the annual report by the IRF and DRL Office. 
        Also the possibility should be explored of holding such 
        perpetrators accountable in legal venues upon entering the 
        United States. This will encourage more humane treatment by 
        officials toward those who are 
        arrested.
          2. With the 2008 Beijing Olympics approaching, this 
        government should encourage the U.S. business community to 
        actively link their financial sponsorship and investments to 
        China with the issue of religious freedom. U.S. firms should be 
        discouraged from investing in those provinces and cities with 
        severe religious persecution. The Members of Congress whose 
        districts have business interests in China can raise the same 
        concern to their Chinese counterpart officials.
          3. The administration and Congress should urge the EU not to 
        lift its arms embargo to China unless substantial progresses 
        are made on human rights especially on religious freedom issue.
          4. The administration and Congress should actively demand the 
        Chinese government to abide its international obligations to 
        protect and provide basic necessities for refugees in China 
        from North Korea who fled for freedom including religious 
        freedom.

    Above all, I think millions of caring, loving ordinary Americans 
can make a huge difference through their constant prayers, letter 
campaigns, and numerous visits, as well as, embracing Chinese religious 
refugees when they enter into US for freedom of worship.
    In conclusion, the overall situation of religious freedom in China 
has been worsening since 2002 and nationwide campaigns against 
unregistered religious groups, especially underground Protestant and 
Catholic groups are continuing as we speak. Thank you all once again.

                      Appendix I: Secret Document

ISSUED BY THE DEPARTMENT OF PROPAGANDA OF THE CENTRAL COMMITTEE OF THE 
                  CPC: NO. (2004) 13--ENGLSIH VERSION
Secret
            The Department of Personnel of the Central Committee of the 
                    CPC; The Department of Propaganda of the Central 
                    Committee of the CPC; The Office of the Central 
                    Steering Committee on Spiritual Civilization 
                    Construction; The Communist Party School of the 
                    Central Committee of the CPC; Ministry of 
                    Education; and China Academy of Social Science 
                    Document

 Notice on Further Strengthening Marxist Atheism Research, Propaganda 
                             and Education

    To the Department of Personnel, the Department of Propaganda, the 
Office of Spiritual Civilization Construction, and the Communist Party 
School of the 
Communist Party Committee, and the Department of Education of all 
provinces, autonomous regions and metropolises, the Communist Party 
Committee of all departments, ministries and commissions of the 
Communist Party and the state organs, and the General Department of 
Political Affairs of the People's Liberation Army:
    The following notice is hereby issued in order to earnestly 
implement ``the Opinions of the Central Committee of the Communist 
Party on Further Prospering and Developing Philosophical Social 
Science,'' and further boost Marxist atheism research, propaganda, and 
education.
          1. Fully understand the significance of strengthening Marxist 
        atheism research, propaganda and education. Marxist atheism is 
        an important integral part of the world view of dialectical 
        materialism and historical materialism. Our party has long held 
        in high regard Marxist atheism research, propaganda and 
        education, created and accumulated many valuable experiences in 
        practice, and achieved remarkable social effects. Our Nation 
        has entered into a new development stage, during which a more 
        prosperous society (Xiaokang) [1] is under construction, and 
        the socialist modernization drive is expedited. Facing the new 
        task of reform, development and stability, the new demand of 
        the people on spiritual and cultural life, the new situation on 
        targeting the cultic organization of ``Falun gong'' and various 
        pseudo-science and superstition, and the new trend toward 
        Western hostile forces' attempt to ``westernize'' and 
        ``disintegrating'' China in the name of religion, we need to 
        further strengthen Marxist atheism research, propaganda and 
        education, which is of great significance to consolidating the 
        directive status of Marxism in ideological field, maintaining 
        the advancement and purity of our party, improving the 
        spiritual, moral, scientific and cultural makings of the whole 
        nation, laying a solid foundation for the concerted endeavors 
        of the whole party and the whole people, and promoting the 
        harmonious development of a socialist materialist civilization, 
        political civilization and spiritual civilization.
          2. Instructions on how to conduct Marxist atheism research, 
        propaganda and education. Marxist atheism research, propaganda 
        and education shall be strengthened under the directive of 
        Marxism, Leninism, Mao Zedong Thought, Deng Xiaoping Theory, 
        and the important ``Three Representing'' thought,[2] aiming at 
        consolidating the directive status of Marxism in ideological 
        field, centering on economic construction, serving the overall 
        working situation of the party and state, promoting the 
        comprehensive progress of the society and the complete 
        development of each individual, liberating thought, being 
        practical and realistic, following time and tide, paying 
        attention to people's needs, coming close to reality, life and 
        people, making relevant work well on target and efficient. 
        Efforts shall be centered on positive propaganda and education, 
        using the facts, speaking the truth, being patient and 
        meticulous, and imperceptibly influencing the people. Research, 
        propaganda, and education shall be coordinated, enriching the 
        contents of propaganda and education with research results, and 
        deepening research with propaganda and education. Hold tightly 
        to national education, media communications, research on social 
        sciences, spiritual civilization construction activities of the 
        people, the training conducted by the Communist Party School 
        and administrative institutions at different levels. Popular 
        theoretical and practical issues shall be dealt with in time. 
        Attention shall be centered on the party cadres and juveniles. 
        And relevant work shall be done persistently and incessantly, 
        with an effort to create healthy social values, and good social 
        environment, under which science and civilization are 
        advocated, fatuity and superstition are opposed, and evil 
        teachings and heterodox are boycotted.
          3. Major tasks of Marxist atheism research, propaganda and 
        education. Marxist atheism research, propaganda and education 
        shall be centered on popularizing the fundamental materialist 
        views and basic knowledge of natural science, aiming at the 
        elimination of fatuity and superstition, surrounding the 
        subject of publicizing scientific thought, expanding scientific 
        spirit, popularizing scientific knowledge, and disseminating 
        the scientific method. We shall strengthen the research, 
        propaganda and education of the basic principles and knowledge 
        of Marxist materialism, helping people recognize the general 
        process and rule of the development of human society, so that 
        they may voluntarily and firmly stick to the historical view of 
        Marxist materialism. Aiming at the phenomenon of fatuity and 
        superstition, which exists among some people, we shall 
        strengthen the research, propaganda and education of natural 
        science, particularly the basic knowledge about life, helping 
        people understand the universe, the origin of life, the rule on 
        human evolution, and correctly deal with various natural 
        phenomena, natural disasters, birth, aging, disease and death. 
        We shall also strengthen the research, propaganda and education 
        of a healthy and civilized life style, helping people acquire 
        the habit of good behavior, and scientifically and reasonably 
        conduct physical exercises, health care, living, sightseeing, 
        recreation and entertainment. And through unswerving efforts, 
        we shall lead people in firmly setting up the correct world 
        view, philosophy of life, and values, and scientific view of 
        nature, universe and life, and strengthen their ability to 
        distinguish materialism from spiritualism, science from 
        superstition, and civilization from fatuity.
          4. Integrating Marxist atheism propaganda and education into 
        national education, teaching and training of the Communist 
        Party School and administrative institutions. Various levels 
        and types of school are important places, where Marxist atheism 
        propaganda and education may be conducted. Aiming at 
        cultivating ``four having'' [3] new people, and sticking to the 
        principle of separation of national education and religion, we 
        shall integrate Marxist atheism propaganda and education into 
        the syllabi of the course of political theory, the course of 
        morals, and other related courses of specialty, conducting 
        propaganda and education pointedly according to the characters 
        of students of different ages, thus ensuring the actualization 
        of the teaching contents and requirements. The Communist Party 
        School and administrative institutes at all levels, as the 
        major places where the party and government leaders, and the 
        civil servants receive their training, shall integrate Marxist 
        atheism propaganda and education into their teaching plans, 
        conducting propaganda and education in various ways. The 
        Communist Party School and administrative institutes in western 
        and border regions shall, in considering the real situation of 
        multi ethnic groups and religions, properly increase the 
        proportion of Marxist atheism propaganda and education 
        targeting local leaders.
          5. Integrating Marxist atheism propaganda and education into 
        people's spiritual civilization construction activities. 
        People's spiritual civilization construction activities are the 
        great products of the people in changing their customs and 
        reforming the society, and are of great significance in 
        carrying Marxist atheism propaganda and education. Marxist 
        atheism propaganda and education shall be integrated into such 
        activities as constructing civilized cities, villages, and 
        vocations, which are under way throughout the country, 
        introducing 
        culture, science, technology, and health to the villagers, 
        introducing science, education, culture, sports, law and health 
        to communities, developing civilized tourist sites, building 
        safe and civilized campuses, and so on, and be weaved into 
        different phases of planning, designing, and implementing. And 
        efficient measures shall be taken to ban all uncivilized 
        conduct in spreading superstitions. Through closely following 
        the real production and living situation of cadres and people, 
        we shall combine Marxist atheism propaganda and education with 
        the change of old habits into new ones, with conducting 
        peoples' cultural and sports activities, and satisfying 
        peoples' spiritual and cultural demands, with popularizing 
        knowledge on laws, rules and regulations, and improving 
        peoples' legal awareness, and with popularizing scientific 
        knowledge, and improving peoples' scientific thinking, thus 
        causing peoples' minds to be educated, spirits enriched, their 
        state of thought improved.
          6. Marxist atheism propaganda and education as daily work of 
        the media. The media, which directly reaches people, has speedy 
        communication, wide coverage, and strong influence, is an 
        important channel through which Marxist atheism propaganda and 
        education can be conducted. Broadcasting, TV, newspapers, and 
        magazines shall develop their respective advantages, earnestly 
        manage science and technology programs, and pages and subjects 
        on theory, in accordance with the different needs of their 
        audience, and publicize Marxist atheism and scientific 
        knowledge. Internet is speedy, convenient, reciprocal and open. 
        We shall enrich the pages and sections related to morals of 
        some key websites, strengthen the instruction and management 
        over online comments, and make the Internet a new tool to 
        conduct Marxist atheism propaganda and education. To publicize 
        Marxist atheism, we shall positively use films, TV programs, 
        books, electronic publications, and other things to people's 
        taste, and firmly ban all illegal publications, which 
        disseminate superstitions and evil teachings.
          7. Integrating Marxist atheism research, as a key subject, 
        into the developing a plan of social science. Thorough research 
        on Marxist atheism is an important task in prospering 
        philosophical social science. National Fund on Social Science 
        and all research programs on philosophical social science shall 
        involve atheism research in such directive documents as subject 
        instructions issued by corresponding departments, and provide 
        required funding through public bidding and special trust. In 
        light of the overall situation of the construction of a more 
        prosperous society, reform, development and stability, the 
        current international and domestic situation, the serious harm 
        caused by superstition, pseudo-science and cult, and the actual 
        mindset of cadres and people, we shall conduct purposeful 
        research, and try to achieve certain results, which are deeply 
        theoretical, academically valuable, and socially influential. 
        We shall strengthen the construction of Marxist atheism 
        department and the training of talented people in this field, 
        by well run atheism research institutions and related 
        departments in colleges and universities, establish and train 
        an atheism research team, which is armed with Marxism. The 
        relevant regulations of the state shall be strictly followed in 
        conducting foreign academic exchange and joint research on 
        religion. The procedure on approving and recording shall be 
        made sound.
          8. Firmly strengthening the leadership over Marxist atheism 
        research, propaganda and education. To strengthen Marxist 
        atheism research, propaganda and education is an important, 
        long-term and pressing task. The party committees at all levels 
        shall integrate it, as an important content in developing 
        advanced socialist culture, into scientific research plan and 
        overall arrangements on propaganda, put it at the top of the 
        agenda, make concrete plans, adopt actual measures, and bring 
        it into full implementation. We shall fully implement the 
        party's policy on freedom of religious belief, respect people's 
        freedom to believe religion or not to believe religion, and 
        make distinction between religion and superstition. The party 
        members, especially leading party cadre, shall strengthen their 
        party culture continuously, hold firmly to materialist world 
        view, and voluntarily set an example in studying and 
        disseminating Marxist atheism. All 
        relevant departments of the party and government, all relevant 
        teaching and scientific research institutions, and all relevant 
        social sectors shall, under the leadership of the party 
        committees, fulfill their duties, closely coordinate with each 
        other, positively explore the characters and rules on 
        conducting Marxist atheism research, propaganda and education 
        under new situations, continuously improve and renovate working 
        contents, forms, manners and instruments, and make our best 
        endeavor to improve the standard of Marxist atheism research, 
        propaganda and education.

Seals of the Department of Personnel of the Central Committee of the 
CPC, the Department of Propaganda of the Central Committee of the CPC, 
the Office of the Central Steering Committee on Spiritual Civilization 
Construction, the Communist Party School of the Central Committee of 
the CPC, the Ministry of Education of the People's Republic of China, 
China Academy of Social Science--May 27, 2004

    Key Words: Marxism, propaganda and education, notice Submit to: 
members and alternate members of the Politburo of the Central 
Committee, Secretary of the Secretariat of the Central Committee, 
Premier, Vice Premier and State Counselors of the State Council
    Copy to: the General Office of the Central Committee, the General 
Office of the State Council Distributed by the Secretariat of the 
General Office of the Department of Propaganda of the Central Committee 
on May 28, 2004. Total copies: 750.

    Appendix II: A Partial List of the Prisoners From Chinese House 
   Churches Compiled by China Aid Association, Inc. November 12, 2004

(I) The Martyred (5):

    1. Sister Jiang Zongxiu

          Age: 34; Arrested for distributing Bibles in the market 
        place. She was beaten to death June 18, 2004 at the Public 
        Security Bureau Office of Tongzi County, Guizhou Province. She 
        leaves behind a husband and 4 year old son.

    2. Pastor Gu Xianggao

          Age: 28; A teacher in a house church in Heilongjiang 
        Province, northeast China. He was beaten to death April 27, 
        2004, while in the custody of Harbin Public Security Bureau 
        (PSB), Heilongjiang Province.

    3. Sister Yu Zhongju

          Arrested: May 27, 2001, by Zhongxiang Public Security Bureau 
        (PSB), Hubei Province. She was beaten to death July 18, 2001. 
        She leaves behind a husband and a 9-year-old son Wang Yu.

    4. Sister Zhang Hongmei

          Age: 33; Arrested: Oct. 29, 2003 as an ``illegal 
        evangelist.'' She was beaten to death on Oct. 30, 2003 by 
        Pingdu City Public Security Bureau (PSB), Shandong Province.

    5. Brother Liu Haitao
          Age: 21; From Xiayi County, Henan Province Arrested: Sept. 4, 
        2000, while attending a house church pastoral training. He was 
        beaten to death on Oct. 16, 2000, Qingyang City Detention 
        Center, Henan Province.

(II) The Arrested (42):

    1. Mr. Zhang Yinan

          Chinese church Historian Arrested: Sept. 30, 2003, by Lushan 
        County Public Security Bureau (PSB), Henan Province. He was 
        sentenced to 2 years re-education through labor on Nov. 3, 
        2003. He is now held at Peide Labor Camp, Pingdingshan City, 
        Henan Province.

    2. Pastor Gong Shengliang

          Age: 52; From: Zaoyang City, Hubei Province. Arrested: August 
        9, 2001; He was sentenced to life in prison on Oct. 10, 2002, 
        by the Intermediate Court of Jingmen City, Hubei Province. Now 
        he is held at Section Four, Te Yi Hao, Miaoshan Development 
        Zone, Jiangxia District, Wainan City, Hubei Province.

    3. Brother Chen Jingmao

          Age: 72; From: Yunyang County, Chongqing City. Arrested: July 
        9 2001. He was sentenced to 4 years in prison on Oct. 10, 2002 
        for sending his granddaughter to Sunday school training class 
        run by his house church group. He was recently beaten and 
        crippled for evangelizing in Sanxia Prison, Wanzhou, Chongqing 
        City.

    4. Mr. Zhang Shenqi

          Age: 24; Arrested on Nov. 26, 2003 as a house church Internet 
        writer The Intermediate Court of Hangzhou City, Zhejiang 
        Province, tried him on March 16, 2004, and sentenced him to 1 
        year in prison on August 6, 2004. He is now held at Detention 
        Center of Xiaoshan City, Hangzhou City, Zhejiang Province.

    5. Sister Li Ying

          Age: 39; From Zaoyang City, Hubei Province Arrested: May 26, 
        2001. She was the editor-in-chief of ``Salvation and China'' 
        house church magazine. She was sentenced to 15 years in prison 
        by the Intermediate Court of Jingmen City. Hubei Province. She 
        is held at No. 2 Division, Section 3, Wuhan Female Prison, 
        Wuhan city, Hubei Province. Zip code: 430032.

    6. Pastor Liu Fenggang

          Age: 44; Arrested: Oct. 13, 2003, tried by the Intermediate 
        Court of Hangzhou City, Zhejiang Province on March 16, 2004. 
        Convicted by the same court and sentenced August 6, 2004 to 3 
        years in prison. Currently held at Detention Center of Xiaoshan 
        City, Hangzhou City, Zhejiang Province.

    7. Pastor Chen Yanjing
          Age: 25; Arrested on August 6, 2004 at Kaifeng City, Henan 
        Province. He was sentenced to 2 years on Sept. 8, 2004 as a 
        member of an ``evil cult'' known as ``Born Again Movement''--
        house church group. He is now held at No. 3 Re-education 
        through Labor Center, Henan Province.

    8. Xu Shengguang

          Arrested: April 26, 2004. Imprisoned at No. 1 Detention 
        Center of Harbin City, Heilongjiang Province.

    9. Sister Qiao Chunling

          Arrested on Jan. 24, 2004 at Luoyang city by PSB of Luoyang 
        city, Henan Province. She was reportedly sentenced to 2 years 
        re-education through labor and is believed being held at No. 1 
        Female Re-education through Labor Center, Zhengzhou city, Henan 
        Province.

    10. Pastor Cai Zhuohua

          Age: 33; He was arrested on September 11, 2004 by Department 
        of National Security in Beijing for printing ``illegal 
        religious literatures.'' His wife Xiao Yunfei, 32, was also 
        arrested on September 27, 2004. They have a 4 years old son Cai 
        Yabo.

    11. Pastor Zhang Wanshun

          Age: 41; He was arrested on August 6, 2004 by PSB of Kaifeng 
        city, Henan Province for ``illegal religious gathering.'' He 
        was accused as an active ``evil cult'' member and sentenced to 
        21 months re-education through labor on September 10, 2004. He 
        is now held at San Men Xia Re-education through Labor Center, 
        Henan Province.

    12. Pastor Ping Xinsheng

          Age: 40; He was arrested on August 7, 2004 by PSB of Yima 
        city, Henan Province for ``illegal religious gathering.'' He 
        was accused as an active ``evil cult'' member and sentenced to 
        18 months re-education through labor on September 10, 2004. He 
        is now held at San Men Xia Re-education through Labor Center, 
        Henan Province. His wife Ms. Huang Xuehua who is also a house 
        church leader is wanted by PSB.

    13. Pastor Guo Zhumei

          Age: 58; She was arrested on August 6, 2004 by PSB of Kaifeng 
        city, Henan Province for ``illegal religious gathering.'' She 
        was accused as an active ``evil cult'' member and sentenced to 
        18 months re-education through labor on September 10, 2004. Due 
        to her serious illness, she is on medical parole from No. 
        Female Re-education through Labor Center, Shi Ba Li He, 
        Zhengzhou city, Henan Province on October 20, 2004.

    14. Pastor Yang Jianshe

          Age: 47; He was arrested on August 6, 2004 by PSB of Kaifeng 
        city, Henan Province for ``illegal religious gathering.'' He 
        was accused as an active ``evil cult'' member and sentenced to 
        12 months re-education through labor on September 20, 2004. He 
        is now held at Re-education through Labor Center of Mengjin 
        county, Henan Province.

    15. Pastor Zhang Weifang

          Age: 45; He was arrested on August 6, 2004 by PSB of Kaifeng 
        city, Henan Province for ``illegal religious gathering.'' He 
        was accused as an active ``evil cult'' member and sentenced to 
        12 months re-education through labor on September 20, 2004. He 
        is now held at Da Qiao Re-education through Labor Center, 
        Luoyang city, Henan Province.

    16. Pastor Zhang Tianyun

          Age: 52; He was arrested on August 6, 2004 by PSB of Kaifeng 
        city, Henan Province for ``illegal religious gathering.'' He 
        was accused as an active ``evil cult'' member and sentenced to 
        30 months re-education through labor on September 5, 2004. He 
        is now held at Re-education through Labor Center, Xuchang city, 
        Henan Province.

    17. Pastor Yu Xiangzhi

          Age: 41; She was arrested with her husband Zhang Xiaofang and 
        their 11-year-old twin daughters on August 6, 2004 at their 
        home by PSB of Kaifeng City, Henan Province for ``illegal 
        religious gathering.'' She was accused as an active ``evil 
        cult'' member and sentenced to 12 months re-education through 
        labor on September 20, 2004. She is now held at the Detention 
        Center of Kaifeng City, Henan Province. Her twin daughters were 
        released after being held for 7 days at the same detention 
        center.

    18. Pastor Yu Guoying

          He was arrested on August 6, 2004 by PSB of Kaifeng city, 
        Henan Province for ``illegal religious gathering.'' He was 
        accused as an active ``evil cult'' member and sentenced to 12 
        months re-education through labor on September 20, 2004. He is 
        now held at Xi Qu Re-education through Labor Center, Kaifeng 
        city, Henan Province.

    19. Pastor Shun Fu

          He was arrested on August 6, 2004 by PSB of Kaifeng city, 
        Henan Province for ``illegal religious gathering.'' He was 
        accused as an active ``evil cult'' member and sentenced to 18 
        months re-education through labor on September 20, 2004. He is 
        now held at Re-education through Labor Center of Xuchang city, 
        Henan Province.

    20. Pastor Li Qun

          He was arrested on August 6, 2004 by PSB of Kaifeng city, 
        Henan Province for ``illegal religious gathering.'' He was 
        accused as an active ``evil cult'' member and sentenced to 12 
        months re-education through labor on September 20, 2004. He is 
        now held at Re-education through Labor Center of Xuchang city, 
        Henan Province.

    21. Pastor Xu Fuming

          Pastor Xu Fuming received a life sentence on October 10, 2002 
        as a member of South China Church. He is now imprisoned at 
        Jingzhou prison, Jingzhou city, Hubei Province. Zip code: 
        434020 Prison Chief: Mr. Peng Xianrong and Mr. Yang Tangxiang.

    22. Mr. Hu Ying

          Mr. Hu Ying received a life sentence on October 10, 2002 as a 
        member of South China Church. He is held at Section Five, Chu 
        Jiang Ran Zhi Factory, Jingzhou city, Hubei Province. Zip code: 
        434020 Prison Chief: Mr. Peng Xianrong and Mr. Yang Tangxiang.

    23. Ms. Sun Minghua

          Ms. Sun Minghua received a 13-year sentence. She is held at 
        No. 5 Division, Section 3, Wuhan Female Prison, Wuhan city, 
        Hubei Province. Zip code: 430032.

    24. Ms. Xiao Yanli

          Ms. Xiao Yanli received a ten-year sentence. She is held at 
        No. 2 Division, Section 2, Wuhan Female Prison, Wuhan city, 
        Hubei Province. Zip code: 430032.

    25. Ms. Deng Xiaolin

          Ms. Deng Xiaolin received a four-year sentence. She is held 
        at Section 2, Wuhan Female Prison, Wuhan city, Hubei Province. 
        Zip code: 430032.

    26. Ms. Gong Xianqun

          Ms. Gong Xianqun received a three-year sentence. She is held 
        at No. 3 Division, Section 3, Wuhan Female Prison, Wuhan city, 
        Hubei Province. Zip code: 430032.

    27. Mr. Gong Bangkun

          Mr. Gong Bangkun received a 15-year sentence. He is held at 
        No. 3 Division, Section 6, Jiangling District, Jingzhou city, 
        Hubei Province. Zip code: 434110.

    28. Pastor Yi Chuanfu

          Pastor Yi Chuanfu received a 10-year sentence. He is held at 
        No. 2 Division, Section 6, Jiangling District, Jingzhou city, 
        Hubei Province. Zip code: 434110.

    29. Pastor Dong Daolai

          Pastor Dong Daolai received a 10-year sentence. He is held at 
        No. 1 Division, Section 6, Jiangling District, Jingzhou city, 
        Hubei Province. Zip code: 434110.

    The following Christian women prisoners were sentenced as members 
of ``evil cult'' (refers to South China Church) by the People's Court 
of Yunyang County, Chongqing City, on May 14, 2002. The Prison address 
is: Yongchuan Female Prison, Yongchuan city, Chongqing City. Zip Code: 
402164.

    30. Ms. Chi Famin

          Ms. Chi Famin received a 10-year sentence.

    31. Ms. Tan Qong

          Ms. Tan Qong received a seven-year sentence.

    32. Ms. Yi Qongling

          Ms. Yi Qongling received a seven-year sentence.

    33. Ms. Lu Yumei

          Ms. Lu Yumei received a seven-year sentence.

    34. Ms. Xiang Shuangyu

          Ms. Xiang Shuangyu received a seven-year sentence.

    35. Ms. Tang Mengyu

          Ms. Tang Mengyu received a six-year sentence.

    36. Ms. Huang Zuoying

          Ms. Huang Zuoying received a three-year sentence. She will 
        finish her sentence in May, 2004.

    The following Christian prisoners were sentenced as members of 
``evil cult'' (refers to South China Church) by the People's Court of 
Yunyang County, Chongqing City, May 14, 2002. Their prison address is: 
Section 3, Sanxia (Three-Gorge) Prison, Wanzhou, Chongqing City, Zip 
code: 404023.

    37. Mr. Zhao Xitao

          Mr. Zhao Xitao received a seven-year sentence.

    38. Mr. Shen Daoxing

          Mr.Shen Daoxing received a four-year sentence.

    39. Mr. Tan Shigui

          Mr. Tan Shigui received a four-year sentence.

    40. Ms. Gu Yaoxiang

          Ms. Gu Yaoxiang was sentenced to 1 year and 9 months re-
        education through labor and now still serves at Xiu Hua 
        Factory, Female Laojiao Camp, Shi Ba Li He Town, Zhengzhou 
        city, Henan Province.

    41. Dr. Xu Yonghai

          Age: 44; Dr. Xu Yonghai was arrested in Beijing in November 
        of 2003.He was tried by the Intermediate Court of Hangzhou 
        City, Zhejiang Province on March 16, 2004. Convicted by the 
        same court and sentenced August 6, 2004 to two years in prison. 
        He is currently held at Detention Center of Xiaoshan City, 
        Hangzhou City, Zhejiang Province.

    42. Pastor Luo Bingyin

          Age: 40; Arrested on July 17, 2004 at Fuyang city, Anhui 
        Province by the PSB of Fuyang city, Pastor Luo is now held at 
        Funan prison, Anhui Province without a trial.

 Appendix III: Case About Prominent Beijing House Church Leader Pastor 
                              Cai Zhuohua

       Prominent Beijing House Church Leader Faces Harsh Sentence

                MIDLAND, TEXAS (CAA)--NOVEMBER 11, 2004
    CAA learned a prominent Beijing house church leader will face an 
extremely harsh sentence if convicted in the upcoming trial. Pastor Cai 
Zhuohua, a house church leader ministering to six house churches in 
Beijing will be formally tried in a Beijing court very soon. The 32-
year-old pastor was kidnapped by three plain-clothed officers believed 
to be from the Department of State Security at about 2:00pm on 
September 11, 2004. According to an eyewitness account, Cai was waiting 
at a bus stop when three strong men approached him and pushed him into 
a white van. Cai was returning home following a Bible study session 
that morning. Cai's wife, Xiao Yunfei, along with her brother, Xiao 
Gaowen, and sister-in-law, Hu Jinyun, were also arrested September 27 
while hiding in Hengshan county, Hunan Province. Sources familiar with 
the case told CAA that Pastor Cai and his wife will face an extremely 
harsh sentence because of their prominent role in the Beijing house 
church leadership. CAA learned that this case has been handled directly 
by the Department of State Security. Another source close to the 
central law enforcement authority revealed to CAA that a two-word 
handwritten directive ``Yan Ban'' (which means to deal with this case 
harshly and severely) was issued by Mr. Qiang Wei, deputy General 
Secretary of Politics and Law Commission of Beijing. And that the 
central government had already labeled this case the most serious case 
on overseas religious infiltration since the founding of the People's 
Republic of China. It's believed the authorities were shocked when they 
found about 200,000 copies of the Bible and other Christian literature 
in a storage room managed by Pastor Cai. In China, only one publisher 
belonging to the officially sanctioned Three-Self Patriotic Movement is 
allowed to publish and print a limited number of Bibles and other 
Christian literature each year. These publications are forbidden to be 
sold in the public bookstores.
    With the rapid growth in the number of Christians every year, 
Chinese house churches sometimes find printers willing to print a few 
Bibles for extra cash instead of relying on ``Bible-smugglers'' from 
overseas. Sources close to one of Pastor Cai's churches said the 
confiscated Bibles and other Christian literature were solely for 
internal house church-use and Pastor Cai made no profit off them. 
Pastor Cai and his wife have one four-year-old son, Cai Yabo, who is 
now under the care of his grandmother. The prosecution team source told 
CAA that this case is part of a broader national campaign against the 
underground church and so-called ``illegal'' religious publications 
that began this past June. The Chinese authority is especially unhappy 
about a house church quarterly magazine called Love Feast ``AI YAN'' 
(www.AiYan.org) in which Pastor Cai has been involved. In several 
issues in the past, contrary to Chinese official position, it published 
articles on President Bush's faith and commemorations on Dr. Jonathan 
Chao, one of the most respected Chinese church historians, who passed 
away this year. According to the same source, instead of on religious 
grounds, the authorities are considering convicting Pastor Cai and his 
wife, along with the other two relatives, on criminal charges such as 
tax evasion or illegal business management, which could lead to a life 
sentence. All four arrested are now being held at Qinghe Detention 
Center, Haidian District, Beijing. So far none of their relatives are 
allowed to visit them.
    ``All of those who know Pastor Cai over the years can testify that 
he and his wife are wonderful Christians with loving hearts for both 
the church in China and their motherland,'' said Bob Fu, CAA's 
president and a former coworker of Pastor Cai. ``We urge people of all 
faiths to take action to demand their immediate release.''
    (Photo of Pastor Cai performing baptism for new believers.)
    Letters of protest can be sent to the Chinese Embassy in Washington 
DC at the following address:

          Ambassador Yang Jiechi, Embassy of the People's Republic of 
        China, 2300 Connecticut Ave NW, Washington DC 20008; Tel:(202) 
        328-2500; Fax:(202) 588-0032; Director of Religious Affairs: 
        (202) 328-2512.

    Issued by China Aid Association, Inc. on November 10, 2004.

 Appendix IV: Case About Husband of the Killed Christian Woman Appeals 
                     for International Intervention

    Husband of The Killed Christian Woman Appeals for International 
                              Intervention

                    BEIJING (CAA)--NOVEMBER 13, 2004
    China Aid Association releases an urgent letter of appeal asking 
for international intervention in behalf of a Chinese Christian victim. 
Requested by Mr. Zhang Zhenghua, husband of Ms. Jiang Zongxiu who was 
beaten to death during interrogation time on June 18, 2004 at PSB 
office of Tongzi County, Guizhou Province. CAA urges the international 
community to press the related Chinese government agencies to take full 
responsibility regarding the death of this Christian lady and to hold 
those abusive police officers accountable. Ms. Jiang Zongxiu, 34-year-
old, was arrested on June 17 while she and her mother-in-law was 
distributing some Christian tracts and Bibles in the market place at 
Tongzi county, Guizhou Province. Both of them were sentenced to 15 
days' administrative detention for their suspected activities of '' 
spreading rumors and disturbing social order``.Ms. Jiang was found dead 
during interrogation time at about 2pm on June 18, 2004. The sudden 
mysterious death was even reported by China Legal Daily on July 4, 2004 
in which the reporter questioned the cause of Jiang's death. However, 
despite of numerous times of formal appeals to higher authorities 
including both the provincial and central governments by then 
relatives, so far no one had taken any responsibility to address the 
request from the relatives of the victim. Surprisingly, the local 
government-managed first autopsy result claimed Ms. Jiang died of '' 
fat heart failure`` without even mentioning the obvious wounds and 
scars caused by beatings during the interrogation time. Ms. Jiang left 
a four-year-old son Zhang Jun and her husband as well as her aged 
parents.
    ``This is another grave case of religious persecution costing a 34-
year innocent lady's life simply because of distributing Bibles and 
Gospel tracts,`` said Bob Fu, ''We strongly urge the Chinese government 
to fully investigate this case and address the requests of Ms. Jiang's 
relatives.''
    Letters of protest can be sent to the Chinese Embassy in Washington 
DC at the following address:

          Ambassador Yang Jiechi, Embassy of the People's Republic of 
        China, 2300 Connecticut Ave NW, Washington DC 20008; Tel:(202) 
        328-2500; Fax:(202) 588-0032; Director of Religious Affairs: 
        (202) 328-2512.

                                                  November 10, 2004
Re: Appeal from the family of Jiang Zongxiu, Who Died a Sudden Death 
    during Detention
    I am Zhang Zhenghua, husband of Jiang Zongxiu, a villager of Baishi 
Village of Ganshui Township of Qijiang County of Chongqing City. On 
June 18, 2004, the Public Security Bureau of Tongzi County of Guizhou 
Province in the name of ``disturbing social order'' detained my 34-
year-old wife, due to her disseminating the Gospel books of the Bible. 
And on that afternoon she died a sudden death for an unknown reason. 
Since our marriage, my wife has been in good health, and has not been 
afflicted by any disease. Even if she occasionally caught cold, it was 
no need for her to seek treatment. In the noontime of that day my wife 
told my mother, who was detained in the same place for the same reason, 
``The officers kicked me, and I feel very painful.'' Over six months 
have gone by since my wife's death. The leaders of the Public Security 
Bureau of Tongzi deceived the upper-level authorities, and intimidated 
the victim's family. It is beyond our toleration. I hereby disclose 
this case to the public, hoping all conscientious people might speak 
out the truth and bringing those who violated the law to justice.
    The following are our doubts over the death of Jiang Zongxiu:

          1. Jiang Zongxiu had been in good health before her death. 
        Since our marriage, I have been working in Chongqing to sustain 
        the family. All the work of my family, including farming the 
        land, feeding the livestock, raising the child, taking care of 
        my parents, had to be done by her alone. She had never been 
        afflicted by any disease.
          2. Jiang Zongxiu was severely beaten by the officers of the 
        PSB of Tongzi during interrogation, which can be witnessed by 
        my mother Tan Dewei, and some pictures taken on the site of 
        autopsy. There were wounds all over her body. The current law 
        of our country forbids beating or forcing a confession from 
        those who are in custody.
          3. Responsible officers kept lying to my mother, who was 
        detained in the same detention center. In the course of 
        detention, my mother asked the officers several times about 
        Jiang Zongxiu. They had been lying to her and concealing the 
        truth. Suppose Jiang Zongxiu did die of a sudden death as the 
        legal medical appraisers insist, it is not necessary for the 
        PSB to conceal the truth to us. Even at the very moment of my 
        mother's release on June 23, they still told her that Jiang 
        Zongxiu had gone home. What is more, if Jiang Zongxiu had not 
        died, the detention center would not have released my mother 
        ahead of schedule, who was supposed to be detained fifteen 
        days. And my mother would not have been sent home in car by the 
        police officers. The later development of this case indicates 
        that the PSB knew that their illegal conduct had been 
        disclosed. Therefore, they were surprisingly well behaved.
          4. The PSB ordered the remains to be cremated within 3 days. 
        The PSB knows an autopsy is inevitable for such an usual case. 
        They are eager to cremate the remains in order to destroy the 
        strong evidence and shirk their responsibilities.
          5. With the hard efforts of our attorney, the autopsy was 
        finally conducted. In order to collect some evidences, to tell 
        our son when he grows up what happened to his mother, we wanted 
        to take some pictures. At first the police officers forbade us 
        to come closer to the site. With our strong demand we were 
        finally allowed to do so. The pictures indicate that there are 
        wounds all over the body.
          6. In the course of autopsy, we heard that one officer said, 
        ``It is unnecessary to appraise, for obviously she was beaten 
        to death.''
          7. I found out on the autopsy site that, my wife wore prison 
        clothes. My request for her original clothes was declined. As 
        material evidence her clothes shall be submitted for appraisal 
        and analysis.
          8. The legal medical report makes no explanation about what 
        cause the sudden death. The report detailed the situation of 
        the interior organs, but failed to mention the fingerprints, 
        imprints, and stripes on the body, which any lay people can 
        identify are caused by beating. Is it done so carelessly, or to 
        help the PSB shirk responsibilities?
                                    Zhang Zhenghua,
                                   Jiang Zongxiu's husband.
                                 ______
                                 

                 Prepared Statement of Joseph M.C. Kung

                           NOVEMBER 18, 2004
    Ladies and Gentlemen:
    Two and a half years ago on March 25, 2002, I testified to this 
committee about the persecution of underground Roman Catholic Church in 
China. I testified at that time that the persecution of religious 
believers had never stopped regardless of the fact that China had made 
significant economic progress and that China had joined World Trade 
Organization. I also testified two years ago that many arrests and 
tortures of underground Roman Catholic bishops, priests, nuns, and lay 
persons had taken place, ranging from an 82-year-old priest to a 12-
year-old girl. I also reported the complete destruction of a shrine of 
the Blessed Mother in Dong Lu in Hebei by 5,000 Chinese soldiers in May 
1996 and the destruction of hundreds of churches. I talked about the 
disappearance of Bishop Su Zhimin after his arrest in October 1997 and 
the disappearance of Bishop An Shuxin after his arrest in May 1996. We 
discussed the difference between the Patriotic Association and the 
underground Roman Catholic Church. We highlighted that a Holy Mass, a 
prayer service, and even praying over the dying by an underground Roman 
Catholic were considered illegal and subversive activities by the 
Chinese government punishable by exorbitant fines, detention, house 
arrests, jails, labor camps, or even death. We also discussed how the 
Chinese government forced underground Roman Catholics to register with 
the Patriotic Association. Refusing to do so would result in being 
sentenced to three years' labor camp. Being ordained an underground 
Roman Catholic priest was also considered a crime punishable by three 
years in the labor camp. You may find all this information in your 
congressional record dated March 25, 2002.
    I regret to inform you that I do not have any good news for you 
today. The arrests and atrocities that I reported to you two years ago 
continue unabated during the past two years. For instance, churches are 
still being destroyed. Random arrests of religious and other faithful 
are still being made.
    A Roman Catholic church was demolished by the Chinese government on 
June 21, 2003 in Liu Gou Village in Heibei. The building of this church 
was completed only two weeks beforehand. One church in the Fujian 
province was torn down three times because the faithful refused to join 
the Patriotic Association. Since 1999, 27 churches were destroyed in 
the archdiocese of Fuzhou in the Fujian province.
    Bishop Peter Fan, who was the Bishop of Baoding in Hebei for 
approximately 41 years, was pronounced dead in jail on April 13, 1992. 
He was tortured to death at the age of 85. He spent all 41 years as a 
bishop under surveillance, custody, detention, and arrest in prison or 
in labor camps. Reuter reported: ``There was a large bruise on the 
right side of the man's face. The bones of his legs appeared to be 
broken. The two legs were tied so tightly together with white cloth 
that it was difficult to untie them. There was obviously something they 
wanted to hide.''
    In his 2002 China trip, US President George W. Bush urged Jiang 
Zemin to free Bishop John Gao Kexian from prison. Instead, Bishop Gao, 
76, a reserved and timid man, died two and one-half months ago in an 
unknown prison in northern China in August 2004 after five years in a 
prison. His remains were sent to his relatives at the end of August, 
2004 without any explanations. He joins the ranks of the martyred who 
gave their lives for Christ in China. (Asia News 9/12/04)
    Bishop SU Zhimin and Bishop AN Shuxin are still missing. We still 
do not know if they are now dead or alive.
    Bishop Su is a prominent leader of the underground Roman Catholic 
Church. He had been arrested at least five times, and spent 
approximately 28 years in prison thus far. He was beaten in prison so 
savagely that he suffered extensive loss of hearing. He met with 
Congressman Christopher Smith in January 1994 and was arrested and 
detained for nine days immediately after the departure of Congressman 
Smith. He was arrested again later, and escaped from prison and 
remained in hiding from April 1996 to October 1997. He was rearrested 
in October 1997. While in hiding, Bishop Sue wrote to the Standing 
Committee of the People's National Congress. He asked it ``to 
thoroughly investigate the serious unlawful encroachment on the 
citizen's rights, and to administer corrective measures to restore 
order and control to ensure that the civil rights and interests of the 
vast number of religion believers are protected.'' Bishop SU was seen 
only once when he was accidentally discovered on November 15, 2003 
while he was hospitalized in a Baoding hospital. Once the Chinese 
government realized that Bishop Su was discovered, he was taken away 
immediately without a trace.
    Bishop AN was in labor camp from November 1982 to October 1985. He 
was arrested several times from 1985 to 1993. He was last arrested in 
May 1996 and was only seen once when he was allowed to visit his mother 
a few years ago. He has not been seen ever since.
    Underground bishops are routinely rounded up during the major feast 
days such as Christmas and Easter or even during a visit by certain 
foreign personnel. They are routinely taken away forcibly to a hotel 
for a few days in order to be separated from their congregations so 
that they could not celebrate the Holy Mass during the important feast 
days or they could not meet with these foreign visitors. Often, adding 
insult to injury, the bishops are forced to pay for the hotel and meal 
expenses, including for those government officials who watched over 
them. This could amount to a large sum of money that the bishops simply 
cannot afford.
    Besides Bishop Su and Bishop AN, many other bishops have been 
arrested. The attached prisoner list could give you some idea that 
almost every one of the underground Roman Catholic bishops is either 
arrested in jail, or under house arrest, or under strict surveillance, 
or in hiding.
    The violent and widespread arrests of underground Roman Catholic 
religious and faithful continue unabated. On August 6 this year, eight 
priests and two seminarians were arrested in the Hebei province while 
they were attending a religious retreat. Approximately 20 police 
vehicles and a large number of security personnel conducted a house to 
house search in order to arrest these priests and seminarians. There 
are now at least twenty-six underground religious in various jails at 
this time in the Hebei province alone. The Vatican issued a strong 
denunciation of religious repression in China because of this arrest. 
The Pope's spokesman, Joaquin Navarro-Valls, criticized China when he 
said: ``We find ourselves once again faced with a grave violation of 
freedom of religion, which is a fundamental right of man.'' On May 16 
this year, two priests, Father LU Genjun and Father CHENG Xiaoli, were 
arrested in Hebei just before they were to start classes for natural 
family planning and moral theology courses. A dozen priests and 
seminarians were attending a religious retreat on October 20, 2003 in a 
small village in Hebei. They were all arrested. On July 1, 2003, five 
priests were arrested on their way to visit another priest, Father LU 
Genjun, who was released from labor camp after serving there for three 
years. Another priest, Father LU Xiaozhou, was arrested on June 16, 
2003 when he was preparing to administer the Sacrament of Anointing of 
the Sick to a dying Catholic. These are just few examples of the 
arrests since my testimony two years ago.
    Sometimes a religious is arrested for flimsy reasons. The 
government official would then ask for a ``fine'' which could be 
negotiated for the amount in order to release the prisoner. Often, the 
``fine'' is paid quietly without any receipt, and the religious is 
released. These incidents have been orally reported to me a number of 
times. They are of course without any written evidence. A priest was 
arrested in Wenzhou in Zhejiang province because he printed religious 
hymns. He was arrested in 1999 and sentenced in 2000 to six years in 
prison with a fine of JMP 270,000 equivalent to approximately 
US$33,750!
    Bishops and other religious continue to be forced to attend a 
government-sponsored religious conference to propagate the three 
autonomies principles (Self apostolate, self finance, and self 
administer) of the Patriotic Association, thereby forcing or attempting 
to force the underground Church personnel to join the Patriotic 
Association by threats and by treats. The catechism is not allowed to 
be taught to young children under 16 years old. Underground seminaries 
are considered illegal and are not allowed to be established.
    Upon learning that I was going to testify to this committee, an 
underground bishop requested me to give you two messages:

          1. Since 1949 when the communists took over China, literally 
        tens of thousands of Roman Catholic bishops, priests, and other 
        faithful have been arrested. They were put in jail for 10, 20, 
        30, or even 40 years. Many of them died in jail. One of them 
        was Bishop Joseph FAN Xueyan, whom I had reported above. Many 
        of them were released after a very long period. Some of those 
        released, such as Ignatius Cardinal Kung, have since died. Some 
        of them are still living. It does not matter to the government 
        if they are dead or still living; they are still considered 
        criminals because their ``criminal'' charges were never erased 
        by the government. This bishop in China respectfully requested 
        this committee to convey the plea to the administration that, 
        while negotiating with the Chinese government for religious 
        freedom, the United States government propose that these 
        prisoners, both living and dead, be officially and posthumously 
        exonerated of so called crimes of which the Chinese government 
        falsely accused them five decades ago. In doing so, the 
        reputation of these living and dead religious prisoners of 
        conscience can be restored in China. Those who are still living 
        can at least once again enjoy equal treatment in the society.
          2. The people of China love and yearn for true freedom of 
        religion. Again, the bishop wonders if the United States 
        government could continue to negotiate with the Chinese 
        government so that (i) the faithful in China do not have to 
        fear that they could get arrested during their religious 
        activities, (ii) their churches would not be destroyed after 
        they labored so hard to build them, and (iii) all those 
        imprisoned religious and other faithful would be released. The 
        bishop believes that the freedom that President Bush has 
        committed to promote all over the world during his election 
        campaign has to include religious freedom. Pope John Paul II 
        has said that religious freedom is the most basic form of all 
        freedom. This Chinese underground bishop therefore hopes that 
        through the 
        direct request from President Bush to the highest authority of 
        the Chinese government, true religious freedom might be granted 
        to the Chinese people. The bishop wants the highest authority 
        in China to know about these atrocious acts of persecution of 
        people of religious faith in the hope that, having realized 
        these atrocities, the government will wake up to correct and 
        eliminate this persecution.
    Thank you.

  Cardinal Kung Foundation: Prisoners of Religious Conscience for the 
 Underground Roman Catholic Church in China--Updated: November 15, 2004

The following is a list of persons known to the Cardinal Kung 
        Foundation to be Roman Catholics who are confined for their 
        religious belief and religious activity. This list is by no 
        means complete, because of the difficulties in obtaining 
        details. Accordingly, many cases of arrest were not reported 
        here.

A: (Underground) Roman Catholic Bishops In Prison or Under House Arrest 
                   or Under Surveillance or In Hiding

A(I) In Prison

    1. Bishop AN Shuxin, Baoding, Hebei--Arrested in March, 1996. (Our 
press release June 17, 1996). Whereabouts unknown. Dead or alive 
unknown.
    2. Bishop GAO Kexian, Yantai, Shandong--Arrested in October, 1999. 
Whereabouts unknown. Died in jail in August 2004. Cause of death 
unknown.
    3. Bishop HAN Dingxiang, Yong Nian, Hebei--Arrested on or about 
December 1, 1999 (our press release January 23, 2000).
    4. Bishop SHI Enxiang, Yixian, Hebei--Arrested April 13, 2001 (our 
press release April 22, 2001).
    5. Bishop SU Zhimin, Baoding, Hebei--Re-arrested October 8, 1997 
after 17 months in hiding. (our press release October 11, 1997) He has 
disappeared. His whereabouts are unknown.

A(II) Under Arrest Warrant & In Hiding

    6. Bishop Han Qian, Siping, Jilin. Has been under arrest warrant 
for many years. Hiding somewhere.

A(III) Under House Arrest or Under Strict Surveillance

    7. Bishop FAN Zhongliang, S.J., Shanghai--Under strict 
surveillance.
    8. Bishop HAO Jinli, Xiwanzi, Hebei--Under strict surveillance.
    9. Bishop JIA Zhiguo, Bishop of Zhengding, Hebei--Arrested August 
15, 1999. (Our press release November 2, 1999) Released Jan 28, 2000 
(Fides press release February 18, 2000). Arrested again April 20, 2002. 
(Our press release April 24, 2002). Released few days later. Now under 
strict surveillance.
    10. Bishop LI Side, Tianjin, Hebei--Confined to the top of a 
mountain under primitive condition.
    11. Bishop LIN Xili, Wenzhou, Zhejiang--Arrested 1999. Under house 
arrest.
    12. Bishop LIU Guandong, Yixian, Hebei--Paralyzed, but still under 
strict surveillance.
    13. Bishop MA Zhongmu, Ningxia--Under strict surveillance.
    14. Bishop John YANG Shudao, Fuzhou, Fujian--Arrested February 10, 
2000. (our press release February 13, 2000). Now released under house 
arrest.
    15. Bishop Yu Chengti, Hanzhong, Shaanxi--Under strict 
surveillance.
    16. Bishop XIE Shiguang, Mindong, Fujian--Arrested mid-October 
1999. Now released under strict surveillance.
    17. Bishop ZENG Jingmu, Yu Jiang, Jiangxi--Arrested November 22, 
1995. Sentenced to 3 years. (our press release November 26, 1995) He 
was released from jail May 9, 1998 (our press release May 10, 1998) and 
was re-arrested September 14, 2000 (our press release September 16, 
2000). Released again according to Zenit report on October 31, 2000. 
Under house arrest.

Note: Notwithstanding the above list, almost all underground bishops 
are either in jail, under house arrest, hiding with or without arrest 
warrant, in labor camp, or under severe surveillance.

         B. (Underground) Roman Catholic Priests & Seminarians

B(I) In Prison or in Labor Camps

    1. Father AN Jianzhao , Baoding, Hebei--Arrested August 6, 2004.
    2. Father CHEN Guozhen, Baoding, Hebei--Arrested July 1, 2003.
    3. Seminarian CHEN Rongfu, Gaocheng County, Shigiazhuang, Hebei--
Arrested October 20, 2003.
    4. Father DING Zhaohua, Wenzhou, Zhejiang--Arrested 2002.
    5. Father DOU Shengxia, Gaocheng County, Shigiazhuang, Hebei--
Arrested October 20, 2003.
    6. Seminarian HAN Jianlu, Gaocheng County, Shigiazhuang, Hebei--
Arrested October 20, 2003.
    7. Father HUANG Chunshou, Sujiazhuang Village, Quyang County, 
Hebei--Arrested August 6, 2004.
    8. Father HUO Junlong, Baoding, Hebei--Arrested August 6, 2004.
    9. Father KANG, Fuliang, Baoding, Hebei--Arrested July 1, 2003.
    10. Father KONG Guocun, Wenzhou, Zhejiang--Arrested October 1999.
    11. Father LI Jianbo, Baoding, Hebei--Arrested April 19, 2001. 
Sentenced to 3 years labor camp. ( Our press release April 22, 2001)
    12. Father LI Shujun, Baoding, Hebei--Arrested July 1, 2003.
    13. Father LI Wenfeng, Gaocheng County, Shigiazhuang, Hebei--
Arrested October 20, 2003.
    14. Father LIU Heng, Gaocheng County, Shigiazhuang, Hebei--Arrested 
October 20, 2003.
    15. Father MA Wuyong, Baoding, Hebei--Arrested August 6, 2004.
    16. Father PANG Guangzhao, Baoding, Hebei--Arrested July 1, 2003. 
Although released and gone home, he is not allowed to administer 
sacraments.
    17. Father PANG Yongxing, Baoding, Hebei--Arrested December 2001. 
Sentenced to 3 years labor camp (our press release July 26, 2002). 
Although released and gone home, he is not allowed to administer 
sacraments.
    18. Father WANG Limao, Baoding, Hebei--Arrested March 24, 2002. 
Sentenced to 3 years labor camp (our press release July 26, 2002).
    19. Father WANG Zhenhe, Baoding, Hebei--Arrested March 1999. Has 
been detained for 5 years. Although released and gone home, he is not 
allowed to administer sacraments.
    20. Father YIN Joseph, Baoding, Hebei--Arrested July 1 2003.
    21. Father YIN Zhengjun, Baoding, Hebei--Arrested January 2001. 
Sentenced to 3 years labor camp.
    22. Seminarian ZHANG Chongyou, Gaocheng County, Shigiazhuang, 
Hebei--Arrested October 20, 2003.
    23. Father ZHANG Chunguang, Baoding, Hebei--Arrested April 2000. 
Has been detained for 4 years. Although released and gone home, he is 
not allowed to administer sacraments.
    24. Father Zhang Zhenquian, Baoding, Hebei--Arrested August 6, 
2004.

B(II) Status Unknown--May be Still in Prison or in Labor Camp

    25. Father DONG Yingmu, Baoding, Hebei--Arrested during the 
Christmas season, 2002.
                                 ______
                                 

                 Prepared Statement of Ngawang Sangdrol

                           NOVEMBER 18, 2004
    Thank you for the opportunity to testify before the Commission 
regarding the state of religious freedom in Tibet. I am honored to be 
able to share my thoughts on behalf of the International Campaign for 
Tibet and on my on behalf.
    The Tibetan struggle is the struggle for our Nation and for the 
right of the Tibetan people to preserve and promote our identity, 
religion and culture. Following the Communist Chinese invasion and 
occupation of Tibet, our people have valiantly tried to resist the 
destruction of our country, our religion and our cultural heritage. 
Tibetan Buddhism is a fundamental and integral element of Tibetan 
identity and has always played a central role in Tibetan society. The 
Chinese Communist party sees religious belief as one of its most 
significant problems in Tibet, largely due to the ties between Tibetan 
Buddhism and Tibetan identity. The Party has been 
confounded by its failure to draw Tibetans away from their religious 
beliefs, and particularly their loyalty to His Holiness the Dalai Lama. 
As well as posing an ideological problem for the Party, their concerns 
over religious belief in Tibet are also political and strategic. The 
Party's fear of a Tibetan desire for separation from China and 
instability in the PRC's border regions has increased its sensitivity 
to any perceived infiltration from outside ``hostile'' anti-China 
forces.
    In July of this year, the International Campaign for Tibet came out 
with a report on the state of religious freedom in Tibet. The report 
found that despite cosmetic changes there has been no improvement of 
the Chinese government's attitude toward Tibetan religious 
practitioners. I am giving below some of the findings of the ICT 
report.
    Since the liberalization of the mid-1980s, the Chinese authorities 
have made various attempts to limit the growth of religion in Tibet. 
After the Third Work Forum on policy in Tibet was held in Beijing in 
1994, religious activity began to be severely curtailed. The Third Work 
Forum guidelines demonstrated a deep concern on the part of the Party 
over the continued popularity of Tibetan Buddhism, intensified by the 
perceived relationship between religion and the pro-independence 
movement. The Third Work Forum gave approval at the highest level to 
increased control and surveillance of monasteries and the upgrading of 
security work undertaken by administrative bodies, beyond their 
existing duties as political educators and informants. It also called 
for the following steps to be taken in each religious institution:

        <bullet> Vetting the political position of each Democratic 
        Management Committee and appointing only ``patriotic'' monks to 
        those committees.
        <bullet> Enforcing a ban on the construction of any religious 
        buildings except with official permission.
        <bullet> Enforcing limits on the numbers of monks or nuns 
        allowed in each institution.
        <bullet> Obliging each monk and nun to give declarations of 
        their absolute support for the leadership of the Communist 
        Party and integrity of the motherland.
        <bullet> Requiring monks and nuns to ``politically draw a clear 
        line of demarcation with the Dalai clique,'' in others words to 
        give a formal declaration of opposition to the Dalai Lama and 
        his policies.

    The tightening of restrictions on religion in Tibetan areas in the 
mid-1990s 
reflects the general direction of religious policy in China. At the 
same time, the crackdown on monasteries and nunneries can also be seen 
as part of the wider effort to suppress Tibetan dissent through a 
combination of propaganda, re-education, administrative regulation, 
punishment and implementation of increasingly sophisticated security 
measures.
    In Tibet, religion became the target of destruction mainly because 
their religion and culture are what make Tibetans different from the 
Chinese. So long as the 
Tibetan has his unique religion and culture, there is no way to call a 
Tibetan ``Chinese.''
    In regards of the Chinese general policies on religious freedom in 
Tibet, hundreds of my compatriots displayed their disagreement mainly 
in peaceful way and were imprisoned. I myself participated in 
demonstrations against the Chinese authorities from the young age of 13 
precisely because I wanted to protest against the Chinese attempts to 
deny the Tibetan people our basic rights, including religious freedom. 
I was also incensed by the way the Chinese authorities were denigrating 
our spiritual and political leader, His Holiness the Dalai Lama, and no 
Tibetan can accept such action. Following my detention I was given 
various sentences altogether extending to 12 years in the dreaded 
Drapchi Prison in Lhasa.
    I had joined hands with several of my fellow nuns who, too, 
suffered detention and torture in prison. Quite a few of them have 
passed away as a result of the situation that they have to face under 
imprisonment. Those who were fortunate to escape death in prison have 
more or less become living corpses, even though they are supposed to 
have been released from prison today.
    I have been fortunate in that the international community, 
including the U.S. Congress and Administration consistently raised my 
case with the Chinese leadership. By the grace of my leader His 
Holiness the Dalai Lama and the Tibetan leadership, as well as the 
active support of American leaders I am today enjoying my time in 
freedom. While I value my freedom, I am continuously reminded of the 
plight of my fellow Tibetans, particularly those in prison. I would, 
therefore, like to take this opportunity to urge upon the U.S. 
Government to do whatever possible so that the innocent Tibetans who 
have been detained and tortured, solely for exercising their political 
rights, can gain their freedom.
    In the meanwhile, I am trying to do whatever I can to highlight 
their situation. Upon coming to the United States, I have been told of 
the rules and regulations contained in the Constitution of the People's 
Republic of China guaranteeing several rights to people living in 
China, including the prisoners. It has been a surprise to me to learn 
that even within the restrictive system that is in place in China 
today, I should have been provided with rights, including the right to 
judicial service as well as a free trial. Not only did I and my fellow 
prisoners not get such rights, we were not even informed that we had 
such rights. Therefore, I have begun the process of trying to 
understand Chinese laws so that I can become a better spokesperson for 
the Tibetan political prisoners.
    I have been informed of your Commission's report for 2004 in which 
you have commented on the situation in Tibet. Your report is correct in 
saying that even though the Chinese Constitution and other laws, like 
the Law on Regional Autonomy, may have clauses talking about religious 
and other freedoms, yet in practice there are very many restrictions 
placed on the Tibetan people. For example, I recently heard that 
Chinese officials have said that there is no formal ban on the Tibetan 
people possessing and displaying photos of His Holiness the Dalai Lama. 
These officials were reported by the media as saying that the Tibetans 
voluntarily do not want to display His Holiness'' photos. These Chinese 
officials are not only ignorant of the Tibetan people's feelings but 
their action also indicates the Chinese government's lack of respect 
for Tibetan people's religious rights. It has only been an year or so 
since I came out of Tibet and I know that if there is no direct or 
indirect political pressure from the Chinese authorities, almost all 
Tibetans in Tibet would be displaying portraits of the Dalai Lama. We 
Tibetans are proud of our religious and temporal leader, and the 
Tibetan people's belief and reverence for His 
Holiness the Dalai Lama has not waned. Unfortunately, almost all major 
decisions relating to the Tibetan people are not made by the Tibetan 
people, nor even by Tibetan officials, but by Chinese leaders in 
Beijing.
    I support the Commission's recommendation on Tibet made in your 
annual report for this year in which you said, ``The future of Tibetans 
and their religion, language, and culture depends on fair and equitable 
decisions about future policies that can only be achieved through 
dialogue. The Dalai Lama is essential to such a dialogue. The President 
and the Congress should continue to urge the Chinese government to 
engage in substantive discussions with the Dalai Lama or his 
representatives.''
    Since this Commission has been specifically established to monitor 
the situation in China and provide appropriate policy recommendations 
to the U.S. Government, I would urge you to consider the following.

          1. The case of Tenzin Delek Rinpoche is extremely urgent 
        since there is every possibility that the Chinese government 
        will execute him after his suspended death sentence expires in 
        the coming month. The US Government should intervene so that 
        this innocent Tibetan lama is saved from execution.
          2. The issue of the Panchen Lama is of utmost importance to 
        the Tibetan people. We still do not have any solid information 
        about the whereabouts and the well-being of the 11th Panchen 
        Lama, Gedhun Choekyi Nyima. The United States should press 
        China to allow an independent monitor to verify that the 
        Panchen Lama is fine and that he is getting his religious 
        education.
          3. The situation of Tibetan political prisoners has been of 
        close interest to me, since I was one until recently. I would 
        urge the United States to press the Chinese government to 
        release all Tibetan political prisoners. Further, China should 
        be asked to restore the rights of those Tibetan political 
        activists who have been released. I have heard from many of 
        these individuals that they continue to face persecution even 
        outside of prison.
          4. Ultimately the only way to provide a lasting solution to 
        the issue of religious freedom in Tibet is by finding a 
        solution to the political problem in Tibet. The United States 
        should be proactive in urging the Chinese government to begin 
        substantive talks with the representatives of His Holiness the 
        Dalai Lama so that a negotiated solution can be found.

    In conclusion, I thank the United States government and the people 
for the positive role that you have been playing in highlighting the 
Tibetan issue and for supporting His Holiness the Dalai Lama in finding 
a just solution to the Tibetan issue.
    Tashi Delek and thank you.

 Opening Statement of Hon. James A. Leach, a U.S. Representative From 
      Iowa, Chairman, Congressional-Executive Commission on China

                            NOVEMBER 18, 2004
    The Commission convenes this morning to hear several experts, who 
have agreed to share with us their analysis of the intensifying 
government campaign in many parts of China against religious groups and 
individual believers and practitioners.
    Religious freedom around the world remains among the most important 
issues of concern for most Americans, and for that reason, freedom of 
religion has been a central topic in our bilateral human rights 
discussions with China for many years. Unlike Karl Marx, who believed 
that religion was the ``opiate of the masses,'' our country's founders 
held that ethical values, derived from religion, anteceded and anchored 
political institutions. It is the class struggle implications of 
Marxism--the exhortation to hate thy fellow citizen instead of love 
thine enemy--that stands in stark contrast with the demand of tolerance 
built into our Bill of Rights.
    From the American perspective, the real opiate of the 20th and 21st 
centuries would appear to be intolerance, the instinct of hatred which 
becomes manifest in the individual and unleashed in society when 
governments fail to provide safeguards for individual rights and fail 
to erect civilizing institutions adaptable to change and accountable to 
the people. Churches, religious schools, hospitals, and faith-based 
charitable organizations are examples of this type of civilizing 
institution. Coupled with religious faith itself, such institutions can 
be a powerful force for tolerance.
    Both the Congress and the executive branch have long stressed the 
importance of religious freedom in China. The Senate and House have 
frequently passed resolutions calling on Chinese authorities to respect 
the freedom of worship, belief, and religious affiliation guaranteed by 
international human rights norms. In his first term, President Bush 
raised U.S. concerns about religious freedom with the most senior 
Chinese leaders, emphasizing the importance of treating peoples of 
faith with fairness and dignity, freeing prisoners of conscience, and 
respecting the religious and cultural traditions of the people of 
Tibet.
    The Chinese Constitution says that the government protects ``normal 
religious activity,'' but in practice, the government and the Communist 
Party require that religion be consonant with state-defined patriotism. 
Official repression of religion is particularly harsh in Tibetan and 
Uighur areas, where religious conviction and traditions may frequently 
be interwoven with separatist sentiment. Chinese authorities often see 
separatist sentiment as a precursor to terrorism, even when religious 
practitioners express such sentiment peacefully and advocate 
nonviolence.
    In June 2003, the Commission convened a hearing to assess whether 
the rise of a new group of senior Chinese political leaders might augur 
a change in government policy toward religion. Our witnesses were not 
very optimistic about any such changes, at least over the short term. 
We also became interested in whether the new leadership group would 
encourage the social service activities of religious groups, so that 
faith-based groups would take responsibility for some of the social 
services that governments at all levels in China can no longer sustain.
    Roughly 18 months later, we have seen evidence of some increased 
official tolerance of faith-based social service initiatives in some 
places in China, but in general we have not seen significant 
liberalization of Chinese government policy toward religion itself. 
Indeed, there is significant evidence of a tightening of repressive 
measures in many places in China.
    With those comments, let me introduce our Commission members, and 
our first panel.

                                 <all>

</pre></body></html>
